Department of Homeland Security
   Ofﬁce of Inspector General
          SENSITIVE SECURITY INFORMATION
 Effectiveness of the Department of Homeland Security
           Traveler Redress Inquiry Program

                                             (REDACTED)




WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR parts 15 and 1520.
No part of this record may be disclosed to persons without a “need to know,” as defined in 49 CFR parts 15 and 1520,
except with the written permission of the Administrator of the Transportation Security Administration or the Secretary
of Transportation. Unauthorized disclosure may result in civil penalty or other action. For U.S. government agencies,
public release is governed by 5 U.S.C. 552 and 49 CFR parts 15 and 1520.




          SENSITIVE SECURITY INFORMATION
OIG-09-103                                                                             September 2009
                                    SENSITIVE SECURITY INFORMATION


                                                                              Office of Inspector General

                                                                              U.S. Department of Homeland Security
                                                                              Washington, DC 20528




                                                 September 11, 2009

                                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the effectiveness of DHS’ Traveler Redress Inquiry Program
(TRIP). It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.




                                                 Richard L. Skinner
                                                 Inspector General




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.
                                         SENSITIVE SECURITY INFORMATION

Table of Contents/Abbreviations
Executive Summary .............................................................................................................1

Background ..........................................................................................................................3

Results of Review ..............................................................................................................16

    TRIP Has Brought Some Noteworthy Improvements to Traveler Redress Efforts ......16

    TRIP Has Not Received the Technical or Executive Support It Needs to Succeed .....19
      TRIP’s Information Technology System Does Not Meet Program Needs, and
      the Program Has Not Received Support to Replace It .............................................19
            Recommendation ............................................................................................27
            Management Comments and OIG Analysis ...................................................27
      TRIP Responsibilities and Authorities Are Not Clearly Defined ............................29
            Recommendations...........................................................................................32
            Management Comments and OIG Analysis ...................................................33

    TRIP Does Not Always Provide Meaningful Resolutions to Redress-Seekers’
    Travel Difficulties .........................................................................................................33
       TRIP’s Primary Redress Tool Does Not Assist Travelers in Many Cases ..............35
             Recommendations...........................................................................................46
             Management Comments and OIG Analysis ...................................................46
       Plans for Secure Flight Promise Increased Cleared List Use, But Raise
       Other Issues ..............................................................................................................48
             Recommendations...........................................................................................51
             Management Comments and OIG Analysis ...................................................52
       The Primary Redress Tool for Difficulties at Ports of Entry Is Often Effective,
       But Could Be Improved ...........................................................................................53
             Recommendations...........................................................................................57
             Management Comments and OIG Analysis ...................................................57
      When Used for Redress Purposes, CBP’s Primary Lookout Over-Ride
      Should Be Characterized by More Independence.....................................................58
             Recommendation ............................................................................................59
             Management Comments and OIG Analysis ..................................................60
      Other Redress Resolutions to Port of Entry Difficulties Should Be Developed
      Through a More Independent Process ......................................................................60
             Recommendation ............................................................................................62
             Management Comments and OIG Analysis ...................................................62
       TSA and CBP Do Not Share Information About Terrorist Watch List
       Misidentifications.....................................................................................................62
             Recommendations...........................................................................................64

                                         SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.
                                      SENSITIVE SECURITY INFORMATION

Table of Contents/Abbreviations
            Management Comments and OIG Analysis ...................................................64
       TRIP Cases for Individuals with Terrorist Screening Database Records Are
       Often Resolved in a Meaningful Way......................................................................65

   Traveler Redress Efforts Have Some Important Security Weaknesses and
   Room for Privacy Improvement ...................................................................................68
      TSA’s Cleared List Is Not Subject to Necessary Security Controls ........................69
            Recommendations...........................................................................................74
            Management Comments and OIG Analysis ...................................................75
      Email Submissions of Personal Information May Expose Redress-Seekers to
      Avoidable Risks .......................................................................................................76
      CBP’s Redress Case Processing System Does Not Meet Statutory Privacy
      Notification Requirements .......................................................................................77
            Recommendation ............................................................................................78
            Management Comments and OIG Analysis ...................................................79

   TRIP Has Not Always Handled Redress Cases Reliably..............................................79
     TRIP Reliability Issues Have Prevented Some Redress Cases From Receiving
     Full and Appropriate Reviews..................................................................................79
     TRIP Could Do More to Set Procedures and Monitor Program Activity ................81
           Recommendations...........................................................................................86
           Management Comments and OIG Analysis ...................................................86

   TRIP Case Processing Timeliness Could Be Improved................................................87

   TRIP Does Not Provide a Desirable Level of Transparency to Redress-Seekers.........89
          Recommendations...........................................................................................95
          Management Comments and OIG Analysis ...................................................95

   TRIP Performance Management Could Be Improved ..................................................96
     TRIP Does Not Gather Complete Data on Case Disposition...................................96
           Recommendation ............................................................................................97
           Management Comments and OIG Analysis ...................................................97
     TRIP Does Not Collect Complete Data on the Timeliness of Case Processing and
     Has Not Set Related Targets ....................................................................................98
           Recommendations...........................................................................................99
           Management Comments and OIG Analysis .................................................100
     TRIP Does Not Gather Information on Customer Satisfaction..............................101
           Recommendation ..........................................................................................101
           Management Comments and OIG Analysis .................................................102



                                      SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.
                                       SENSITIVE SECURITY INFORMATION

Table of Contents/Abbreviations
   Future Considerations for Enhancing TRIP................................................................102

   Conclusion ..................................................................................................................107

Tables
    Table 1:      TRIP Standard Operating Procedure Analysis .............................................83
    Table 2:      U.S. Customs and Border Protection TRIP Case Statistics ........................132
    Table 3:      U.S. Immigration and Customs Enforcement TRIP Case Statistics...........133
    Table 4:      US-VISIT Program Office TRIP Case Statistics........................................134
    Table 5:      Office for Civil Rights and Civil Liberties TRIP Case Statistics ...............135
    Table 6:      Privacy Office TRIP Case Statistics ...........................................................136
    Table 7:      Transportation Security Administration TRIP Case Statistics ...................137
    Table 8:      U.S. Citizenship and Immigration Services TRIP Case Statistics..............138
    Table 9:      Department of State TRIP Case Statistics .................................................140

Figures
    Figure 1: TRIP Redress Process .................................................................................10
    Figure 2: TRIP Intake and Triage ...............................................................................12
    Figure 3: Aviation Security and Port of Entry Travel Issues......................................35
    Figure 4: TRIP Approach to Watch List Misidentifications in
              Aviation Security Settings ..........................................................................39
    Figure 5: Distribution of Cleared List Records as of May 30, 2008...........................43
    Figure 6: TRIP Approach to Misidentifications at Ports of Entry ..............................54
    Figure 7: TSA Process for Adding Records to the Cleared List.................................70

Appendices
    Appendix A:           Purpose, Scope, and Methodology.....................................................109
    Appendix B:           Management Comments to the Draft Report .....................................110
    Appendix C:           Department of Justice Management Comments to the Final Report .125
    Appendix D:           Department of State Management Comments to the Draft Report....129
    Appendix E:           Summary of Participating Agency and Office Redress Programs.....129
    Appendix F:           TRIP Traveler Inquiry Form..............................................................142
    Appendix G:           TRIP Sample Response Letters .........................................................146
    Appendix H:           TRIP Case Status Codes ....................................................................153
    Appendix I:           Timeline of Significant Redress Developments ................................155
    Appendix J:           Major Contributors to This Report ....................................................156
    Appendix K:           Report Distribution ............................................................................157




                                       SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.
                                    SENSITIVE SECURITY INFORMATION

Table of Contents/Abbreviations

Abbreviations
    APIS                Advance Passenger Information System
    CBP                 U.S. Customs and Border Protection
    CRCL                Office for Civil Rights and Civil Liberties
    DHS                 Department of Homeland Security
    DOJ                 Department of Justice
    DOS                 Department of State
    FAQ                 Frequently Asked Question
    FBI                 Federal Bureau of Investigation
    GAO                 Government Accountability Office
    HSA                 Homeland Security Act of 2002
    ICE                 U.S. Immigration and Customs Enforcement
    IT                  Information Technology
    OIG                 Office of Inspector General
    OTSR                Office of Transportation Security Redress
    PLOR                Primary Lookout Over-Ride
    PRIV                Office of Privacy
    RCI                 Rice-Chertoff Initiative
    RMS                 Redress Management System
    SCO                 Screening Coordination Office
    TSA                 Transportation Security Administration
    TSDB                Terrorist Screening Database
    DHS TRIP            Traveler Redress Inquiry Program
    TSC                 Terrorist Screening Center
    U.S.C.              United States Code
    USCIS               U.S. Citizenship and Immigration Services
    US-VISIT            United States Visitor Immigrant Status Indicator Technology




                                    SENSITIVE SECURITY INFORMATION

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.
                                    SENSITIVE SECURITY INFORMATION




OIG
Department of Homeland Security
Office of Inspector General

Executive Summary
                   The Department of Homeland Security’s Traveler Redress Inquiry
                   Program is a multiagency effort designed to provide fair and timely
                   redress, or remedy, to travelers who have difficulties with federal
                   government screening and border crossing processes. We evaluated the
                   program’s effectiveness in response to a request from U.S. Representative
                   Bennie G. Thompson, Chairman of the House Committee on Homeland
                   Security. Our objectives were to determine whether the Traveler Redress
                   Inquiry Program is (1) collecting, processing, and safeguarding
                   information as intended; (2) processing responses to individual requests in
                   a timely manner; and (3) accelerating the refinement and correction of
                   erroneous screening information, and contributing to screening process
                   improvements.

                   Unlike previous redress programs, the Traveler Redress Inquiry Program
                   offers a central point of intake for redress-seekers who face different types
                   of travel difficulties. The program also coordinates cases involving
                   multiple agencies and has created a forum for redress personnel from
                   different agencies to assist one another. Although the Traveler Redress
                   Inquiry Program has enhanced some redress processes, several areas need
                   improvement. For example, the program’s information technology system
                   does not meet program needs, and the program is constrained by
                   authorities and responsibilities that could be defined more clearly.

                   If provided additional funding for information technology enhancements
                   and adequate overall support, the Traveler Redress Inquiry Program could
                   also focus on implementing improvements in a number of other areas.
                   First, the program must address why it does not always provide
                   meaningful solutions to redress-seekers’ travel difficulties. At present, the
                   program’s redress solution for most redress-seekers does not positively
                   affect their travel experience. Second, the program does not provide an
                   independent review of redress petitions, but instead submits those petitions
                   for exclusive consideration of offices that are the source of the grievance.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 1
                                    SENSITIVE SECURITY INFORMATION



                   Finally, Department of Homeland Security components do not share
                   information about redress case results where such sharing would be
                   beneficial to the redress-seeker.

                   The Traveler Redress Inquiry Program could also effect positive changes
                   in security, privacy, reliability, timeliness, transparency, and performance
                   management. We are making 24 recommendations to address program
                   challenges in these areas and suggesting other areas that require attention.

                   In response to our report, the Department of Homeland Security has
                   proposed plans and taken action that, once fully implemented, will reduce
                   a number of the deficiencies we identified. Although the department
                   concurred with most of our recommendations, a number of its proposed
                   plans focus on solutions that will take more than a year to develop, rather
                   than near-term corrective actions consistent with the pressing nature of the
                   underlying issues. The department concurred with 20 recommendations,
                   concurred in part with 1 recommendation, and did not concur with 3
                   recommendations.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 2
                                    SENSITIVE SECURITY INFORMATION



Background
                   Established in February 2007, the Department of Homeland Security
                   Traveler Redress Inquiry Program (DHS TRIP) is to serve as the federal
                   government’s one-stop traveler redress process for coordinating the
                   review, adjudication, and response to traveler redress requests.1 Travelers
                   can use TRIP to inquire about their travel difficulties or request
                   corrections to government information that may have caused the
                   difficulties. Units in several federal departments—the Departments of
                   Justice (DOJ), State (DOS), and DHS—support TRIP. Within DHS, the
                   Transportation Security Administration (TSA), U.S. Customs and Border
                   Protection (CBP), U.S. Citizenship and Immigration Services (USCIS),
                   U.S. Immigration and Customs Enforcement (ICE), Privacy Office
                   (PRIV), Office for Civil Rights and Civil Liberties (CRCL), United States
                   Visitor Immigrant Status Indicator Technology (US-VISIT) program, and
                   the Policy Office’s Screening Coordination Office (SCO) have roles in the
                   program. Refer to Appendix E for information on participating agencies’
                   redress programs.


         Previous Government Redress Efforts
                   Several government traveler redress efforts predate TRIP. TSA, CBP,
                   US-VISIT, CRCL, and DOJ’s Terrorist Screening Center (TSC) all
                   operated redress programs before TRIP was conceived.

                   TSA’s redress efforts began shortly after its inception in 2002. Initially,
                   TSA did not publicize its redress efforts; but in time, the administration
                   publicly acknowledged its redress program and formed a separate redress
                   office. In November 2004, TSA established an independent Office of
                   Transportation Security Redress (OTSR). TSA advertised that OTSR
                   could assist travelers with aviation screening difficulties related to
                   misidentification with an individual on a government watch list or
                   unwarranted placement on such a watch list.

                   CBP has maintained an avenue for travelers to file complaints regarding
                   inaccurate information in the electronic systems that support its border

1
 The proper acronym for the Department of Homeland Security Traveler Redress Inquiry Program is
“DHS TRIP.” In the interest of brevity, the report hereinafter refers to the program as “TRIP.”

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 3
                                    SENSITIVE SECURITY INFORMATION



                   inspections for a number of years. These complaints were exclusively
                   reviewed and processed by CBP’s Office of Field Operations until 2006,
                   when CBP’s Office of Public Affairs began coordinating all customer
                   complaints and inquiries through its Customer Service Center.

                   US-VISIT announced its redress program, through which travelers could
                   request amendments or corrections to their US-VISIT data, in April 2004.
                   The process later included a redress request form for travelers to complete
                   and mail to the US-VISIT privacy officer.

                   Prior to TRIP, CRCL provided travelers with an avenue to resolve their
                   travel-related complaints. CRCL often worked with the TSC, ICE, and
                   CBP to identify the source of and resolve the complainant’s travel
                   difficulties.

                   In early 2005, the TSC—the DOJ-administered center that maintains the
                   federal government’s consolidated terrorist watch list, the Terrorist
                   Screening Database (TSDB)—created an office to examine and resolve
                   complaints from individuals who believed that they were incorrectly
                   placed on a terrorist watch list or had been misidentified as a watch-listed
                   individual. Immigration, security screening, and law enforcement
                   authorities at the federal, state, and local levels use the TSDB to perform
                   terrorist screening or vetting activities.

                   Also in 2005, recognizing the need for a consolidated approach to
                   receiving and reviewing terrorist watch list-related redress requests, the
                   government convened an interagency working group to develop a redress
                   memorandum of understanding to expand upon and link existing
                   government watch list redress efforts. The resulting memorandum of
                   understanding was signed on September 19, 2007.


         TRIP Origins and Early Program Challenges
                   On January 17, 2006, Secretaries Chertoff and Rice announced jointly
                   their vision for “Secure Borders and Open Doors in the Information Age.”
                   Commonly referred to as the Rice-Chertoff Initiative (RCI), the statement
                   called for enhancing the security benefits of traveler screening, while
                   improving its efficiency and convenience to the traveler. One objective of


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 4
                                    SENSITIVE SECURITY INFORMATION



                   the RCI was to establish a “one stop” government-wide redress process to
                   assist travelers who are incorrectly selected for additional screening.

                   DHS worked with other federal agencies to develop a government-wide
                   program to address travel-related difficulties arising in the screening
                   process. In 2006 and early 2007, traveler and immigration screening
                   representatives from several agencies convened to assess existing redress
                   programs and procedures, and create a one-stop shop for traveler redress,
                   TRIP. In developing TRIP, these officials were able to build upon prior
                   redress-related efforts. They leveraged earlier progress made in
                   developing an interagency process to address redress petitions related to
                   the TSDB. TRIP planners also used information on previous DHS
                   component redress efforts to inform discussions about how to structure
                   TRIP. Ultimately, each of these existing redress programs was integrated
                   into or otherwise linked to TRIP.

                   Time Constraints Influenced Early Program Considerations

                             TRIP faced several challenges and setbacks in its early
                             development. For example, DHS officials faced significant time
                             constraints when they considered how to create a one-stop shop for
                             government redress. Although the RCI announcement was made
                             in January 2006, DHS officials did not meet until August 2006 to
                             discuss how to structure the program. In August 2006, DHS
                             appointed officials from SCO, US-VISIT, and CRCL as chairs of
                             an RCI Governance Board, which included officials from a number
                             of other federal agencies. DHS leadership tasked the Governance
                             Board with establishing the means and process for making one-
                             stop redress a reality. The Governance Board sought to do so
                             within one year of the RCI announcement. As a result, DHS had
                             only five months from the start of its formal planning process to
                             establish a redress program.

                             Time constraints reportedly led DHS decision-makers to favor
                             program options they thought expedient but not always optimal.
                             TSA reportedly offered to assume responsibility for day-to-day
                             management and support of the TRIP effort, as TSA handled the
                             largest volume of redress cases in the department and had a
                             relatively large and well-established office for this purpose. DHS
                             officials on the Governance Board agreed to use TSA’s existing

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 5
                                    SENSITIVE SECURITY INFORMATION



                             redress platform and organization to support the program, and
                             designated TSA’s OTSR as the TRIP business owner.

                             However, Governance Board members disagreed about which
                             information technology (IT) application offered the most
                             functionality for the least cost. TSA advocated using its Redress
                             Management System (RMS), a custom-built case management
                             system and web intake portal that the agency had recently
                             procured. Others recommended a commercial off-the-shelf
                             application that CBP used to connect with customers online and
                             manage its redress caseload. Despite misgivings on the part of
                             some members, the board agreed to use RMS to support TRIP’s IT
                             needs, at least in part on the strength of TSA’s commitment to
                             provide management for the program’s day-to-day operations.

                   Initial Problems With Website Security and Domain Designation

                             RMS modifications to meet TRIP multiagency intake and case
                             management requirements progressed more slowly than planned,
                             delaying the program’s public launch. A week before DHS was
                             prepared to launch TRIP, members of the public identified security
                             and privacy weaknesses in TSA’s RMS-supported redress intake
                             website. Among the concerns was that the OTSR website was
                             hosted on a commercial “.com” website, rather than a government
                             “.gov” website, and that OTSR had not applied sufficient security
                             protocols to ensure that redress-seekers’ personally identifiable
                             information would not be compromised. TSA immediately
                             rectified those weaknesses, and on February 13, 2007, transferred
                             the OTSR intake portal to a .gov domain. On February 21, 2007,
                             DHS launched TRIP from the same .gov website.

                             TSA conducted an internal review of RMS system security in
                             March 2007. The review identified a number of other system
                             issues and recommended corrective actions related to the business
                             environment, information security management, and contract
                             oversight and execution. In particular, TSA’s internal reviewers
                             recommended that TSA terminate its contract with the RMS
                             system developers and transfer the system from the contractor’s
                             servers to TSA’s. TSA acted on those recommendations and took
                             RMS offline from late May to late July 2007 to transfer the system

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 6
                                    SENSITIVE SECURITY INFORMATION



                             from the contractor’s platform to one in a TSA facility. However,
                             the migration from the contractor’s servers into TSA’s
                             environment was not seamless. TSA had to reprogram RMS to
                             bring the application up to TSA’s technology standards and
                             protocols. During this time, redress-seekers were unable to submit
                             redress requests online, and TRIP program staff could not enter or
                             electronically monitor redress requests received by conventional
                             mail or email. Refer to Appendix I for a timeline of significant
                             redress developments.


         TRIP Requirements and Applicability
                   TRIP is to operate according to a number of statutory, regulatory, and
                   policy requirements. Several of these requirements predate the program,
                   while others emerged with recent border security and traveler screening
                   initiatives since the program began operating.

                   With the Intelligence Reform and Terrorism Prevention Act of 2004,
                   Congress directed TSA to establish a means for passengers who are
                   misidentified or have been otherwise delayed or prohibited from boarding
                   to correct erroneous information about them. The Act required TSA to
                   develop an avenue for redress for travelers on domestic and international
                   flights passing through commercial airports and other transportation
                   venues.2

                   In 2007, Congress expanded DHS redress requirements in the
                   Implementing Recommendations of the 9/11 Commission Act of 2007. The
                   Act requires DHS to establish a timely and fair appeal and redress process
                   for individuals who believe that they were delayed or prohibited from
                   boarding a commercial aircraft because they were wrongly identified as a
                   threat.3 The Act also requires DHS to enable travelers to initiate this
                   process at airports with a major DHS presence.4 In addition, the Act
                   mandates that DHS establish an Office of Appeals and Redress to preside

2
  Intelligence Reform and Terrorism Prevention Act of 2004 (P.L.108-458), § 4012(a)(1) and (2); codified
at 49 U.S.C. § 44903(j)(2)(G) and 44909(c)(6)(B).
3
  Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified at
49 U.S.C. § 44926(a).
4
  Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified at
49 U.S.C. § 44926(b)(5).

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 7
                                    SENSITIVE SECURITY INFORMATION



                   over the redress process.5 This office is to provide information to air
                   carriers to reduce false positives, and requires that air carriers take action
                   to identify passengers determined to have been wrongly identified as a
                   threat.6

                   Other TRIP requirements stem from executive branch actions. The
                   general expectations for TRIP were first outlined in the RCI. The two
                   secretaries committed “to establish a government-wide traveler screening
                   redress process to resolve questions when travelers are incorrectly selected
                   for additional screening.”7 TRIP is to realize this commitment.

                   To outline TRIP parameters, on January 18, 2007, DHS issued a Privacy
                   Impact Assessment and System of Records Notice for the program in the
                   Federal Register. The Privacy Impact Assessment describes program
                   goals, management and operational plans, program applicability,
                   information collection and sharing, and information security. In addition,
                   the assessment indicates that the program will provide potential redress-
                   seekers with access to frequently asked questions, and an email
                   acknowledgment following receipt of their redress inquiry. Further, the
                   assessment limits the collection of personally identifiable information to
                   what is necessary to process redress requests. The System of Records
                   Notice describes plans for TRIP, its IT system, and allowable routine uses
                   of program data.

                   In keeping with a one-stop approach to traveler redress, a number of new
                   and existing government transportation security programs and initiatives
                   have opted to use TRIP for redress. For example, in April 2008 CBP
                   issued a Federal Register notice and rule related to new Western
                   Hemisphere travel requirements that indicate that TRIP is an appropriate
                   venue for the public to petition for related redress. In addition, TSA’s
                   October 2008 final rule on Secure Flight program implementation
                   indicates that TRIP will provide redress.



5
  Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified at
49 U.S.C. § 44926(b)(1).
6
  Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified at
49 U.S.C. § 44926(b)(3)(C).
7
  DHS, Fact Sheet: Secure Borders and Open Doors in the Information Age, released January 17, 2006,
available at http://www.dhs.gov/xnews/releases/press_release_0838.shtm

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 8
                                    SENSITIVE SECURITY INFORMATION



                   Apart from its obligation to support a growing number of DHS travel
                   security programs, TRIP’s website lists a series of other program
                   functions. According to the website, the program is to provide redress for
                   travelers who believe that they have experienced watch list
                   misidentification issues, screening problems, or have been unfairly or
                   incorrectly delayed or denied boarding. The website indicates that TRIP is
                   meant to apply to entry/exit program data issues, some difficulties
                   encountered by foreign students and exchange visitors, trusted traveler
                   programs, immigrant visa and other travel-related benefits, and passport
                   issues. Travelers are also offered the opportunity to request redress in
                   cases where they feel they have been discriminated against or their
                   personal information has been misused. As of October 2008, TRIP had
                   received 47,825 formal redress requests. Of these, it had closed 30,276, or
                   63%. A number of TRIP cases remained open pending submission of
                   additional documentation by redress-seekers.


         TRIP Process Overview
                   TRIP serves as a central point for the intake and processing of travel-
                   related redress requests. There are four principal stages in the TRIP
                   redress process: intake; triage; review and adjudication; and response and
                   closeout.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 9
                                    SENSITIVE SECURITY INFORMATION



                   Figure 1: TRIP Redress Process




                   Source: OIG Analysis of TRIP Program Materials and Information

                   Intake Process

                             Travelers may initiate redress requests on their own or designate a
                             representative, such as an attorney, to do so on their behalf. In the
                             latter circumstance, travelers must sign and submit an
                             authorization to release their redress information to another person.
                             For the program to consider a redress case, DHS must receive a
                             completed traveler inquiry form and privacy release form. In
                             addition, to review and resolve some specific types of redress
                             requests effectively, the program solicits redress-seekers to submit


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 10
                                    SENSITIVE SECURITY INFORMATION



                             copies of personal identifying information, such as a passport or
                             driver’s license.

                             The TRIP office receives redress inquiries through mail, its secure
                             online portal, and email. However, redress-seekers who initiate the
                             redress inquiry process online cannot submit supporting
                             identifying documents through the intake portal, and generally
                             provide these materials by mail or email. Information provided
                             online is automatically reflected in TRIP’s RMS system, whereas
                             redress inquiries and supporting materials provided by mail or
                             email must be entered into RMS. Contractors working for OTSR
                             typically perform this function.

                   Triage Process

                             TSA contractors and staff review redress request submissions for
                             completeness, ensuring that the redress-seeker has signed and
                             submitted a privacy release, completed a traveler inquiry form, and
                             included copies of all necessary identifying documents. The
                             program sends letters to redress-seekers who have submitted
                             incomplete redress requests notifying them that TRIP requires
                             additional information to process their cases. The program sets
                             these cases aside until it receives all the necessary forms and
                             information to proceed with its case review activities.

                             TSA and CBP representatives review complete redress inquiries,
                             determine what agencies or offices should review the case, and
                             task corresponding staff to review the case. In addition to TSA
                             and CBP, when appropriate, TRIP inquiries are reviewed by five
                             other DHS components: ICE, CRCL, PRIV, USCIS, and US-
                             VISIT. TRIP cases are also examined by representatives of
                             agencies outside of DHS, when appropriate. TRIP cases that
                             pertain to a TSDB record are referred to DOJ’s TSC for watch list
                             reviews. TRIP cases related to visa and passport issues are
                             referred to the DOS units responsible for visa and passport-related
                             data.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 11
                                    SENSITIVE SECURITY INFORMATION



                   Figure 2: TRIP Intake and Triage




                   Source: OIG Analysis of TRIP Program Materials and Information

                   Review and Adjudication Processes

                             Once a participating agency is assigned a TRIP case, it applies its
                             own internal approach to evaluate the case and determine what
                             action, if any, is required. In some cases, agencies have a single
                             TRIP point of contact who reviews and adjudicates cases. Other

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 12
                                    SENSITIVE SECURITY INFORMATION



                             agencies perform additional case vetting and monitoring activities
                             before referring cases to other offices within the agency for final
                             review and adjudication.

                             TRIP cases that require review by multiple agencies are assigned a
                             lead agency. In most cases, this lead role is assigned to TSA,
                             whereas in other cases CBP is the designated lead. TSA is
                             designated the lead when a traveler’s redress request indicates
                             difficulties related to TSA and other TRIP participants. For
                             multiagency cases that involve CBP but do not involve TSA, CBP
                             is designated the lead agency.8 The lead agency in multiagency
                             cases is responsible for ensuring that all the necessary parties have
                             had an opportunity to review the case and have taken responsive
                             action when warranted. Once all involved agencies have reviewed
                             and taken appropriate action to address a case, the lead agency
                             closes the case record in the RMS system.

                   Response and Closeout Process

                             Upon completion of the review and adjudication of a case, the lead
                             agency determines how to respond to the redress-seeker. All TRIP
                             redress-seekers are to receive a response letter after their case has
                             been closed. Most response letters are modeled after one of
                             several TRIP letter templates. The lead agency for the case selects
                             the appropriate response template, and the TRIP office prepares
                             and sends the letter. Copies of
                                    are included in Appendix G. The lead agency also updates
                             case records with final comments and updates, and closes the RMS
                             record.


         Additional Efforts to Reduce Traveler Difficulties
                   TRIP is not the sole option for the public to address difficulties they face
                   while travelling. TRIP is designed to respond to past difficulties that
                   travelers have brought to DHS’ attention so that those adverse experiences
                   are not repeated. Other government programs offer more proactive

8
 ICE is responsible for coordination with TSC in multiagency cases for which CBP is the designated lead
agency.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 13
                                    SENSITIVE SECURITY INFORMATION



                   approaches. In addition, the commercial aviation sector offers a private
                   sector alternative to TRIP.

                   Proactive DHS Approaches to Reduce Additional Traveler Inspection

                             CBP has a number of traveler-based programs to expedite the
                             border crossing process. CBP programs such as Global Entry,
                             NEXUS, the Secure Electronic Network for Travelers Rapid
                             Inspection, and Free and Secure Trade programs are fee-based and
                             offer memberships for low-risk travelers after they submit to a
                             vetting process. Once travelers are enrolled in one of these
                             programs, they are offered expedited border crossing, but they are
                             still subject to random or selective secondary inspections.

                             CBP also takes proactive steps to address traveler
                             misidentifications. Travelers are often referred to secondary
                             inspections when seeking entry into the United States because they
                             are believed to be a match to a “lookout” in TECS. These
                             lookouts, which are generated by a number of federal agencies,
                             relate to the past violation or suspicion of violation of various laws
                             and border crossing requirements. In some cases, however, TECS
                             lookouts contain limited biographical information on lookout
                             targets, and individuals who are not the intended target are
                             subjected to secondary inspections, mainly due to the similarity of
                             their biographical information. To ensure that travelers who are
                             not the intended lookout target are not repeatedly referred to
                             secondary inspections, CBP created a Primary Lookout Over-Ride
                             (PLOR) feature in TECS. CBP officers began using PLORs in
                             2006, and are now required to create lookout overrides in all cases
                             of secondary inspections in which the traveler is determined not to
                             be the intended lookout that prompted the additional scrutiny.

                             In another effort to reduce traveler difficulties, TSA has
                             collaborated with the private sector to develop its Registered
                             Traveler program. The program provides expedited passenger
                             screening for prequalified travelers by using dedicated security
                             lanes. Although the program provides travelers with a means to
                             reduce airport travel difficulties, it does not screen participants
                             against the watch lists. By late January 2009, the Registered


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 14
                                    SENSITIVE SECURITY INFORMATION



                             Traveler program was operational at 20 airports and had 188,858
                             active participants.

                   Terrorist Screening Center’s Terrorist Encounter Review Process
                   Assists Frequently Encountered Travelers

                             The TSC, which manages the federal government’s consolidated
                             terrorist watch list, has also established a process to aid individuals
                             who are subjected to additional security scrutiny. In 2008, the
                             TSC initiated a Terrorist Encounter Review Process to analyze and
                             review the TSDB records of watch-listed individuals who are
                             frequently encountered by the government. TSC “encounters” are
                             reported contacts by local, state, and federal law enforcement
                             personnel with individuals listed in the TSDB. Under the Terrorist
                             Encounter Review Process, the TSC reviews TSDB records to
                             ensure that targeted individuals warrant continued placement on
                             the terrorist watch list. The TSC also examines these records to
                             ensure that they contain current and accurate information, and to
                             determine whether any additional information could be added to
                             the records to reduce misidentifications in the future.

                   Private Sector Efforts Help Reduce Traveler Difficulties

                             A number of commercial air carriers have developed programs to
                             reduce traveler difficulties associated with terrorist watch lists. For
                             several years, a number of major air carriers have maintained lists
                             of precleared passengers determined not to be a match to terrorist
                             watch lists. DHS’ Secretary officially recognized these passenger
                             preclearance programs in 2008. In April 2008, the Secretary
                             announced that DHS had authorized commercial air carriers to
                             capture and store passenger dates of birth to help reduce the
                             number of watch list misidentifications. Participating air carriers
                             are now required to make preclearance program benefits available
                             to all passengers, regardless of their frequent flier or air carrier
                             rewards program enrollment status.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 15
                                    SENSITIVE SECURITY INFORMATION



Results of Review
         TRIP Has Brought Some Noteworthy Improvements to Traveler
         Redress Efforts
                   TRIP has brought some noteworthy improvements to government traveler
                   redress efforts. TRIP provides for centralized intake of redress requests
                   and multiagency case review and coordination, and has assembled expert
                   staff from participating agencies.

                   TRIP Offers a Central Point of Intake for Redress-Seekers With
                   Travel Difficulties

                             TRIP’s centralized intake of redress requests benefits the public
                             and eases government efforts to respond to redress requests. It
                             assists the public by removing much of the guesswork about where
                             to seek assistance. The program offers a single point of contact for
                             information and redress related to travel screening difficulties at
                             air, land, and sea ports of entry, and transportation hubs. Past
                             redress efforts placed the onus on travelers to identify the proper
                             agency and redress venue. TRIP shifts this responsibility to the
                             government. This is a valuable change, because redress cases
                             frequently involve information from agencies that travelers may
                             not realize were associated with their travel difficulties.

                             TRIP Permits Redress-Seekers to Address Multiple Travel Issues
                             At Once

                             TRIP’s centralized intake portal permits travelers to address
                             multiple travel difficulties at once by allowing travelers to start the
                             review of several travel-related difficulties. In the past, persons
                             having difficulties in aviation security settings, as well as entering
                             the country at ports of entry, might have required redress support
                             from both TSA and CBP, and had to submit separate redress
                             claims to each agency. TRIP eliminates some of this
                             inconvenience and cost. Multiagency redress requests filed
                             through TRIP call for the redress-seeker to submit one set of
                             supporting documents. Redress-seekers with multiple travel issues
                             no longer incur additional costs associated with multiple filings,

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 16
                                    SENSITIVE SECURITY INFORMATION



                             such as extra postage, copying or scanning, or notary fees. TRIP’s
                             consolidated intake approach unburdens the redress-seeker from
                             trying to determine what to send, to which agency, and with what
                             specific requirements. TRIP fulfills the aim stated in its privacy
                             impact assessment of simplifying the process for travelers wishing
                             to submit a redress request.

                             TRIP’s Consolidated Intake Approach Provides Economies for
                             Travelers and the Government

                             The availability of a centralized portal for traveler redress also
                             eases the burden on the government. Members of the public often
                             address their grievances to public-facing government
                             representatives who have little or no direct involvement in the
                             redress process. In the past, these government representatives
                             might have had to devote significant time to research which
                             government agency was best situated to address the traveler’s
                             complaints. TRIP removes some of this obligation from public-
                             facing staff, by offering a single place to direct travelers with
                             complaints.

                             TRIP’s consolidated approach to intake may also benefit the
                             government by reducing the number of misdirected or duplicative
                             redress requests received by different agencies. In the past, a
                             number of travelers experiencing screening difficulties submitted
                             complaints to multiple agencies, perhaps because they had
                             difficulty identifying the most appropriate office to address their
                             concerns. TRIP affords redress-seekers greater assurance that their
                             issues will be reviewed by the appropriate agency. Redress
                             officials perceive that the number of duplicative traveler redress
                             filings with different agencies has declined as a result.

                   TRIP Coordinates Redress Cases Involving Multiple Agencies

                             An advantage of TRIP compared to previous efforts is that it offers
                             multiagency review and coordination of redress cases. This is
                             helpful because traveler difficulties are sometimes associated with
                             multiple agencies. For example, a traveler who has been referred
                             to secondary inspection by CBP may be the subject of lookouts
                             from multiple agencies. In other cases, one agency cannot

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 17
                                    SENSITIVE SECURITY INFORMATION



                             effectively resolve a traveler’s issue until another agency has
                             provided certain information. DOS, for instance, may need to
                             receive confirmation from USCIS on whether a traveler was
                             granted legal permanent resident status before it can remove what
                             may be an outdated visa overstay ineligibility from DOS’ consular
                             lookout records.

                             To address these types of issues effectively, each applicable
                             agency must review the case, share information, and take
                             appropriate action to address the underlying complaint. This type
                             of case coordination was not common in the past. Some redress
                             officials said that before TRIP began operating, they often had
                             difficulty obtaining the information they needed to address redress
                             requests from other agencies. Redress inquiries that relate to
                             multiple agencies are now distributed to all concerned agencies for
                             their review through TRIP. With TRIP, agencies have access to
                             shared information on the case and the opportunity to
                             communicate about it using common terms of reference.

                             TRIP case coordination activities represent an important step in
                             government redress efforts. Since TRIP became operational,
                             thousands of redress-seekers have benefitted from multiagency
                             reviews of their travel issues. As of October 2008, 5,256 TRIP
                             cases had been reviewed by multiple agencies. Refer to
                             Appendix E for information on participating agencies’ redress
                             programs.

                   Redress Personnel From Agencies Participating in TRIP Serve as
                   Resources for One Another

                             While redress representatives from multiple agencies have come
                             together to support TRIP case processing, their association has
                             produced intangible benefits external to TRIP. TRIP has fostered
                             information sharing and exchange between agency redress
                             representatives, where little or no contact had existed before.

                             Several DHS components that participate in TRIP continue to
                             maintain their own redress intake channels. Because the
                             underlying cause of a traveler’s difficulties is not always apparent
                             to the traveler, these components sometimes receive misdirected

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 18
                                    SENSITIVE SECURITY INFORMATION



                             complaints that they cannot resolve. In the past, some redress staff
                             in these components reported that they did not know how to
                             address misdirected complaints and inquiries. In some cases, they
                             had no redress point of contact in agencies they believed were
                             better suited to address the traveler’s issue, and sought assistance
                             from inappropriate sources.

                             With the multiagency coordination efforts surrounding TRIP,
                             redress staff now have access to redress points of contact in ten
                             government agencies and offices. These points of contact help
                             redress representatives channel misdirected redress requests. They
                             also serve as technical resources and facilitators to address
                             questions outside of the redress process. Several agency
                             representatives told us that they were able to leverage their redress
                             contacts in other agencies to assist them in other important aspects
                             of their work. In other instances, redress points of contact have
                             provided insight into their organizations, and linked staff with
                             other offices and points of contact in their agency.


         TRIP Has Not Received the Technical or Executive Support It
         Needs to Succeed
                   TRIP has not received required support in two areas. First, the program’s
                   primary IT system does not meet key requirements and functional
                   capabilities. Efforts by the program manager and others to modify or
                   replace this IT system have been unsuccessful. Second, the program does
                   not have clearly established lines of operational authority to all
                   participating units. As a result, TRIP cannot guarantee effective handling
                   of its customers’ redress cases.

                   TRIP’s Information Technology System Does Not Meet Program
                   Needs, and the Program Has Not Received Support to Replace It

                             TRIP’s primary IT system is RMS, a customized case management
                             system. TSA originally developed RMS for its redress program
                             prior to TRIP. Later, RMS was modified to accommodate TRIP’s
                             multiagency case processing demands. Since then, DHS has
                             performed two separate IT assessments that identified high-level
                             system requirements for TRIP. In its current form, however, RMS

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 19
                                    SENSITIVE SECURITY INFORMATION



                             does not address all of the key program requirements or functional
                             capabilities identified in those assessments. In particular, RMS
                             does not have the case management and workflow, document
                             management, interoperability, and reporting features that TRIP
                             requires.

                             RMS Case Management and Workflow Features Do Not Meet
                             TRIP Requirements

                             TRIP receives redress inquiries related to many different travel-
                             and screening-related complaints. As a result, different redress
                             cases require review and action by different agencies. Given this
                             requirement, TRIP redress personnel need access to a system with
                             effective case management and workflow features. That is, they
                             need a system that enables them to assign and prioritize cases,
                             view assignments, determine case history information, and receive
                             notifications of case and assignment status changes, as well as case
                             disposition information.

                             RMS has some case management and workflow features, but they
                             do not fully meet user requirements. RMS users have access to
                             some case history information, which is reflected in brief notes that
                             users can add to the case record. Users can also access the
                             system’s audit log, which reflects when changes were made to
                             information in a case record, what changes were made, and what
                             user made the change. RMS also permits users to assign tasks to
                             other users and to comment on the tasks. Users can view
                             information on assigned tasks and task status for any given record.
                             Users can also view all open tasks assigned to them in a separate
                             window in the system. These features notwithstanding, limitations
                             in RMS’ case management and workflow capabilities prevent users
                             from readily assessing all of the information they need about their
                             caseloads and related case processing milestones.

                             RMS users cannot, for instance, send or receive alerts or
                             notifications of actions taken or required in a case. Redress staff
                             who assign case tasks do not receive any system notification when
                             the tasks are received or completed, nor do they have any means of
                             readily tracking the status of tasks they assigned to others. As a
                             result, the TRIP program office relies on certain staff to manually

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 20
                                    SENSITIVE SECURITY INFORMATION



                             track and follow up on cases that appear to be languishing. This
                             activity is time consuming, and diminishes the ability of staff to
                             address other priorities.

                             Because of RMS’ inability to send or receive alerts and
                             notifications, virtually all RMS users we spoke with observed that
                             case coordination takes place outside of RMS by other means,
                             usually via email or telephone. However, such improvised
                             approaches are not being consistently followed across program
                             offices. Most users we spoke with said that RMS needs a more
                             viable means to communicate about cases within the system. One
                             user relied solely on the previous case reviewer sending an email
                             message before taking any action to review a case. This and other
                             improvised notifications outside of RMS reflect the need for more
                             effective system communication tools surrounding case
                             management.

                             Users are also unable to use the system to prioritize their workload.
                             The system’s presentation of case records and assigned tasks is
                             static, and cannot be adjusted to suit user needs better. Although
                             managers identify some cases for expedited processing, RMS case
                             records cannot be sorted with ease to identify and prioritize these
                             actions. Newly assigned tasks that have not been reviewed are
                             indistinguishable from older task assignments that have been
                             reviewed. Because many redress staff also perform other duties,
                             some do not log into RMS more than once a week and cannot
                             always identify newly assigned tasks as a result. Users cannot sort
                             or readily identify RMS tasks using other helpful criteria. For
                             example, they cannot easily select or identify tasks associated with
                             particular kinds of cases or task assignments that are simply
                             overdue. This limits their ability to focus on overdue tasks and
                             contributed to the case processing environment we observed during
                             our field work; an environment in which almost 800 open cases
                             were associated with task assignments that had been pending for
                             more than six months.

                             This situation is aggravated by redress managers’ and supervisors’
                             inability to view or adjust individual user RMS task assignments to
                             respond to backlogs and redistribute case work without difficulty.
                             Task assignments are easily accessible to the assigned user but

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 21
                                    SENSITIVE SECURITY INFORMATION



                             more difficult for other users to monitor. Managers and
                             supervisors do not have access to a list of open tasks assigned to
                             subordinates in RMS. Nor can they readily edit or reassign tasks.
                             RMS does not permit all redress managers to shift tasks from one
                             user to another to respond to case processing delays, extended
                             employee absences, or staff departures.

                             RMS Document Management Capabilities Are Limited

                             TRIP requires redress-seekers to submit intake forms and typically
                             needs copies of identifying documents to process their cases. As
                             such, effective document management tools are necessary.

                             Redress-seekers begin the redress process by submitting a redress
                             intake form. When redress-seekers apply for redress online
                             through the program’s intake portal, their redress intake form
                             information is automatically integrated into RMS. A copy of the
                             online traveler inquiry form is in Appendix F. Other redress-
                             seekers mail or email their intake forms to the TRIP office. TRIP
                             program staff must then append these intake forms, along with
                             copies of identifying documents, to case records in RMS. RMS
                             permits them to link the documents to existing redress cases.

                             RMS’ primary document management limitation is that it does not
                             permit online redress-seekers to submit electronic copies of their
                             identifying documents directly to the system. This is inconvenient
                             for redress-seekers and costly for the program. Online redress-
                             seekers must go through more steps to submit their requests. It is
                             also burdensome for the government, as contractors and program
                             staff must dedicate time to create electronic copies of materials for
                             inclusion in RMS because the redress-seekers cannot. This manual
                             process also introduces a measure of ineffectiveness and risk, as
                             copies of identifying documents could be linked to the wrong case
                             record or not scanned into the system at all. RMS’ document
                             management limitations have contributed to an intake backlog that
                             reduces the program’s case processing timeliness.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 22
                                    SENSITIVE SECURITY INFORMATION



                             RMS Interoperability Issues Create Additional Work and
                             Inefficiencies

                             Several agencies that participate in TRIP have established separate
                             redress case management systems. Staff in these agencies use
                             other IT systems to perform TRIP tasks as well as other functions.
                             Several agencies use alternative case management systems, for
                             example, to track complaints and inquiries they receive directly
                             from the public or from other government sources. Several key
                             program participants including CBP, USCIS, CRCL, and ICE,
                             maintain or have created such systems. A few of these systems
                             predate TRIP. Given this operating environment and the key roles
                             that these other agencies have in TRIP, it would be beneficial for
                             TRIP’s IT system to be compatible and capable of sharing
                             information with the other agency systems. However, RMS does
                             not permit this type of sharing.

                             RMS’ limitations have an effect on redress staff outside of TSA.
                             Many are required to enter redress case information manually from
                             RMS into their systems every time a new TRIP case is assigned.
                             After performing what amounts to duplicate data entry, they are
                             also responsible for updating and revising case information in two
                             systems. In addition to being inefficient, these activities expose
                             the program to increased risk of data entry errors or accidental
                             omissions.

                             TRIP and its users would benefit from a case management system
                             that can directly connect with or export data to systems used by
                             other redress offices. This kind of interconnectivity has the
                             potential to reduce or eliminate redundant data entry. It could also
                             improve the integrity and consistency of redress data maintained in
                             these different systems.

                             RMS Has Limited Reporting Features

                             RMS has some limited reporting features, but they do not satisfy
                             program needs, according to redress personnel. RMS can generate
                             eight different types of reports on case status, assigned user, and
                             reported travel difficulty. These reports can be customized to


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 23
                                    SENSITIVE SECURITY INFORMATION



                             some degree. Case status reports can, for example, be developed
                             for a particular agency or user.

                             Nonetheless, the system does not have a number of standardized
                             and ad hoc reporting capabilities that could improve the
                             transparency of case workflow, trends, and timeliness. Redress
                             staff in several agencies decried RMS’ limited reporting
                             capabilities. TRIP staff indicated that they could serve redress-
                             seekers better with a more comprehensive system with ad hoc
                             reporting and trend analysis capabilities. RMS does not have an
                             automated reporting function that users can set to generate reports
                             at predetermined intervals. RMS users cannot design new types of
                             reports without programming support, nor can they prepare them
                             on an ad hoc basis through the system. Moreover, system users do
                             not have access to trend analysis tools to help identify changes in
                             processing dynamics and recognize complaint activity patterns.
                             Such features could provide redress officials with more insight into
                             their operations, and help improve the handling of redress
                             petitions.

                             Program staff compensate for RMS’ limited reporting capabilities
                             by developing their own reports outside of RMS. Some produce
                             ad hoc reports, while others rely on manual tallies to report on case
                             activity. The most detailed and extensive TRIP report is issued by
                             SCO. SCO prepares and disseminates weekly reports on TRIP
                             activity that highlight the length of time cases have been in
                             process, redress-seekers’ identified travel difficulties, and
                             participant case assignments. To prepare these reports, SCO staff
                             extract data from RMS, convert select data fields to a different
                             format, and execute a series of cross-tabulations. Because this
                             process is time intensive, SCO has dedicated a half of a
                             contractor’s time to prepare these reports. SCO makes these
                             reports available to TRIP redress officials through an online portal.

                             The TRIP program office develops its own reports reflecting
                             program activity in certain areas. However, program staff are
                             sometimes unable to extract the data required for these reports
                             from RMS, and in other cases, RMS does not contain the needed
                             data. Consequently, many of these reports are based on manual


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 24
                                    SENSITIVE SECURITY INFORMATION



                             tallies by program staff. Some of the methods program staff use to
                             compile statistics are inexact and unverifiable.

                             Other program participants such as CBP, ICE, and CRCL also
                             prepare their own reports because they are unable to use RMS
                             effectively for this purpose. Users gather the data for their reports
                             from the RMS data entered into their own systems and
                             spreadsheets, paper records, and manual tallies. Some program
                             staff prepare reports using simple aggregate counts of certain kinds
                             of cases or case activities, while others report on specific types of
                             referrals and case dispositions, often preparing customized reports
                             in response to specific requests for information.

                             TRIP redress personnel devote significant effort to developing
                             work-around solutions to needs that RMS does not satisfy. Despite
                             these efforts, program staff acknowledge they are unable to
                             maintain a complete operating picture for the program or
                             accurately identify processing and caseload trends in all cases.
                             Although DHS indicated that TRIP will seek to identify areas that
                             need additional support and collect information on lessons learned
                             about the screening and redress process, the department does not
                             because of RMS’ limitations. Staff acquainted with the system and
                             its reporting capabilities indicate that it would be very difficult to
                             modify RMS to gather and report this kind of information.

                             Finally, RMS does not provide redress managers with a
                             customizable display of key program indicators to enable them to
                             monitor performance statistics and processing issues, such as
                             overdue cases that require attention. Without this type of
                             reporting, redress managers cannot easily monitor TRIP’s
                             effectiveness, set benchmarks for success, or identify needed
                             improvements.

                             TRIP Faces Obstacles to Replacing RMS

                             Redress managers believe that TRIP needs a new IT system, but
                             the program had not received the necessary support to move
                             forward with plans to replace RMS at the time of our field work.
                             TSA managers we spoke with acknowledged that RMS does not
                             meet user needs, and one redress official outside of TSA described

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 25
                                    SENSITIVE SECURITY INFORMATION



                             the system as “cumbersome and disjointed.” Program staff and
                             system users in several other agencies said that RMS does not meet
                             their needs and interferes with their productivity and effectiveness,
                             and that TRIP would benefit greatly from a new and improved IT
                             system. Faced with these shortcomings, system users have
                             resorted to more time-intensive and less reliable alternatives, or
                             have simply given up on addressing shortcomings.

                             RMS would be difficult to modify to meet all of the program’s
                             needs. The system was originally built to address TSA’s particular
                             redress needs, not DHS’ needs as a whole. It was created by
                             system developers using customized programming code, and those
                             programmers are no longer under contract with TSA to support the
                             system. After TSA terminated the developers’ contract, the system
                             was moved into an operating environment for which it was not
                             designed. The TSA personnel and contractors currently
                             responsible for RMS’ maintenance and repair said that the system
                             is somewhat fragile as a result. Because the system was developed
                             using customized code and current staff are not as familiar with the
                             underlying code as the system developers, code changes to address
                             emerging program needs sometimes have unintended negative
                             effects on other parts of the system. Major changes to the RMS
                             could, therefore, prove difficult to implement.

                             Commercially available, off-the-shelf products could address
                             program requirements more effectively. When TSA examined
                             enterprise-wide case management system solutions in 2008, it
                             identified three commercial off-the-shelf products that fully met
                             program requirements. However, TRIP’s program office had been
                             unsuccessful in obtaining funding to upgrade or replace RMS for
                             several years. The office requested funding for a replacement
                             system in its FY 2008, 2009, and 2010 budget requests. The
                             FY 2008 and 2009 requests were denied, and the FY 2010 request
                             was pending at the time of our field work. The department should
                             take action to remedy this situation.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 26
                                    SENSITIVE SECURITY INFORMATION



                   Recommendation
                             We recommend that the Director of the Screening Coordination
                             Office in collaboration with the Assistant Secretary for the
                             Transportation Security Administration:

                             Recommendation #1: Replace TRIP’s current case management
                             system with a system that fully meets the program’s functional
                             requirements for case management and workflow, document
                             management, interoperability, and reporting.

                   Management Comments and OIG Analysis
                             We evaluated DHS’ written comments and have made changes to
                             the report where we deemed appropriate. A summary of DHS’
                             written response to the report’s recommendations and our analysis
                             of the response follows each recommendation. A copy of DHS’
                             response, in its entirety, is included as Appendix B. We also
                             received written comments from DOJ and DOS and made changes
                             to the report in response to those comments. Copies of the DOJ
                             and DOS responses, in their entirety, are included in Appendix C
                             and D respectively. DOJ’s response to this redacted version of the
                             report is slightly different from its response to the Sensitive
                             Security Information version of this report. In addition, we
                             received technical comments from SCO, TSA, CBP, US-VISIT,
                             PRIV, DOJ, the TSC, and DOS, and have incorporated some
                             associated changes into the report. In response to the comments
                             we received, we withdrew Recommendation #14 and revised
                             Recommendation #20. We appreciate the comments and
                             contributions made by each entity.

                             While DHS concurred with the majority of our recommendations,
                             a number of the department’s proposed corrective actions will not
                             be implemented for some time. These plans will be helpful in the
                             future, but our analysis reflected a need for near-term actions to
                             provide critical operational improvements and enhanced
                             management oversight. We have closed two recommendations
                             because we are satisfied that DHS has taken corrective actions to
                             address them, and withdrew one recommendation in response to
                             comments we received. Our remaining 21 recommendations are

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 27
                                    SENSITIVE SECURITY INFORMATION



                             open. Of these, three are unresolved because DHS did not concur
                             with our recommendation or did not propose appropriate actions to
                             begin addressing it.

                             DHS Response: DHS concurred with Recommendation 1. In its
                             response, DHS management said that efforts are underway to
                             replace RMS with a system that would address TRIP user
                             requirements in the areas of case management, reporting, privacy,
                             and internal controls. In May and June 2008, TSA collected IT
                             requirements from TRIP users. In August 2008, DHS coordinated
                             a review of TRIP operations that focused on a strategy to replace
                             RMS. TSA identified funds in its FY 2009 budget to replace
                             RMS, and DHS provided a line item of $1.3 million for TRIP in its
                             FY 2010 budget, including $556,088 to replace RMS with a new
                             case management system.

                             OIG Analysis: We consider DHS’ proposed actions responsive to
                             the intent of this recommendation, which is resolved and open.
                             This recommendation will remain open pending our receipt of
                             documentation that demonstrates the procurement, development,
                             and deployment of a replacement TRIP case management system.
                             This documentation must also establish that the replacement
                             system meets the functional requirements we identified for TRIP
                             case management and workflow, document management,
                             interoperability, and reporting.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 28
                                    SENSITIVE SECURITY INFORMATION



                   TRIP Responsibilities and Authorities Are Not Clearly Defined

                             The ten federal agencies and offices that participate in TRIP have a
                             central role in the redress process. Each entity reviews and
                             adjudicates redress cases, and helps prepare responses to individual
                             redress-seekers. In many instances, the program relies on case
                             review and reporting activities by several agencies to address a
                             single redress petition fully. Consequently, TRIP requires the
                             cooperation and support of all participating entities to operate
                             effectively. Overall, these agencies and offices have worked well
                             together and supported the broader aims of the TRIP effort. This
                             has not always been the case, however, and efforts to advance
                             larger program interests have been hampered by an unclear and
                             incomplete authority, adjudication, and reporting structure.

                             The program has no clear authority to promote effective
                             participation by the ten participating agencies and offices. These
                             agencies and offices are only responsible for committing resources
                             to perform a subset of redress activities related to terrorism watch
                             lists. Otherwise, none of the agencies and offices supporting TRIP
                             are formally bound by any written agreement, arrangement, or
                             directive to commit resources on an ongoing basis or to perform
                             any related case activities. Furthermore, there is no memorandum
                             of agreement or understanding among the participants on how to
                             handle, process, or communicate on case status or disposition.

                             Three entities within DHS have informal authority regarding
                             certain aspects of the program, but these authorities do not cover
                             the program as a whole. Strategic oversight and direction for TRIP
                             is generally seen as the province of the RCI Governance Board and
                             the board’s chair, the Director of DHS’ SCO. The Governance
                             Board consists of representatives from a number of the
                             participating agencies and offices who convene to discuss high-
                             level program considerations. The board has no formal authority
                             over the program, however, or any charter or codified decision-
                             making process.

                             In addition to serving as the chair of the Governance Board, the
                             SCO Director is responsible for coordinating DHS screening
                             initiatives and programs, and developing DHS screening policies.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 29
                                    SENSITIVE SECURITY INFORMATION



                             Although the SCO Director does not have a direct line of authority
                             to the TRIP program manager or participants, SCO’s role on the
                             Governance Board and in DHS-level screening coordination and
                             policy development contributes to a sense among participating
                             staff that SCO is in a position of authority. The breadth of SCO’s
                             responsibilities and its modest staff size, however, limit its
                             managerial engagement with TRIP to providing strategic direction
                             and occasionally intervening in significant disagreements between
                             participating agencies.

                             The third entity is TSA’s OTSR. Its Director serves as TRIP’s
                             program manager and operational leader. TSA is the business
                             owner for TRIP, and, according to SCO, OTSR’s Director is
                             responsible for “the health of the program at large.” While OTSR
                             has operational responsibility for the program, it does not have
                             authority over all aspects of program operations. OTSR has direct
                             authority over TSA redress staff who are responsible for the bulk
                             of TRIP’s case intake and triage activities, part of the process for
                             providing formal responses to redress-seekers, and some of TRIP’s
                             case review and adjudication efforts. However, OTSR has no
                             authority over DHS components’ or other agencies’ redress
                             personnel involved in the TRIP process. As other agencies engage
                             in some triage activities, are central to much of the case review and
                             adjudication process, and are key in processing responses to
                             redress-seekers, OTSR is unable to provide operational
                             management of the entire program.

                             This discrepancy between OTSR’s responsibilities and operational
                             authorities places the office in an awkward position. For example,
                             the OTSR Director’s signature appears on virtually all TRIP letter
                             responses to redress-seekers. These letters advise redress-seekers
                             that DHS has completed its review of their case and made
                             appropriate changes or corrections to underlying data or
                             information when necessary. Although the Director provides these
                             assurances, he is in no position to ensure that they are true or
                             accurate.

                             A number of redress representatives indicated that limits on
                             OTSR’s operational authority have contributed to program
                             challenges. For one, TRIP redress staff acknowledged that having

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 30
                                    SENSITIVE SECURITY INFORMATION



                             the office within TSA has exposed it to internal TSA pressures.
                             Pressures on the program are intensified by TSA’s control of the
                             TRIP program office budget. At times, TSA management interests
                             have driven TRIP action in ways that had significant effects on
                             other agencies’ redress efforts. For example, in 2007 TSA’s
                             Assistant Secretary unilaterally decided to take TRIP’s case
                             management system offline and transfer the system to servers at
                             TSA headquarters. TSA’s Assistant Secretary sought to improve
                             the security and privacy capabilities of the case management
                             system, but did not consult first with other agencies that relied on
                             the system before doing so. As the system was offline for more
                             than two months, this decision had a significant effect on other
                             agencies’ redress efforts.

                             In addition, according to redress personnel in several agencies, the
                             TRIP program manager is regarded as a peer rather than an
                             executive agent possessing operational authority over the program.
                             As a result, these agencies do not always respond promptly to the
                             TRIP program manager’s requests for action. On occasion,
                             participating agencies have rejected the TRIP program manager’s
                             requests entirely.

                             The absence of formal agreements or clear operational authority
                             has also resulted in some unreliable and fluctuating support from
                             participating agencies. These agencies made a number of informal
                             commitments to TRIP during the program’s planning and
                             development process. Some agencies agreed to provide staff and
                             financial support to TRIP but have not consistently delivered on
                             these commitments. For example, CBP was to provide a full-time
                             subject matter expert to the TRIP program office to help triage
                             redress cases. The program operated for several months without a
                             CBP detailee onsite, and during another period CBP provided an
                             onsite detailee only a few days a week. CBP’s detailee to the TRIP
                             program office is responsible for determining the underlying basis
                             for some redress-seekers’ travel difficulties and performs an
                             important triage function in determining what other offices and
                             agencies may need to review a case. As a result, CBP’s
                             inconsistent staff commitments may have adversely affected
                             redress efforts by other participating agencies and slowed overall
                             redress case processing.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 31
                                    SENSITIVE SECURITY INFORMATION




                             Participating components outside of TSA have not supported TRIP
                             on a consistent and satisfactory basis. Nine agencies and offices
                             outside of TSA agreed to provide funds to the program in 2007.
                             According to OTSR, three of these entities did not provide any
                             funds to the program despite their commitment. As we noted
                             earlier, outside agencies participating in the program have not
                             always honored staff support commitments either.

                             Managers in several participating offices do not appear to place
                             much emphasis on addressing TRIP cases, and support for TRIP
                             has varied. Several agencies and offices have devoted only one
                             employee to TRIP efforts on a part-time basis. Faced with
                             competing priorities, some employees have spent little time on
                             TRIP-related work, which has contributed to a redress case
                             processing backlog. In these cases, we learned that agency
                             managers had not monitored or sought reporting on employees’
                             progress in completing TRIP case work.

                             Without clear TRIP operational authorities and responsibilities,
                             some participating agencies’ program support has flagged. TRIP’s
                             success depends on the cooperation and support of agencies and
                             offices that have no set responsibilities or clear accountability for
                             the quality or extent of their participation in the program. DHS
                             should articulate the authorities available to TRIP managers and
                             the responsibilities of participating agencies. Moreover, to ensure
                             that TRIP is managed consistent with departmental interests rather
                             than those of a single agency, DHS must provide independent
                             funding for the program.

                   Recommendations
                             We recommend that the Director of the Screening Coordination
                             Office, in consultation with the Assistant Secretary for the
                             Transportation Security Administration:

                             Recommendation #2: Define and communicate strategic and
                             operational management roles for TRIP, and participant and
                             program manager responsibilities, roles, and authorities.


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 32
                                    SENSITIVE SECURITY INFORMATION



                             We recommend that the Director of the Screening Coordination
                             Office:

                             Recommendation #3: Seek independent funding for TRIP
                             through a line item in the department’s budget or that of one of its
                             components.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 2. The
                             department indicated that SCO will lead the effort to document
                             TRIP strategic and operational management responsibilities, roles,
                             and authorities, in consultation with TRIP participants for approval
                             by the RCI Governance Board. DHS plans to approve and
                             distribute a signed DHS informational memorandum on these
                             topics by the first quarter of FY 2010.

                             OIG Analysis: We consider DHS’ proposed actions responsive to
                             the intent of this recommendation, which is resolved and open.
                             This recommendation will remain open pending our receipt of
                             documentation that clearly defines TRIP’s strategic and
                             operational management roles, to include participant and program
                             manager responsibilities, roles, and authorities.

                             DHS Response: DHS concurred with Recommendation 3. DHS
                             management noted that the DHS FY 2010 budget contains an
                             independent line item of $1.3 million for TRIP.

                             OIG Analysis: We consider DHS’ actions fully responsive to the
                             intent of this recommendation, which is resolved and closed.


         TRIP Does Not Always Provide Meaningful Resolutions to
         Redress-Seekers’ Travel Difficulties
                   To be successful and responsive, TRIP must provide redress-seekers with
                   meaningful results that have appreciable benefits. To do so, TRIP must
                   resolve the travel difficulties it claims it can. The TRIP website advises
                   travelers that the program can assist them with resolving a range of travel
                   difficulties. Our review of redress results revealed that those claims are
                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 33
                                    SENSITIVE SECURITY INFORMATION



                   overstated. While TRIP offers effective solutions to some traveler issues,
                   it does not address other difficulties effectively, including the most
                   common—watch list misidentifications in aviation security settings.
                   TRIP’s inability to provide meaningful solutions in this area could damage
                   the program’s credibility.

                   To deliver meaningful results, a redress process requires independent and
                   impartial judgment in reviewing cases. Most TRIP cases are reviewed by
                   staff outside the traveler screening and vetting units that are the most
                   common source of travel difficulties and subsequent complaints. This
                   independence gives redress staff greater latitude to make determinations
                   that may be critical of or effectively reverse decisions made by screeners,
                   inspectors, or investigators. However, the disposition of two important
                   types of redress cases is left to the source of the original determination that
                   redress-seekers are petitioning to reverse.

                   Most Redress Cases Relate to Two Types of Underlying Issues

                             TRIP redress inquiries stem from many different adverse travel
                             experiences. Those experiences are the product of a range of
                             underlying issues that TRIP is intended to address. Nevertheless,
                             most TRIP cases relate to two types of underlying issues. Redress-
                             seekers may have been inconvenienced because they were (1)
                             misidentified with or (2) correctly matched to government data
                             used by screening agencies.

                             The overwhelming majority of TRIP cases relate to traveler
                             difficulties in an aviation security setting or at a U.S. port of entry.
                             TSA is charged with traveler screening in aviation settings, while
                             CBP is responsible for screening and admissibility determinations
                             at ports of entry. In aviation security settings, redress-seekers
                             generally petition to address instances in which they perceive they
                             were either misidentified with or correctly matched to a record on
                             a terrorist watch list. At ports of entry, redress-seekers may have
                             been misidentified with or correctly matched to a record in one of
                             many government systems, including the terrorist watch list.

                             Consequently, both TSA and CBP process redress cases that relate
                             to misidentifications and terrorist watch list matches. Because
                             CBP uses data from a number of other government systems to

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 34
                                    SENSITIVE SECURITY INFORMATION



                             inform its screening and admissibility decisions, CBP also receives
                             redress cases related to correct matches to data in other systems.
                             To resolve issues related to correct matches to records in
                             government systems, CBP and TSA refer redress cases to the
                             agencies that maintain those systems. When a redress case
                             pertains to a correct match to the terrorist watch list, for example,
                             TSA and CBP refer the case to TSC, which maintains the federal
                             government’s consolidated terrorist watch list, or TSDB. A
                             number of TSA and CBP-related redress cases may not pertain to
                             data in government systems as both agencies employ other
                             techniques in identifying individuals for additional security
                             scrutiny. TSA, for example, uses behavioral indicators and
                             random selection techniques to identify passengers for additional
                             screening.

                   Figure 3: Aviation Security and Port of Entry Travel Issues




                   Source: OIG Analysis

                   TRIP’s Primary Redress Tool Does Not Assist Travelers in
                   Many Cases

                             Most TRIP redress requests stem from watch list misidentifications
                             in commercial aviation security settings. TRIP’s primary redress

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 35
                                    SENSITIVE SECURITY INFORMATION



                             tool to address these misidentifications is the cleared list. Redress-
                             seekers, however, rarely benefit from TSA’s efforts to add them to
                             the cleared list, as air carriers seldom use the list. TSA could do
                             more to promote use of the list.

                             Watch List Misidentifications Related to Commercial Aviation
                             Security Are the Principal Source of TRIP Redress Requests

                             TSA works with air carriers to identify individuals believed to pose
                             a threat to commercial aviation security. To identify these
                             individuals, the federal government has developed two watch lists,
                             the No Fly and Selectee lists. These lists are subsets of the larger
                             TSDB discussed earlier in this report. Individuals on the No Fly
                             list are prevented from boarding an aircraft, while those who match
                             the Selectee list are subjected to additional security screening.

                             Under the present procedures for terrorist watch list vetting, a large
                             number of air travelers are identified as possible matches to TSA’s
                             No Fly or Selectee list. The vast majority of travelers identified as
                             a possible match to these lists are ultimately determined not to be
                             the individuals of interest. These initial misidentifications are
                             referred to as false positives.

                             TSA requires air carriers to vet passenger data against the No Fly
                             and Selectee lists and identify possible matches for additional
                             scrutiny. For security reasons, TSA provides air carriers with little
                             information about individuals on the No Fly and Selectee lists.
                             The watch lists that TSA makes available to the air carriers contain
                             only first names, last names, and dates of birth. For their part, air
                             carriers collect limited information about passengers during the
                             reservation process. Because reservation information generally did
                             not include dates of birth, air carriers made initial determinations
                             about whether a traveler is a possible match to the watch lists
                             exclusively based on first and last name information. This
                             approach yields a large number of false positives.

                             False positives are costly to passengers, air carriers, and the
                             government. Misidentified passengers cannot select seats or print
                             a boarding pass until their identifying information is verified by an
                             air carrier representative. For frequent travelers, these delays may

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 36
                                    SENSITIVE SECURITY INFORMATION



                             be very inconvenient. Air carriers incur additional costs when a
                             passenger who could otherwise check in online or use an airport
                             ticket kiosk is directed to a ticket agent for identity verification.
                             Meanwhile, the federal government expends time and resources
                             reviewing and correcting false positives. When air carriers cannot
                             definitively distinguish between a traveler and a No Fly or Selectee
                             list record, they contact TSA for assistance. Because many of
                             these calls pertain to false positives, TSA staff expend time
                             reviewing information on passengers who pose no threat.

                             False positives adversely affect the traveling public, air carriers,
                             and government because they occur in large numbers on a daily
                             basis. In April 2008, DHS’ Secretary observed, “one major air
                             carrier has reported roughly 9,000 false positives every day.”9
                             From August 2008 to October 2008, seven major U.S. air carriers
                             reported that they diverted 476,094 passengers, or an average of
                             more than 5,100 per day, to ticket counters because of watch list
                             misidentifications. Most false positives inconvenience passengers
                             and air carriers alone and are not brought to TSA’s attention.
                             Nevertheless, even the small percentage of false positives that
                             prompt the air carriers to contact TSA are significant in number.
                             In June 2008, about        of the approximately         calls TSA
                             received from air carriers concerning possible passenger matches
                             to the No Fly or Selectee list were false positives.

                             Most TRIP petitioners seek resolution of watch list
                             misidentification issues that came to their attention in an aviation
                             setting. During the first seven months of 2008, 72% of TRIP
                             petitioners indicated that their travel difficulties occurred in an
                             aviation security setting. TRIP does not seek to determine
                             definitively the underlying source of these petitioners’ travel
                             difficulties in most cases; rather, it assumes that their difficulties
                             stem from either their inclusion on the No Fly or Selectee list or
                             their misidentification as someone on these lists. Because very
                             few redress-seekers positively match the No Fly or Selectee list,
                             most redress-seekers were likely to have been misidentified during
                             the watch list vetting process.


9
    http://www.dhs.gov/xnews/releases/pr_1209473895546.shtm.

                                    SENSITIVE SECURITY INFORMATION

            Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 37
                                    SENSITIVE SECURITY INFORMATION



                             TRIP’s Primary Tool to Address Watch List Misidentifications—
                             the Cleared List—Is Often Ineffective Because Air Carriers Use It
                             Sparingly

                             TRIP advertises that it “can help travelers work to resolve” watch
                             list misidentifications that arise in aviation settings. The TRIP
                             website indicates that the program “is a central gateway to address
                             watch list misidentification issues.”10 It also indicates that the
                             program can assist in the resolution of travel issues that stem from
                             watch list misidentifications, such as being unable “to print a
                             boarding pass from an air carrier ticketing kiosk or from the
                             Internet....”11

                             Despite the website’s declarations about the program’s ability to
                             address watch list misidentifications, TRIP’s primary redress tool
                             for this purpose—the cleared list—does not assist travelers in
                             many cases. TRIP’s primary approach to resolve aviation-related
                             watch list misidentifications is to create a cleared list record for the
                             misidentified individual. TSA, in turn, provides the cleared list to
                             air carriers to use in vetting passengers against the No Fly and
                             Selectee lists.




10
     http://www.dhs.gov/xtrvlsec/programs/gc_1169676919316.shtm.
11
     http://www.dhs.gov/xtrvlsec/programs/gc_1169699418061.shtm.

                                    SENSITIVE SECURITY INFORMATION

            Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 38
                                    SENSITIVE SECURITY INFORMATION



                             Figure 4: TRIP Approach to Watch List Misidentifications in
                             Aviation Security Settings


                                                Aviation Security Settings
                                                          (TSA)




                                                     Terrorist Watch List
                                                           Related




                                           Misidentified                 Correctly Matched
                                          Cleared List                      TSC Review

                             Source: OIG Analysis

                             The cleared list’s shortcomings and continued watch list
                             misidentifications do not occur because of a lack of effort or
                             attention. TSA has devoted significant time and resources to
                             maintain the cleared list. TSA staff vet biographical information
                             against the No Fly and Selectee lists, and sometimes refer this
                             information for further checks by the TSC. TSA then populates
                             the cleared list with the vetted biographical information. In some
                             cases TSA enters this information in both TRIP’s case
                             management system and the cleared list itself. By June 2008,
                             program staff had added biographical information on almost
                             71,000 individuals to the cleared list. TSA has also invested in IT
                             resources to support cleared list programming and maintenance,
                             and to ensure that air carriers have access to updated versions of
                             the cleared list.

                             Many misidentifications occur because air carriers’ use of the
                             cleared list is very limited. TSA requires air carriers to review
                             identifying documents for all passengers identified as a possible
                             No Fly or Selectee list match regardless of cleared list status. Most

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 39
                                    SENSITIVE SECURITY INFORMATION



                             air carriers accomplish this through in-person identity verification
                             checks, although some permit passengers to scan identifying
                             documents at airport kiosks. Passengers identified as possible
                             watch list matches are not permitted to print boarding passes
                             online, and are generally unable to do so at an airport kiosk. This
                             is the most common traveler inconvenience associated with watch
                             list vetting, and travelers on the cleared list are rarely able to avoid
                             it. This occurs because air carriers must review identifying
                             documents for all individuals who are a possible watch list match,
                             regardless of whether their identifying information more closely
                             matches a record on the cleared list.

                             Usually, air carrier representatives are able to rule out watch list
                             misidentifications when passengers present themselves at a ticket
                             counter and provide additional information, such as their date of
                             birth. In exceptional cases, should a passenger’s name and date of
                             birth match a record on the No Fly or Selectee list, air carriers may
                             use the cleared list to assist them in ruling out the match. Air
                             carriers can use the extensive identifying information on the
                             cleared list to identify passengers who, despite similar identifying
                             information to a watch list record, have successfully completed the
                             redress process and been determined not to be the focus of a watch
                             list record. Nonetheless, a number of air carriers do not use this
                             information. When air carrier representatives are unable to rule
                             out a watch list match, they contact TSA to make a final
                             determination on whether an individual is the intended target of a
                             watch list record.

                             Air carriers use the cleared list sparingly, and in some cases not at
                             all. In September 2008, the Government Accountability Office
                             (GAO) reported that representatives from 4 of 14 air carriers
                             surveyed said that their air carrier did not use the cleared list.
                             Eleven air carriers indicated that individuals on the cleared list still
                             must check in at a ticket counter.12

                             We spoke with representatives of five major air carriers and
                             reviewed materials related to two more. We also discussed the
12
  GAO, Aviation Security – TSA Is Enhancing Its Oversight of Air Carrier Efforts to Identify Passengers
on the No Fly and Selectee Lists, but Expects Ultimate Solution To Be Implementation of Secure Flight,
GAO-08-992, September 2008, p. 50.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 40
                                    SENSITIVE SECURITY INFORMATION



                             practices of 14 other air carriers with TSA. Of these 21 air
                             carriers, only 1 used the cleared list to assist it in ruling out
                             possible watch list matches in the process of initially vetting
                             reservation data. Three others used the cleared list to assist in
                             ruling out false positives at the ticket counter when a passenger’s
                             name and date of birth were identical or very similar to those in a
                             No Fly or Selectee record. Representatives from two major air
                             carriers acknowledged that they did not use the cleared list at all.

                             TSA Bears Some Responsibility for Air Carriers’ Limited Use of
                             the Cleared List

                             Although TSA maintains and distributes the cleared list so air
                             carriers can use it to reduce the incidence of false positives, TSA
                             has created a regulatory environment that contradicts this aim. In
                             addition, the cleared list that air carriers receive is not a complete
                             list of all cleared individuals, but a subset of those who currently
                             match the No Fly or Selectee list.

                             While TSA has placed intense pressure on air carriers to ensure
                             that they identify possible watch list matches, it has created a
                             regulatory environment that places little emphasis on clearing
                             misidentified passengers. TSA’s guidance to air carriers on
                             matching passenger data to the No Fly and Selectee lists itemizes
                             specific matching requirements, and TSA has studied and tested air
                             carriers’ effectiveness in identifying passengers who match watch
                             list records. When TSA has learned that an air carrier failed to
                             identify a passenger who is on the No Fly or Selectee list, the air
                             carrier has been fined.

                             By contrast, TSA’s security directives require air carriers to use the
                             cleared list but do not stipulate how. TSA guidance mandates that
                             air carriers have verifiable systems that use the cleared list to clear
                             individuals. However, TSA has never sought to verify that such
                             systems are in place. TSA transportation security inspectors said
                             that they knew of air carriers that did not use the cleared list, but
                             these air carriers have not been sanctioned or penalized. TSA’s
                             pressure on air carriers not to miss watch-listed passengers exceeds
                             its pressure on them to use the cleared list to reduce false positives.


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 41
                                    SENSITIVE SECURITY INFORMATION



                             Moreover, TSA has constrained air carriers’ access to the full
                             cleared list. In so doing, TSA excludes information on some
                             individuals who air carriers would be able to clear more easily.
                             Rather than giving air carriers access to all records on the cleared
                             list, TSA gives them access to a subset of records: permanent and
                             active records.

                             TSA considers a cleared list record permanent when at the time of
                             the traveler’s redress request, the traveler’s record is a match to a
                             No Fly or Selectee list record on the basis of last name, first name,
                             and date of birth. TSA works with the TSC to vet all subjects of
                             permanent cleared list records to ensure that, despite the similarity
                             of their identifying information, they are not the intended target of
                             a watch list record. TSA considers a cleared list record active
                             when the record has a last name and first initial that match the last
                             name and first initial on a current No Fly or Selectee record. TSA
                             also considers cleared list records active when the record has a first
                             name and last name that, when reversed, match the first name and
                             last name of a current No Fly or Selectee record. TSA considers
                             the remaining cleared list records inactive.

                             TSA considers most cleared list records inactive and does not
                             provide them to air carriers. TSA had almost 71,000 cleared list
                             records as of May 30, 2008. Of these, TSA protocols rendered
                             approximately 45,391, or 64%, inactive.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 42
                                    SENSITIVE SECURITY INFORMATION



                             Figure 5: Distribution of Cleared List Records as of May 30, 2008




                             * Figures do not add up to 100% due to rounding error.
                             Source: OIG Analysis of Cleared List Records

                             Air carriers use a range of matching techniques to determine
                             whether a traveler is a possible match to the No Fly or Selectee list.
                             An April 2008 TSA security directive requires air carriers to use
                                   name-matching protocols when comparing passenger data to
                             information on the No Fly and Selectee lists. Some air carriers
                             perform additional watch list checks on passenger data, including
                             checks that account for common alternative spellings of certain
                             names, as well as phonetic variations of name spellings.

                             Because the criteria that TSA uses to identify permanent and active
                             cleared list records are not aligned with air carrier watch list
                             matching protocols, air carriers do not receive cleared list
                             information on some cleared travelers who are possible matches to
                             the watch lists. For example, TSA requires air carriers to consider
                             individuals possible watch list matches if their names match to
                             names on a No Fly or Selectee list record
                                                                       . However, TSA does not
                             consider cleared list records that match No Fly or Selectee list
                             records on the same grounds to be active records, and does not
                             share them with the air carriers. Thus,
                                             who completed the redress process and was added to
                             the cleared list, will be identified by air carriers as a possible watch
                             list match to a No Fly list record                       but the air
                             carriers will not have access to her cleared list record because TSA
                             considers it inactive.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 43
                                    SENSITIVE SECURITY INFORMATION




                             These abstract differences in watch list matching protocols have a
                             practical effect on air carriers’ ability to clear passengers. Some
                             inactive cleared list records match the No Fly and Selectee lists
                             when air carrier matching protocols are used. Therefore, when air
                             carriers identify passengers with inactive cleared list records as
                             possible watch list matches, they have no way of knowing that
                             those passengers have already been cleared by TSA.

                             To determine the effect of this inconsistency in TSA’s approach to
                             watch list matching, we matched inactive cleared list records from
                             May 30, 2008, to No Fly and Selectee records from the same date.
                             We used the matching routines that TSA requires air carriers to use
                             when vetting passenger data to identify inactive records that air
                             carriers could have used to clear passengers. Our research
                             revealed that 2,904 inactive cleared list records—6.4% of inactive
                             cleared list records—were a match to the No Fly or Selectee list
                             using the matching routines TSA requires air carriers to use. If any
                             of these individuals on the cleared list had attempted to fly on
                             May 30, 2008, they would have been identified by their air carrier
                             as a possible watch list match. When air carrier representatives
                             consulted the cleared list to rule them out as a match, however,
                             they would not have found them because the abbreviated version
                             of the cleared list that TSA provided did not include their cleared
                             list record.

                             TSA representatives told us that they do not share the full cleared
                             list with the air carriers for two reasons. First, they are concerned
                             about air carriers’ ability to regularly access and process the entire
                             cleared list. At the time of our fieldwork, however, air carriers
                             were already successfully downloading a larger data set than the
                             cleared list—the Selectee list—from TSA on a regular basis. Air
                             carriers should be able to download and process the full cleared list
                             as well.

                             Second, TSA officials said that several years ago they learned that
                             an air carrier used the cleared list to vet passenger data in the same
                             way it used the No Fly and Selectee lists. This meant that all
                             individuals on the cleared list were allegedly required to report to a
                             ticket counter for an identity check, regardless of whether they

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 44
                                    SENSITIVE SECURITY INFORMATION



                             matched a No Fly or Selectee record. Essentially, this air carrier
                             allegedly penalized cleared passengers for being on the cleared list.
                             TSA representatives indicated that the air carrier in question used
                             the cleared list in this manner because it had tied the cleared list to
                             the same programming code it associated with the No Fly and
                             Selectee lists. The air carrier reportedly did not have the IT
                             programming resources to develop a new, more productive way to
                             use the cleared list in the passenger watch list vetting process. In
                             the future, TSA should respond to such cases by working with the
                             air carrier in question to resolve the matter, rather than using such
                             cases to determine whether to provide the full cleared list to air
                             carriers.

                             Aggrieved travelers invest time and resources submitting
                             information to TSA that TSA, in turn, expends time and resources
                             entering into the cleared list. However, these efforts rarely benefit
                             travelers due to the air carriers’ limited application of the cleared
                             list. Air carriers could apply the cleared list in a comprehensive
                             way if TSA reshaped the regulatory environment, and provided
                             them with either the full cleared list or a more substantial portion
                             of it.

                             While TSA could do more to encourage use of the cleared list to
                             rule out possible watch list matches, the air carriers have taken
                             independent action to reduce false positives. Several air carriers
                             concerned about the volume of false positives created their own
                             passenger preclearance programs. As noted earlier, these
                             preclearance programs typically pair frequent flier or air carrier
                             rewards program data with passenger reservation information to
                             help rule out possible watch list matches. Some air carriers have
                             invested significant resources in their preclearance programs, and
                             these efforts are commendable.

                             Nevertheless, enrollment in air carrier passenger preclearance
                             programs is not an optimal solution for a number of travelers
                             inconvenienced by frequent watch list misidentifications. Many
                             passengers do not have the option of enrolling in a preclearance
                             program because their air carrier does not have such a program. A
                             passenger who flies on an air carrier with a preclearance program
                             must be enrolled in that air carrier’s program to receive benefits.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 45
                                    SENSITIVE SECURITY INFORMATION



                             Consequently, many frequent travelers would have to enroll in a
                             number of preclearance programs to receive benefits every time
                             they fly.

                             TSA could leverage the cleared list more in implementing air
                             carrier passenger preclearance programs, but it has not done so.
                             DHS’ authorization of air carrier preclearance programs could
                             have provided for air carriers to collect redress control numbers,
                             and thus link records to the cleared list, but it did not. We
                             encourage TSA to study this option should full implementation of
                             the Secure Flight program, discussed in the following section, be
                             delayed.

                             In the meantime, TSA could help reduce the incidence of false
                             positives by communicating clearer requirements for air carriers’
                             use of the cleared list, establishing a monitoring regime to enforce
                             compliance with those requirements, and providing air carriers
                             with more of the cleared list.

                   Recommendations
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration:

                             Recommendation #4: Revise aviation security directives to
                             specify how air carriers are to use the cleared list, and develop and
                             apply inspection protocols that monitor air carriers’ use of the
                             cleared list.

                             Recommendation #5: Provide more of the cleared list to air
                             carriers, at minimum ensuring that they receive all cleared list
                             records that match the current No Fly and Selectee lists using all
                             required matching routines.

                   Management Comments and OIG Analysis
                             DHS Response: DHS did not concur with Recommendation 4. In
                             its response, DHS management acknowledged commercial air
                             carriers’ financial challenges and competing requirements for their
                             investments, particularly related to their IT systems and Secure

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 46
                                    SENSITIVE SECURITY INFORMATION



                             Flight program requirements. DHS said that rather than revising
                             aviation security directives, TSA will implement Secure Flight to
                             perform watch list and cleared list matching. Further, DHS
                             indicated it would revise the Transportation Security Inspection
                             Handbook to define inspection protocols to monitor both cleared
                             list and other No-Fly list requirements.

                             OIG Analysis: DHS’ comments were not responsive to the intent
                             of this recommendation, which remains unresolved and open.
                             Although TSA has maintained the cleared list for more than four
                             years, it has yet to provide guidance to the airlines on how to use it.
                             Aviation security directives distributed to air carriers include No
                             Fly and Selectee watch list requirements, but do not provide
                             guidance on cleared list use. While Secure Flight employs the
                             cleared list in its passenger vetting process, Secure Flight is not
                             scheduled to vet all domestic air passengers until the end of 2010.
                             TSA should pursue necessary regulatory changes now so that
                             passengers on the cleared list can obtain meaningful relief in the
                             interim. TSA guidance and specifications for air carriers’ cleared
                             list use need not focus on standards that will require air carriers to
                             modify their IT systems. However, TSA requirements in this area
                             could prompt some air carriers to speed their transition to Secure
                             Flight.

                             This recommendation will remain open until TSA revises its
                             aviation security directives to provide air carriers with guidance
                             and specifications on use of the cleared list, and modifies its
                             inspection protocols to monitor compliance with these guidelines.

                             DHS Response: DHS did not concur with Recommendation 5.
                             DHS management said that its current sharing practices are
                             designed to provide air carriers with data needed to effectively
                             perform watch list matching. According to DHS, inactive cleared
                             list records are not provided to air carriers in order to aid watch list
                             matching. When the watch listed record causing the
                             misidentification has been removed from the No-Fly and Selectee
                             lists, the corresponding cleared list record becomes inactive.

                             Further, DHS officials said that air carriers cite the costs of IT
                             system modifications as a reason for not using more of the cleared

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 47
                                    SENSITIVE SECURITY INFORMATION



                             list. DHS said that our analysis of the expanded cleared list use
                             resulting in a 6.5% performance improvement is not a sufficient
                             incentive for air carriers to make the necessary IT investments for
                             full cleared list use. DHS also indicated that the implementation of
                             Secure Flight by the end of 2010 makes this recommendation
                             unnecessary.

                             OIG Analysis: DHS’ comments were not responsive to the intent
                             of this recommendation, which remains unresolved and open. We
                             highlighted the differences between TSA’s criteria for identifying
                             permanent and active cleared list records, and its watch list
                             matching protocols, and discussed the effect this has on air
                             carriers’ ability to clear passengers. Air carriers’ receive and
                             process TSA’s Selectee list, which at the time of our field work
                             was longer than the full cleared list. Therefore, air carriers are not
                             likely to require significant IT system modifications to receive
                             more of the cleared list. As Secure Flight is not expected to vet all
                             domestic passengers until the end of 2010, TSA should take the
                             steps necessary to share more of the cleared list with air carriers
                             now. This recommendation will remain open until TSA provides
                             air carriers all cleared list records that match current No Fly and
                             Selectee lists using all required matching routines.

                   Plans for Secure Flight Promise Increased Cleared List Use
                   But Raise Other Issues

                             TSA asserts that use of the cleared list will improve with the
                             expansion of the Secure Flight program. Whereas most air carriers
                             are currently responsible for vetting domestic passengers against
                             the No Fly and Selectee lists, TSA began assuming this
                             responsibility in January 2009 under the Secure Flight program.
                             TSA maintains that Secure Flight will provide more thorough and
                             uniform vetting of air carrier passenger data, thereby reducing
                             threats to aviation. TSA also holds that Secure Flight will reduce
                             the incidence of false positive matches to the No Fly and Selectee
                             lists.

                             The Secure Flight program vets air carrier passenger data against
                             the No Fly and Selectee lists in a three-stage process. The first
                             stage of the process is automated, while the remaining two stages

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 48
                                    SENSITIVE SECURITY INFORMATION



                             involve manual vetting by government analysts. The Secure Flight
                             program will use the cleared list in each of these vetting stages.
                             Once the Secure Flight program receives air carrier passenger data
                             and performs initial automated vetting of these data against the No
                             Fly and Selectee lists, it checks potential No Fly and Selectee
                             matches against the cleared list. Passengers who are initially
                             identified as a potential watch list match but are also an exact
                             match to a cleared list record are cleared by Secure Flight and not
                             subjected to any special security screening. Secure Flight analysts
                             manually vet potential watch list matches that remain after this
                             process is complete. TSA reported that the cleared list would be
                             available to these analysts to assist them in ruling out some
                             remaining possible watch list matches.

                             If Secure Flight plans are properly implemented, the program will
                             increase the overall use of the cleared list. These plans, however,
                             raise other concerns related to the cleared list and redress of
                             traveler grievances.

                             According to the Secure Flight Final Rule, all domestic air carriers
                             will be required to collect additional information on passengers.
                             Whereas air carriers collected only passenger names under past
                             requirements, the new rule requires them to collect passengers’
                             dates of birth, gender, and, when available, redress control
                             numbers. TRIP assigns a redress control number to redress cases
                             for tracking purposes. Secure Flight uses these redress control
                             numbers to link travelers to cleared list records. Secure Flight’s
                             automated passenger data vetting process does not consider a
                             passenger record a cleared list match unless the passenger’s
                             information is an exact match to the first name, last name, and date
                             of birth of a cleared list record and includes the corresponding
                             redress control number.

                             This approach poses two significant challenges. First, it is
                             unreasonable to expect people on the cleared list to supply redress
                             control numbers to air carriers during the reservation process.
                             Travelers who petitioned for redress before October 2007 never
                             received redress control numbers. Redress-seekers who received
                             redress control numbers since then have not been advised to retain
                             the number after completing the redress process. During our

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 49
                                    SENSITIVE SECURITY INFORMATION



                             fieldwork, TRIP had not advised redress-seekers that their redress
                             control numbers could help them avoid future watch list
                             misidentifications.

                             Second, at the time of our fieldwork the cleared list did not contain
                             redress control numbers, and TSA may experience difficulties
                             linking cleared list records to redress control numbers. Redress
                             control numbers are maintained in TRIP’s RMS. However, during
                             our field work there was no direct link between RMS and the
                             cleared list, and RMS did not contain reliable information on
                             whether a cleared list record was created in response to a given
                             redress request. In addition, some cleared list records may be
                             associated with multiple redress control numbers because the same
                             cleared individual may have submitted multiple redress requests.
                             At the time of our fieldwork, TSA had yet to develop a plan to
                             address these issues.

                             Secure Flight plans also suggest that the program will use the
                             cleared list less extensively than is advisable. According to Secure
                             Flight plans, the program is to receive only the active and
                             permanent subsets of the cleared list. By using only these subsets
                             for vetting purposes, Secure Flight limits the number of possible
                             watch list matches it can rule out.

                             Secure Flight applies complex algorithms to matching passenger
                             data to No Fly and Selectee records.




                             Secure Flight has set a high standard for determining whether a
                             passenger is on the cleared list.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 50
                                    SENSITIVE SECURITY INFORMATION




                                                                                Minor data issues
                             associated with air carrier reservation systems or data entry errors
                             on the part of TRIP redress staff could also work against cleared-
                             listed individuals’ prospects of being cleared.

                             Secure Flight’s
                                                        will prevent some aggrieved individuals
                             from receiving effective redress. This requirement is unnecessary,
                             and contrasts with Secure Flight’s approach to watch list matching.




                   Recommendations
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration:

                             Recommendation #6: Develop and implement a plan for the
                             Office of Transportation Security Redress to address Secure Flight
                             requirements that, at minimum, provide for notifying current
                             redress applicants that their redress control numbers may be useful
                             in future air carrier reservations, and establishes how TSA will
                             incorporate redress control numbers into the cleared list.

                             Recommendation #7: Use all cleared list records to assist in
                             ruling out all possible passenger data matches to the watch lists
                             identified through Secure Flight, and evaluate options for applying
                             matching thresholds for cleared list matches to account for possible
                             cleared-list passenger data entry errors.


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 51
                                    SENSITIVE SECURITY INFORMATION



                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 6. DHS
                             management advised that all cleared list records have been updated
                             with redress control numbers. As of January 2009, OTSR provides
                             the cleared list to Secure Flight daily. Secure Flight and OTSR are
                             coordinating a letter to redress applicants who filed before October
                             2006 to provide them with a redress control number and
                             information on its intended use. TSA plans to send these letters by
                             the end of the 4th quarter of FY 2009.

                             OIG Analysis: DHS’ proposed actions are partially responsive to
                             this recommendation, which is resolved and open. Although TSA
                             will send letters with redress control numbers to those redress
                             seekers who filed for redress prior to October 2006, TSA should
                             also seek to alert any subsequent redress-seekers of the potential
                             benefit of retaining and using their redress control numbers when
                             making future air travel reservations. Further, in order to fully
                             comply with our recommendation, TSA must develop a means of
                             advising pending and future redress-seekers of how they can use
                             their redress control numbers. This recommendation will remain
                             open until TSA demonstrates to us that it has provided all of the
                             notifications described above.

                             DHS Response: DHS concurred with Recommendation 7. As of
                             January 2009, Secure Flight receives and uses the full cleared list,
                             and employs matching algorithms to identify exact and near
                             matches to the cleared list.

                             OIG Analysis: DHS’ actions are responsive to this
                             recommendation, which is resolved and open. This
                             recommendation will remain open until TSA has provided
                             documentation that Secure Flight is using the full cleared list, and
                             employing the algorithms to identify near matches to the cleared
                             list matches to account for possible cleared-list passenger data
                             entry errors.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 52
                                    SENSITIVE SECURITY INFORMATION



                   The Primary Redress Tool for Difficulties at Ports of Entry Is Often
                   Effective, but Could Be Improved

                             The second largest group of TRIP redress requests pertains to
                             difficulties at U.S. ports of entry. Twenty-eight percent of TRIP
                             redress-seekers who submitted complaints during the first seven
                             months of 2008 indicated that their travel issues related to a port of
                             entry. CBP’s primary instrument to address related difficulties is
                             the PLOR. CBP creates PLORs for travelers who are subjected to
                             secondary inspections upon entering the country because they have
                             been misidentified as someone of interest to the government.
                             PLORs provide meaningful assistance to many travelers, but have
                             some limitations.

                             Many travelers who enter the United States are required to submit
                             to secondary inspections by CBP officers. Travelers may be
                             directed to secondary inspections based on observations by CBP
                             officers at primary inspection stations, in response to a CBP
                             intelligence-driven operation, or because their identifying
                             information matches a lookout in TECS. These lookouts, which
                             are generated by a number of federal agencies, relate to a past
                             violation or suspicion of violation of various laws and border
                             crossing requirements.

                             Sometimes travelers selected for secondary inspections based on a
                             TECS lookout are not the lookout’s intended target. This is
                             because some TECS lookouts contain limited biographical
                             information on the target, and a number of travelers may match the
                             lookout’s limited biographical profile. While those travelers are
                             subjected to secondary inspections because of the lookout, many
                             are not its intended target. Secondary inspections may take more
                             than a half an hour and frequently involve separating the subject of
                             the inspection from family members. Secondary inspections
                             resulting from lookout misidentifications, therefore, represent a
                             major inconvenience to travelers.

                             When, following a secondary inspection, a CBP officer determines
                             that a traveler is not the intended focus of a TECS lookout, the
                             officer is to create a PLOR in TECS. The PLOR is designed to
                             override the TECS lookout that prompted the traveler’s secondary

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 53
                                    SENSITIVE SECURITY INFORMATION



                             inspection automatically. When the traveler passes through a port
                             of entry in the future, that TECS lookout will not prompt officers
                             to refer the traveler to secondary inspection again.13 By creating
                             PLORs, CBP lowers the incidence of repeat traveler
                             misidentifications, reduces traveler inconvenience, and enables
                             CBP to focus its resources on more likely security risks. As of
                             May 2008, CBP had created approximately 150,000 active PLORs.
                             These PLORs, in turn, enabled CBP officers to forgo secondary
                             inspections of misidentified travelers 156,740 times.

                             Figure 6: TRIP Approach to Misidentifications at Ports of Entry




                             Source: OIG Analysis




13
     A traveler with a PLOR record may, however, be referred to secondary inspection for other reasons.

                                    SENSITIVE SECURITY INFORMATION

             Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 54
                                    SENSITIVE SECURITY INFORMATION



                             Primary Lookout Over-Ride Limitations

                             CBP’s PLOR efforts reduce the likelihood that travelers will be
                             repeatedly misidentified. However, three PLOR program security
                             precautions create the possibility that travelers will continue to be
                             misidentified.




                             To address this issue, CBP developed a notification system
                             whereby the PLOR record owner—usually the CBP officer who
                             created the original PLOR—is advised of any changes to the
                             underlying TECS lookout for which the PLOR was created. PLOR
                             record owners then have the opportunity to review changes made
                             to the TECS lookout to determine whether the associated PLOR is
                             still appropriate. If the PLOR is still appropriate, the record owner
                             must revise and re-submit the PLOR. This approach is helpful but
                             imperfect. For example, PLOR record owners may not always
                             review and reactivate PLORs to address updated TECS lookouts
                             when appropriate. In other cases, PLOR record owners may not
                             heed notifications. When CBP officers transfer from a port of

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 55
                                    SENSITIVE SECURITY INFORMATION



                             entry, they are to reassign their PLOR record ownership to other
                             staff at the port of entry. CBP representatives acknowledge,
                             however, that this does not always occur, and note that some
                             lookout notifications may be unattended to as a result.

                             Finally, PLORs are not used to the extent needed to inform air
                             carriers about international passengers bound for the United States.
                             In the past, air carriers were solely responsible for vetting
                             passenger information against the No Fly and Selectee lists. CBP
                             is now in the process of assuming responsibility for
                             communicating watch list vetting results for all international
                             passengers bound for the United States to air carriers through its
                             interactive Advance Passenger Information System (APIS). Under
                             this arrangement, CBP provides instructions to air carriers about
                             the proper handling of a passenger based on the agency’s
                             passenger data checks against the No Fly and Selectee lists. CBP
                             may advise an air carrier that a passenger should be prevented
                             from boarding a U.S.-bound aircraft, subjected to additional
                             security screening, or cleared to board after undergoing standard
                             security screening.

                             CBP uses PLOR information to assist in vetting APIS data. CBP
                             overlays PLOR information on top of its No Fly and Selectee
                             match results in APIS so that passengers CBP has ruled out as
                             watch list matches in the past are not prevented from boarding an
                             aircraft. When a passenger is a possible Selectee list match but has
                             a PLOR overriding a past terrorist watch list lookout, CBP
                             instructs the air carrier to clear the passenger for boarding without
                             any supplementary security screening. When a passenger is
                             identified as a possible No Fly list match, but has a PLOR for a
                             past terrorist watch list lookout, CBP alerts the air carrier to treat
                             the passenger as a selectee and subjects the passenger to additional
                             security screening unless TSA over-rides this determination.

                             CBP’s practices in this latter case do not account properly for the
                             traveler’s PLOR and undercut its value as a redress benefit.
                             PLORs generally reflect CBP officers’ face-to-face determination
                             following an interview process that an individual is not the subject
                             of a lookout. As such, PLORs should be regarded as having a high
                             degree of reliability. CBP’s APIS protocols related to No Fly list

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 56
                                    SENSITIVE SECURITY INFORMATION



                             matches, however, partially discount the integrity of CBP officers’
                             judgment to create a PLOR.

                             CBP’s current practice counteracts the aims of the redress process.
                             Passengers who have been misidentified as a No Fly list match
                             have no alternative but to submit to additional security screening
                             prior to every U.S.-bound international flight. These passengers
                             are permitted to board international flights after they have
                             undergone CBP’s redress process, but continue to be unnecessarily
                             singled out for additional security attention every time they do.
                             CBP should improve its PLOR program by monitoring PLOR
                             record owner activity more closely and more fully leveraging
                             PLORs in the APIS watch list vetting process.

                   Recommendations
                             We recommend that the Commissioner for U.S. Customs and
                             Border Protection:

                             Recommendation #8: Establish a process to monitor the currency
                             of Primary Lookout Over-Ride record owner status, and institute
                             periodic inspections to determine whether record owner
                             notifications about changes made to an underlying subject record
                             are acted on appropriately.

                             We recommend that the Commissioner for U.S. Customs and
                             Border Protection in collaboration with the Assistant Secretary for
                             the Transportation Security Administration:

                             Recommendation #9: End the practice of singling out passengers
                             with terrorist watch list lookout-related Primary Lookout Over-
                             Rides for selectee security screening when they are identified as
                             possible No Fly list matches during Advance Passenger
                             Information System vetting.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 8. DHS
                             management said that a process is in place to send notifications to
                             the responsible officer for disconnected PLORs that require

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 57
                                    SENSITIVE SECURITY INFORMATION



                             attention. CBP field offices monitor a daily report on disconnected
                             PLORs, and these daily reports are also actively reviewed by CBP
                             headquarters personnel. In addition, CBP conducts an annual
                             nationwide review of all PLORs.

                             OIG Analysis: DHS’ actions are fully responsive to this
                             recommendation, which is resolved and closed.

                             DHS Response: DHS did not concur with Recommendation 9.
                             DHS described CBP’s screening of travelers arriving in and
                             departing from the United States using APIS and TECS as
                             temporary. Secure Flight will assume all No Fly and Selectee
                             watch list matching for international flights by the 1st quarter of FY
                             2011.

                             OIG Analysis: DHS’ comments are not responsive to the intent of
                             this recommendation, which remains unresolved and open. We
                             recommended that CBP end the practice of advising air carriers to
                             treat passengers identified as possible No Fly list matches as
                             Selectees when their association with a No Fly list record has
                             already been ruled out in a face-to-face CBP interview. Because
                             this can be achieved now through a change to the IT protocols
                             underpinning APIS’ interface with air carriers, there is no cause to
                             wait until FY 2011 for action. This recommendation will remain
                             open until DHS can establish that it has made the proper
                             adjustments to its APIS IT protocols.

                   When Used for Redress Purposes, CBP’s Primary Lookout Over-Ride
                   Should Be Characterized by More Independence

                             CBP creates many PLORs at ports of entry before travelers have
                             sought redress. Because CBP does not advise misidentified
                             travelers who have undergone secondary screening that a PLOR
                             has been created for them in TECS, some travelers pursue redress
                             after CBP has already created a PLOR record for them.

                             In other cases, CBP finds that misidentified travelers who have
                             filed for redress do not have a PLOR on record. In January 2007,
                             CBP mandated that its officers create PLORs for all misidentified
                             individuals who undergo secondary inspections. Consequently,

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 58
                                    SENSITIVE SECURITY INFORMATION



                             most of these redress cases result from an officer’s failure to
                             comply with this policy. CBP redress officials forward these kinds
                             of complaints to CBP field offices for resolution and await
                             notification that the field offices have taken appropriate action in
                             response to the complaint. CBP field offices, in turn, sometimes
                             rely on the officers who failed to create a PLOR to rectify this past
                             omission.

                             This approach provides no guarantee that an impartial review of
                             the redress complaint will occur. Instead, it ensures that the offices
                             that initially acted on the TECS lookout and were the source of the
                             redress-seeker’s travel difficulties will also be the final arbiters of
                             whether the basis for the traveler’s secondary inspection is
                             overridden. Staff outside of field offices should make these types
                             of determinations with input from field office personnel.

                             DHS is required to offer aggrieved travelers a “fair” redress
                             process.14 Impartial and objective review and adjudication of
                             redress petitions is an essential part of any fair redress process. A
                             process that relies exclusively on the review and consideration of
                             redress claims by the office that was the source of the traveler’s
                             grievance is not fair. CBP should modify its redress process in this
                             area to provide for independent review without compromising
                             security.

                   Recommendation
                             We recommend that the Commissioner for U.S. Customs and
                             Border Protection:

                             Recommendation #10: Ensure that final determinations on
                             whether to create a Primary Lookout Over-Ride in response to a
                             redress complaint reside with employees unaffiliated with field
                             offices that made the original screening or admissibility
                             determination.



14
   Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified
at 49 U.S.C. § 44926(a).

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 59
                                    SENSITIVE SECURITY INFORMATION



                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 10. DHS
                             management indicated that CBP prefers to implement PLORs at
                             the location where the secondary inspection took place.
                             Procedures are now in place, however, for CBP’s redress unit to
                             review, coordinate, and implement a PLOR for redress inquiries
                             under specific circumstances. The redress unit now reviews, in
                             coordination with CBP PLOR managers, redress cases in which the
                             field office did not implement a PLOR to determine whether it
                             might be appropriate to overturn that field determination.

                             OIG Analysis: DHS’ actions are responsive to this
                             recommendation, which is resolved and open. This
                             recommendation will remain open until CBP provides evidence
                             that its redress staff have expanded their redress case outcome
                             reviews to include all redress cases with unfavorable field office
                             determinations.

                   Other Redress Resolutions to Port of Entry Difficulties Should Be
                   Developed Through a More Independent Process

                             In addition to creating PLORs, redress personnel take other actions
                             to address traveler difficulties at U.S. ports of entry. Redress staff
                             sometimes address traveler difficulties at ports of entry by making
                             changes to the underlying data that CBP uses to determine whether
                             to admit travelers into the country and how to screen or inspect
                             them. CBP enforces more than 400 laws at the border, and relies
                             on information from other federal agencies to assist it in enforcing
                             these laws. Much of this assistance is provided through lookouts
                             in TECS, most of which are based on information from other
                             agencies.

                             When a traveler’s information matches a TECS lookout, CBP
                             officers refer to associated action codes to determine whether, for
                             example, to arrest the traveler or refer him or her to a secondary
                             inspection. In some cases, these TECS lookouts identify the
                             intended target of the lookout but are based on inaccurate or
                             outdated information. In other cases, the lookout is appropriate,
                             but the action code and accompanying CBP response are not.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 60
                                    SENSITIVE SECURITY INFORMATION




                             TRIP receives redress requests from travelers who were properly
                             identified as the target of a lookout but believe they were
                             improperly singled out or subjected to unfair treatment. TRIP
                             reviews in these cases focus on the underlying data that were the
                             basis for the TECS lookout and associated action code. Redress
                             cases of this type are brought to the attention of the agencies that
                             created or prompted the creation of the lookout.

                             In many cases, agency staff have the benefit of clear guidelines to
                             determine whether a corresponding lookout should be removed. In
                             the past, DOS, for example, prompted the creation of TECS
                             lookouts that improperly targeted individuals who lost their
                             passports when the lookouts should have focused on the lost
                             documents. In such cases, DOS’ TRIP staff can correct the
                             misdirected lookout so it targets the lost passport rather than the
                             individual who lost it. TRIP redress requests have prompted the
                             removal or correction of many such lookouts.




                             TRIP reviews of redress claims should be free from bias and
                             conflicts of interest, or the potential appearance of either. DHS’
                             current approach to reviewing redress cases related to law
                             enforcement lookouts does not meet this standard. Accordingly,
                             the department should amend its approach to these cases to provide
                             independent review or oversight of redress case determinations. In

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 61
                                    SENSITIVE SECURITY INFORMATION



                             so doing, DHS should continue to ensure that cases are reviewed
                             by knowledgeable staff capable of making informed
                             determinations that do not undermine ongoing investigations.

                   Recommendation
                             We recommend that the Director of the Screening Coordination
                             Office:

                             Recommendation #11: Develop and implement a process for the
                             independent review and adjudication of redress cases related to
                             DHS criminal investigations.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 11. DHS
                             management said that corrective action will take place in
                             coordination with its definition of authorities, roles, and
                             responsibilities for redress participants. DHS aims to complete this
                             activity by the 1st quarter of FY 2010.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. This
                             recommendation will remain open until we receive confirmation
                             that DHS has developed and implemented an independent review
                             and adjudication process for redress cases related to DHS criminal
                             investigations.

                   TSA and CBP Do Not Share Information About Terrorist Watch List
                   Misidentifications

                             TSA and CBP both collect and use information on individuals
                             misidentified as watch list matches. TSA maintains a cleared list
                             to resolve watch list misidentifications, and CBP creates PLORs.
                             However, the two components do not share related information
                             about redress results, even though sharing this information could
                             reduce screening difficulties for misidentified travelers. TSA has
                             provided the cleared list to CBP, but CBP has not used it. CBP
                             does not share information with TSA on individuals it has assigned
                             a PLOR in response to watch list misidentifications.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 62
                                    SENSITIVE SECURITY INFORMATION




                             Both components could use the other’s data on watch list
                             misidentifications, but neither agency has done so. TSA could use
                             CBP’s watch list PLOR data when it assumes responsibility for
                             domestic air carrier passenger vetting under the Secure Flight
                             program. Secure Flight could use CBP data to help rule out some
                             possible No Fly and Selectee list passenger data matches. For
                             example, when a passenger’s data are only a remote match to a
                             selectee record but an exact match to a traveler CBP has assigned a
                             PLOR for a watch list-related lookout, Secure Flight could clear
                             the passenger.

                             For its part, CBP could use TSA’s cleared list to assist in vetting
                             international passengers through APIS. CBP currently uses PLOR
                             information to rule out possible No Fly and Selectee matches
                             identified during its initial vetting of APIS passenger data. It could
                             use cleared list data for the same purpose. CBP could use the
                             cleared list for these purposes if it requires air carriers to submit
                             redress control numbers in their APIS data submissions. Once
                             redress control numbers are added to the cleared list, CBP would
                             be able to use these control numbers to match cleared list records
                             to APIS information, and clear passengers.

                             CBP could use other information from TSA to reduce watch list
                             misidentifications as well. Air carrier personnel contact TSA’s
                             Office of Intelligence for a final determination on how to handle
                             possible watch list matches that CBP has identified through APIS.
                             TSA’s Office of Intelligence gathers information about the
                             passenger from air carrier representatives and reviews APIS data
                             before advising the air carrier whether to permit the passenger to
                             board the aircraft or whether to perform additional security
                             screening. TSA’s Office of Intelligence clears passengers
                             identified as possible watch list matches by CBP         of the time.
                             Although TSA advises air carriers that the passenger is not a watch
                             list match, it has no means of advising the CBP officers who
                             process the passenger upon arrival in the United States, that the
                             passenger is not the intended target of a watch list lookout in
                             TECS. As a result, CBP officers are likely to refer the passenger—
                             whom TSA has already determined is not on the No Fly or
                             Selectee list—to secondary inspection.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 63
                                    SENSITIVE SECURITY INFORMATION




                             This bifurcated approach inconveniences travelers and air carriers
                             and leads to government inefficiencies. Under the current
                             arrangement, DHS components are using screening and vetting
                             resources to evaluate individuals whom another DHS component
                             has already ruled out as a security threat. CBP and TSA should
                             take action to remedy this situation.

                   Recommendations
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration:

                             Recommendation #12: Use TECS Primary Lookout Over-Rides
                             related to terrorist watch list lookouts to help rule out possible No
                             Fly and Selectee list matches identified through the Secure Flight
                             program’s automated passenger data vetting process.

                             We recommend that the Commissioner for U.S. Customs and
                             Border Protection:

                             Recommendation #13: Use the Transportation Security
                             Administration’s cleared list data to assist in ruling out possible
                             No Fly and Selectee list matches identified in Advance Passenger
                             Information System vetting.

                             Withdrawn Recommendation #14: Create a procedure for
                             officers at ports of entry to learn whether Transportation Security
                             Administration Office of Intelligence analysts have ruled out
                             passengers as the target of a watch list lookout.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 12. DHS
                             management said that Secure Flight analysts use TECS
                             information to help them rule out possible watch list matches as
                             part of their manual review process.

                             OIG Analysis: DHS’ actions are partially responsive to this
                             recommendation, which is resolved and open. This

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 64
                                    SENSITIVE SECURITY INFORMATION



                             recommendation will remain open until TSA provides an
                             indication that Secure Flight analysts specifically consider PLOR
                             information in TECS records when ruling out possible No Fly and
                             Selectee list matches identified through the Secure Flight
                             program’s automated passenger data vetting process.

                             DHS Response: DHS concurred with Recommendation 13. DHS
                             management said TSA will review and modify its processes for
                             using the cleared list by the 4th quarter of FY 2009.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. This
                             recommendation will remain open until we receive documentation
                             that CBP uses the cleared list to rule out possible No Fly and
                             Selectee matches identified in APIS vetting.

                             DHS Response: DHS concurred with Recommendation 14, and
                             provided CBP procedures for notifying officers at ports of entry
                             when passengers who are a target of a watch list lookout have been
                             ruled out.

                             OIG Analysis: CBP’s procedures fully address our draft report
                             recommendation. Because the procedures were in place at the time
                             of our fieldwork, we withdrew this recommendation.

                   TRIP Cases for Individuals With Terrorist Screening Database
                   Records Are Often Resolved in a Meaningful Way

                             TRIP redress-seekers who experience aviation-related difficulties
                             or difficulties at a port of entry may be listed in the TSDB. This is
                             sometimes the case for TRIP petitioners seeking relief for domestic
                             aviation-related travel issues, because the No Fly and Selectee lists
                             that commercial air carriers use to vet passengers are derived from
                             the TSDB.15 Similarly, some TRIP redress-seekers who have been
                             subjected to additional security screening or denied entry at U.S.
                             ports of entry had these experiences because of TSDB-related
                             lookouts in TECS. However, only a small percentage of TRIP

15
  For more information on the relationship between the TSDB and the No Fly and Selectee Lists, see DHS
OIG, Role of the No Fly and Selectee Lists in Securing Commercial Aviation, OIG-09-64, May 2009.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 65
                                    SENSITIVE SECURITY INFORMATION



                             petitioners with either type of travel difficulty are actually listed in
                             the TSDB.

                             TRIP refers cases from petitioners who match to a TSDB record or
                             have identifying information that appear to be very similar to a
                             TSDB record to the TSC. Although DHS received 30,292 redress
                             requests through TRIP during FY 2008, it referred only
                                       to the TSC. These cases represent a small percentage of
                             the overall TRIP caseload, but they are important to the
                             government’s effort to identify known or reasonably suspected
                             terrorists. TSC considers related redress efforts to be “one of the
                             key quality control mechanisms for information in the TSDB.”16

                             The TSC has devoted significant resources and attention to redress
                             requests by establishing an independent unit within the center. The
                             TSC has adopted detailed procedures for reviewing and
                             adjudicating cases brought to its attention, and has ensured that its
                             redress personnel have access to the information they need to
                             evaluate cases.

                             To ensure that all multiagency redress officials with TSDB cases
                             have access to required information, the TSC helped create a
                             multiagency memorandum of understanding on watch list redress.
                             The memorandum describes redress process requirements for
                             agencies such as the Federal Bureau of Investigation (FBI) and
                             Central Intelligence Agency that nominate individuals for
                             placement in the TSDB. Under the agreement, nominating
                             agencies are required to review and update information used to
                             support the nomination of the complainant to the TSDB, and
                             forward this information to the Office of the Director of National
                             Intelligence’s National Counterterrorism Center along with a
                             recommendation to retain, modify, or delete the corresponding
                             TSDB record. This center gathers information from the
                             intelligence community, evaluates the nominating agency’s
                             recommendation, and provides an independent recommendation to
                             the TSC on whether the complainant meets criteria for inclusion in
                             the TSDB or the associated No Fly and Selectee lists. The TSC


16
     TSC, TSC Redress SOP, Version 2.1, June 2007, p. 1.

                                    SENSITIVE SECURITY INFORMATION

            Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 66
                                    SENSITIVE SECURITY INFORMATION



                             uses these recommendations and other information to make a final
                             determination on the matter.

                             TSC’s Redress Office also reviews redress cases on misidentified
                             individuals whose identifying information is very similar to the
                             information in a TSDB record. In these cases, TSC reviews the
                             corresponding TSDB record to ensure that it is valid and satisfies
                             the criteria for inclusion in the TSDB. It then determines whether
                             additional information can be added to the TSDB record or records
                             in other government systems to reduce the likelihood of future
                             misidentifications.17

                             The TSC has pursued redress in a rigorous and deliberative way,
                             and devoted significant resources to the effort. The TSC has
                             established specific redress case processing requirements in its 34-
                             page standard operating procedure. A 2007 DOJ OIG review
                             determined that the TSC Redress Office fully complies with its
                             operating procedures.18

                             Owing to its extensive interagency case coordination efforts and
                             scrutiny of redress case information, TSC redress case processing
                             averages 57 days.19 TSC’s Redress Office is comparatively large,
                             enabling it to focus more time and resources on individual cases.
                             TSC’s Redress Office has         staff fully dedicated to vetting,
                             reviewing, and adjudicating redress cases. By contrast, TSA’s
                             OTSR, which is responsible for TRIP intake as well as TSA
                             redress case review, has only six full-time employees.

                             The TSC’s intensive consideration of TSDB-related redress cases
                             frequently provides meaningful results for redress-seekers. TSC’s
                             Redress Office sometimes determines that redress-seekers are
                             appropriately placed in the TSDB. Often, TSC responds to redress
                             requests by changing redress-seekers’ TSDB status. In




17
   “Memorandum of Understanding on Terrorist Watchlist Redress Procedures,” September 19, 2007, p. 9.
18
   DOJ OIG, Follow-Up Audit of the Terrorist Screening Center, Audit Report 07-41, September 2007,
pp. xviii-xix.
19
   Ibid., p. xix.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 67
                                    SENSITIVE SECURITY INFORMATION



                                                           TSC modified the redress-seekers’
                             TSDB record, often downgrading the status from No Fly to
                             Selectee or removing the record from the Selectee list. However,
                             these downgraded or removed records continue to be maintained in
                             the TSDB.

                             These TSDB changes translate into significant travel benefits for
                             redress-seekers. Travelers who are removed from the TSDB may
                             recover the privilege of boarding an aircraft, experience less
                             intensive security screening, and enjoy a more seamless check-in
                             process at airports. They may be permitted to enter the United
                             States following previous denials, and avoid the delays and
                             inconvenience associated with repeated secondary inspections.


         Traveler Redress Efforts Have Important Security Weaknesses
         and Room for Privacy Improvement
                   Security and privacy safeguards are essential when handling personally
                   identifiable information, and are important to the integrity of the TRIP
                   program. Security controls are necessary because TRIP identifies and
                   clears individuals who are not the intended target of lookouts and watch
                   list records, and then shares this information with other government
                   agencies and the private sector for use in ruling out possible matches.
                   Processing errors could result in clearing individuals with a connection to
                   a lookout or terrorist watch list record and expose our Nation to serious
                   threats.

                   Privacy safeguards are important to protecting redress-seekers’ personal
                   information and maintaining public trust in the program. TRIP redress-
                   seekers should have assurance that TRIP applies sound information
                   collection, use, handling, and dissemination practices when they submit
                   sensitive personal information such as dates of birth and copies of
                   passports or drivers’ licenses to the program. In addition, participating
                   federal agencies must comply with the Privacy Act of 1974 (5 U.S.C.
                   §552a) and the E-Government Act of 2002 (P.L. 107-347) assessment and
                   reporting requirements related to personally identifiable information in
                   government data collection systems. According to DHS policy, related



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 68
                                    SENSITIVE SECURITY INFORMATION



                   privacy protections apply to U.S. citizens, legal permanent residents,
                   visitors, and aliens.20

                   We identified three security and privacy weaknesses in TRIP. First,
                   appropriate security controls were not in place for TSA’s cleared list.
                   Second, redress-seekers’ emailed submissions to TRIP may have been
                   exposed to a higher risk of compromise than desirable. Finally, the
                   redress case management system CBP uses to monitor TRIP cases was not
                   compliant with requirements in the Privacy Act and E-Government Act.

                   TSA’s Cleared List Is Not Subject to Necessary Security Controls

                             TSA’s processes for adding records to and maintaining the cleared
                             list could allow for the inclusion of some individuals on the cleared
                             list who are the subject of a No Fly or Selectee list record. This
                             weakness exists because of noncompliance with program
                             procedures and the need for more controls on updating and
                             maintaining cleared list records.

                             Adding records to the cleared list is a multistep process applied in
                             different types of cases. Before redress-seekers are added to the
                             cleared list, TRIP personnel confirm that their redress record
                             contains complete redress inquiry form information and clear
                             copies of identification documents. When redress staff confirm
                             that the redress record is complete, they are to compare the redress-
                             seeker’s information against No Fly and Selectee list records to
                             identify possible matches.

                             When the comparison indicates that the redress-seeker is not a
                             match to either watch list, TSA adds the individual to the cleared
                             list. However, when the comparison reveals a match to either list,
                             TSA refers the matter to TSC for review and adjudication of the
                             individual’s watch list status. In some instances, TSC determines
                             that the redress-seeker’s information matches a watch list record
                             but is not the intended watch list target, and TSA adds the
                             individual to the cleared list. In other cases, TSC determines that
                             the government does not have information to support the redress-
20
  DHS Privacy Office, Privacy Policy Guidance Memorandum Number 2007-1: DHS Privacy Policy
Regarding Collection, Use, Retention, and Dissemination of Information on Non-U.S. Persons
(as amended), January 7, 2009, p. 2.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 69
                                    SENSITIVE SECURITY INFORMATION



                             seeker’s continued placement on the No Fly or Selectee list and
                             removes the individual from one of the lists. TSA adds records for
                             these individuals to the cleared list as well.

                             Figure 7: TSA Process for Adding Records to the Cleared List


                                    Redress-Seeker Information Checked
                                   Against No Fly and Selectee Watch Lists



                                       Positive match to watch list record?

                                           No                          Yes


                                                                                       Refer to TSC for
                                                                                   Review and Adjudication




                                                                            Downgraded:               Appropriate Listing
                                             Removed from the
                                                                           Removed from
                                                 TSDB
                                                                         No Fly / Selectee List

                                                                                                           Remain on
              Added to                                                                                     No Fly or
             Cleared List
                                                                                                            Selectee
                                                                                                              List


                             Source: OIG Analysis of TRIP Program Materials, RMS, and Cleared List Data

                             Data from RMS, TRIP’s case management system, indicate that
                             program personnel have not always followed proper procedures
                             when adding records to the cleared list. According to TSA’s
                             procedures, redress staff are to review incoming redress requests to
                             ensure that copies of required identifying documents are included
                             before adding related records to the cleared list. TRIP gathers
                             these copies to authenticate the identity of the redress petitioner.
                             The program examines redress-seekers’ identifying documents as a
                             security check on submissions to reduce the likelihood that
                             fraudulent identities are added to the cleared list.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 70
                                    SENSITIVE SECURITY INFORMATION




                             TSA has not always complied with its procedures in this area. We
                             identified more than 200 cases in RMS in which TSA had added
                             redress-seekers’ information to the cleared list without first
                             ensuring that required identifying documents were submitted. In
                             these cases, the program has no assurance that the records added to
                             the cleared list refer to the individuals who submitted the redress
                             petition, or even refer to actual individuals. Such shortcomings
                             demonstrate the need for more prudent adherence to internal
                             controls. If left uncorrected, they represent a risk to commercial
                             aviation security.

                             TSA’s process for adding records to the cleared list also has some
                             weaknesses. TSA adds records to the cleared list in two ways: by
                             electronically adding sets of RMS records to the list, or by
                             manually entering these records directly onto the cleared list. Both
                             processes have potential for human error, and both need more
                             controls to ensure that individuals who are the focus of watch list
                             records are not erroneously added to the cleared list.

                             System Users Can Easily Bypass the Watch List Match
                             Notification to Add Records to the Cleared List

                             TSA redress staff create most cleared list records by electronically
                             adding records to the cleared list from RMS. Generally, these
                             records are added on a weekly basis, and sometimes accumulate in
                             the hundreds. When TSA staff attempt to add records
                             electronically, the IT program that adds records first checks the
                             RMS records against the No Fly and Selectee lists for that day.
                             When any RMS records exactly match a No Fly or Selectee record
                             based on first initial, last name, and date of birth, the system
                             notifies the system user of the match. Redress staff are to delete
                             matching records from those to be added to the cleared list and
                             refer the record to the TSC for further review.

                             However, OTSR has not always referred matching RMS records to
                             the TSC. TSA redress personnel have used their assessment of
                             how information in redress submissions compares to information
                             in watch list records to rule out possible matches. After TSA
                             redress personnel rule out possible matches in this way, they add

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 71
                                    SENSITIVE SECURITY INFORMATION



                             the redress-seeker’s information to the cleared list without the
                             TSC’s review. This approach is troubling because TSA redress
                             personnel do not have access to the range of intelligence systems
                             or training necessary to make these determinations effectively.

                             TSA redress staff’s ability to bypass the watch list match
                             notification and add RMS records to the cleared list that match
                             watch list records by clicking the “Continue” button following the
                             match results notification is also a concern. The Continue button is
                             the same button that users would click to add RMS records to the
                             cleared list if they were not notified of a watch list match. The
                             process for adding records to the cleared list does not provide any
                             other automated security checks and does not require a third-
                             person check or additional approval before system users add RMS
                             records to the cleared list. Consequently, TSA redress staff could
                             inadvertently add individuals believed to be a threat to commercial
                             aviation security to the cleared list.

                             To mitigate these vulnerabilities, TRIP has limited the number of
                             staff authorized to add RMS records to the cleared list. This
                             limitation on staff access provides some control over the process,
                             but we believe the risk to the integrity of the cleared list warrants
                             additional security measures or process steps. TSA should develop
                             a proven technical solution and intelligence analyst review process,
                             rather than continue to rely on human operators who do not have
                             the benefit of proper training or access to needed intelligence
                             systems.

                             The Practice of Manually Adding Records to the Cleared List Also
                             Poses Several Risks

                             TSA redress staff also add a substantial number of records to the
                             cleared list by manually entering information directly into the list.
                             One redress office employee reported that she manually added
                             more than 500 records to the cleared list in a four-and-a-half month
                             period. These manual additions pose several risks. First, manual
                             additions may include inconsistencies with information submitted
                             by redress-seekers that is captured in RMS. For example,
                             personnel who manually enter a record in the cleared list may
                             inadvertently transpose letters in the redress-seeker’s name or omit

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 72
                                    SENSITIVE SECURITY INFORMATION



                             a digit in a driver’s license number. In addition, there are few
                             controls on manual entries.

                             TRIP limits the number of users with privileges to manually enter
                             information into the cleared list. However, for manual additions to
                             the cleared list, there is no process to ensure that users have first
                             checked the individual they are adding to the cleared list against
                             the watch lists. Nor is there reliable case-specific information in
                             an individual’s RMS record to indicate whether the record was
                             manually added to the cleared list. Therefore, it is not possible to
                             determine whether all redress-seekers who should have been added
                             to the cleared list have been added. OTSR needs to enhance its
                             tracking and documentation procedures for manually adding
                             records to the cleared list.

                             Cleared List Maintenance Is the Source of Security Weaknesses

                             While security limitations are evident in TSA’s approach to adding
                             records to the cleared list, the cleared list’s most serious security
                             weakness relates to its maintenance. TSA checks individuals
                             against the watch lists when they are added to the cleared list, but
                             TSA has not checked the cleared list against the No Fly or Selectee
                             list frequently enough to ensure that individuals on the cleared list
                             had not been subsequently added to one of the watch lists.

                             TSA has a process to perform watch list checks against the cleared
                             list electronically, but has not regularly used this process. TRIP
                             office officials said that TSA began performing these checks on a
                             monthly basis in August 2008. However, because the No Fly and
                             Selectee Lists are updated most weekdays, individuals who pose a
                             threat to aviation could be on the cleared list for an entire month
                             before being removed.

                             The addition of individuals on the cleared list to the Selectee list is
                             not hypothetical.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 73
                                    SENSITIVE SECURITY INFORMATION




                             TSA’s approaches to adding records to the cleared list and
                             maintaining the list do not ensure the list’s integrity and create
                             potentially serious security risks. TSA needs to address these
                             security weaknesses immediately. Such action is particularly
                             pressing with the expanded use of the cleared list under the Secure
                             Flight program. To increase the integrity and security of the
                             cleared list, TSA should ensure that intelligence analysts review all
                             redress records that match watch lists records, both before and
                             after these records have been added to the cleared list.

                   Recommendations
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration:

                             Recommendation #15: Enhance internal controls on the
                             electronic and manual processes for adding records to the cleared
                             list, ensure that all records considered for addition to the cleared
                             list are subject to identity document verification checks before
                             addition, and conduct intelligence analyst reviews of all possible
                             watch list matches before related redress records are added to the
                             cleared list.

                             Recommendation #16: Automatically compare the cleared list
                             against the No Fly and Selectee lists when changes are made to any
                             list, and institute a process whereby intelligence analysts
                             immediately review matching cleared list records for possible
                             removal from the cleared list or refer them to the Terrorist
                             Screening Center.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 74
                                    SENSITIVE SECURITY INFORMATION



                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 15. DHS
                             plans to revise TRIP standard operating procedures to include
                             internal controls for the manual addition of names to the cleared
                             list. DHS noted that it has included funds in its TRIP FY 2010
                             budget to hire a full-time vetting analyst to review redress records
                             that match the No Fly or Selectee list. DHS also plans to add a
                             related internal control mechanism to the requirements for its
                             replacement case management system. DHS intends to institute
                             updated standard operating procedures by the 1st quarter of
                             FY 2010, to hire a vetting analyst by the 3rd quarter of FY 2010,
                             and to implement its new case management system by the 2nd
                             quarter of FY 2011.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. However,
                             the timelines DHS has proposed for taking corrective measures are
                             inconsistent with the urgent need for action in this area. DHS
                             should take immediate steps to address the security and integrity
                             issues presented by the current handling of the cleared list.

                             To ensure the integrity of the cleared list, TSA standard operating
                             procedures must include identity document verification of all
                             records before they are added to the cleared list. These procedures
                             must also include internal controls for electronic and manual
                             cleared list additions. Additionally, TSA should ensure that
                             intelligence analysts review all redress records that match watch
                             lists records before and after these records have been added to the
                             cleared list. This recommendation will remain open until we
                             receive documentation that demonstrates that the controls
                             discussed above are put in place.

                             DHS Response: DHS concurred with Recommendation 16. DHS
                             management said that TSA will use its Colorado Springs
                             Operations Center’s vetting engine to vet watch lists records
                             against the cleared list and have a vetting analyst review possible
                             matches. DHS reported that this vetting analyst position is funded
                             in the TRIP FY 2010 budget. OTSR will maintain responsibility
                             for referring cases to the TSC.

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 75
                                    SENSITIVE SECURITY INFORMATION




                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open.
                             Nevertheless, it is unclear when DHS plans to institute corrective
                             measures in response to this recommendation. Because current
                             practices present significant security weaknesses, DHS should take
                             action in this area now.

                             To increase the integrity and security of the cleared list, TSA must
                             establish a procedure for determining whether to remove potential
                             watch list matches from the cleared list or refer them to the TSC.
                             This recommendation will remain open until TSA provides us with
                             its plans to automatically compare the cleared list against No Fly
                             and Selectee lists when any changes are made to any list. TSA
                             must provide information about its process for an intelligence
                             analyst to immediately review cleared list records that match to the
                             No Fly or Selectee lists. Further, TSA must provide
                             documentation on the process it intends to use at its Colorado
                             Springs Operations Center for automatically vetting the cleared list
                             against the No Fly and Selectee lists when any changes are made to
                             any list, and clearly define TSA’s process to either remove the
                             redress record from the cleared list or refer it to the TSC. Finally,
                             TSA must demonstrate that it has instituted intelligence analyst
                             review of all redress records that match watch lists records, both
                             before and after these records have been added to the cleared list.
                             Until we receive evidence of all of the above, this recommendation
                             will remain open.

                   Email Submissions of Personal Information May Expose Redress-
                   Seekers to Avoidable Risks

                             TRIP offers redress-seekers three options for submitting travel
                             inquiries and supporting identifying information: its secure online
                             portal, conventional mail, and email. However, TRIP redress-
                             seekers who initiate requests online can submit copies of
                             identifying documents, such as passports and drivers’ licenses,
                             only by mail or email.

                             The TRIP website assures the public that the program takes
                             precautions to protect redress-seekers’ personally identifiable

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 76
                                    SENSITIVE SECURITY INFORMATION



                             information. For example, TSA has established system security
                             features and protocols to protect the TRIP website and the
                             information in its case management system. However, one of the
                             program’s options for gathering information from redress-
                             seekers—email—potentially exposes the information to risk of
                             interception by third parties.

                             However, because TRIP’s IT system is not able to receive copies
                             of identifying documents via its secure online portal, the program
                             has few alternatives. Previously, TRIP officials ruled out faxes as
                             an option for submitting copies of identifying documents because
                             faxed information was frequently transmitted with insufficient
                             clarity for program use. Email submissions are the only alternative
                             to conventional mail, and TRIP officials have opted to receive
                             requests by email to maximize the public’s access to redress
                             services and benefits.

                             We encourage TRIP officials to reevaluate the program’s practice
                             of receiving personally identifiable information by unencrypted
                             email in the future, when it has the capability of receiving such
                             documents through its secure online portal.

                   CBP’s Redress Case Processing System Does Not Meet Statutory
                   Privacy Notification Requirements

                             Two laws govern federal protection of personally identifiable
                             information, the Privacy Act of 1974 and the E-Government Act of
                             2002. The Privacy Act requires federal agencies that maintain
                             personally identifiable information, retrievable by a personal
                             identifier within a system of records, to publish a related System of
                             Records Notice in the Federal Register. The notice is to include a
                             description of the system and the records contained within it, their
                             uses, and information on how individuals may request access to
                             records about them. Agencies are required to publish these notices
                             before the system of records becomes operational.21

                             The E-Government Act requires federal agencies to conduct and
                             publish Privacy Impact Assessments for all systems that collect,

21
     OMB Circular A-130, Appendix I, § 4(c).

                                    SENSITIVE SECURITY INFORMATION

            Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 77
                                    SENSITIVE SECURITY INFORMATION



                             maintain, or share personally identifiable information on members
                             of the public.22 Government agencies are to complete Privacy
                             Impact Assessments before they develop or procure related IT
                             systems. These impact assessments provide notice to the public,
                             among other things, of the collection, use, retention, and sharing of
                             information maintained within government systems.

                             CBP processes TRIP redress cases using its redress-related IT case
                             management system. CBP redress staff enter redress case
                             information from TRIP’s RMS into CBP’s system on all TRIP
                             cases that CBP processes. This case information includes
                             addresses; dates of birth; drivers’ license and passport numbers;
                             travel information; heights; weights; hair and eye colors; and
                             copies of identifying documents. CBP staff can electronically
                             retrieve this information from its case management system using
                             identifying information such as a redress case number or date of
                             birth. CBP’s redress case management system is therefore a
                             system of records under the Privacy Act, and an IT system covered
                             by the E-Government Act.

                             The redress case management system that CBP uses to monitor
                             TRIP cases is not compliant with requirements of the Privacy Act
                             or E-Government Act. CBP is required to issue both a notice and
                             an impact assessment for its redress case management system, but
                             has not done so. Consequently, TRIP redress-seekers do not have
                             access to a full statement of how the government handles their
                             personal information. Because CBP has operated and maintained
                             this system for more than two years, we believe that CBP should
                             issue the proper notices as soon as possible.

                    Recommendation
                             We recommend that the Commissioner for U.S. Customs and
                             Border Protection:

                             Recommendation #17: Develop and promptly publish the
                             required System of Records Notice and Privacy Impact
                             Assessment for its redress case management system.

22
     E-Government Act of 2002 (P.L.107-347), § 208; codified at 44 U.S.C. § 3501 note.

                                    SENSITIVE SECURITY INFORMATION

             Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 78
                                    SENSITIVE SECURITY INFORMATION




                    Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 17. DHS
                             management indicated CBP is drafting both a Privacy Impact
                             Assessment and a System of Records Notice for its redress case
                             management system.

                             OIG Analysis: We consider DHS’ proposed actions responsive to
                             the intent of this recommendation, which is resolved and open.
                             This recommendation will remain open until we are able to
                             confirm that DHS has published these items.


           TRIP Has Not Always Handled Redress Cases Reliably
                    The Implementing Recommendations of the 9/11 Commission Act of 2007
                    requires DHS, through TRIP, to maintain a fair redress process.23 To be
                    fair, a redress process must apply uniformly to different redress-seekers
                    with similar complaints, and must be implemented consistently over time.

                    TRIP Reliability Issues Have Prevented Some Redress Cases From
                    Receiving Full and Appropriate Reviews

                             Uniform and consistent case processing is required if TRIP is to
                             ensure that redress cases receive appropriate consideration.
                             However, TRIP case processing has not always met these
                             requirements. For example, program difficulties begin with its
                             intake and triage of cases, and extend to its practices when closing
                             cases. To process incoming cases properly, TRIP staff must enter
                             case information into RMS and link scanned copies of pertinent
                             identifying documents to the proper redress case in the system.
                             After cases have been entered into RMS, TRIP staff examine the
                             redress inquiry, identify the proper agency to review and respond
                             to the inquiry, and refer the case to that agency’s attention.
                             However, this has not always occurred. TRIP intake and triage
                             errors have created case processing delays and sometimes


23
     49 U.S.C. 44926(a).

                                    SENSITIVE SECURITY INFORMATION

             Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 79
                                    SENSITIVE SECURITY INFORMATION



                             prevented redress-seekers from receiving proper review and
                             resolution of their complaint.

                             TRIP office staff reported deficiencies in the quality of intake and
                             triage of incoming redress complaints. TRIP relies primarily on
                             contractors to perform intake activities and make initial case triage
                             recommendations. In early 2008, TRIP staff reviewing
                             contractors’ work revealed a significant number of errors.
                             Contractors had reportedly entered redress-seekers’ information
                             incorrectly into RMS. In some instances, contractors had failed to
                             add identifying documents to the proper RMS record or directed
                             cases to the wrong agency. As a result, TRIP redress providers in
                             other agencies reported receiving misdirected cases.

                             To address this situation, in April 2008, the TRIP office
                             implemented quality assurance checks on 100% of new cases
                             added to RMS by contractors. In subsequent months, the program
                             office reduced the percentage of new cases it submitted to quality
                             checks, but it still submits more than 50% of cases to the scrutiny
                             of at least two TRIP staff. Although the TRIP office has taken
                             steps to improve the intake and triage of cases, many past cases
                             have not received appropriate agency reviews or adjudication.

                             TRIP uses information supplied by redress-seekers to triage cases.
                             Much of this information is captured in check boxes on the TRIP
                             intake form, and also in redress-seeker case narratives. Redress-
                             seekers may select one or more check boxes on the TRIP intake
                             form to describe their travel difficulties. TRIP designed each
                             check box to refer to a travel issue associated with a specific
                             agency’s screening data or activity. For example, all cases in
                             which travelers report that they have been repeatedly referred for
                             secondary screening by CBP are intended to be referred to CBP for
                             review.

                             In practice, however, a significant percentage of TRIP cases have
                             not been referred to the appropriate agencies. We identified 2,275
                             TRIP cases that had not been referred to or handled by the intended
                             agency before they were closed. These cases represented 5% of
                             the total number of closed cases in RMS as of October 2008. The
                             program was more successful in properly referring some types of

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 80
                                    SENSITIVE SECURITY INFORMATION



                             cases than others. About 48% of the cases intended for PRIV,
                             CRCL, and US-VISIT were referred to those offices before being
                             closed.

                             Other redress cases may not be processed as intended because
                             TRIP does not use a uniform version of its intake form. The intake
                             form presented to redress-seekers filing inquiries online has 17
                             check boxes to describe different adverse travel experiences.
                             However, the intake form on the TRIP website that redress-seekers
                             can print, complete, and submit by mail omits one check box for
                             one of the two options related to US-VISIT issues. Refer to
                             Appendix F for the complete TRIP intake form.

                             The program does not ensure that redress cases are referred to the
                             appropriate office, and program officials have closed cases before
                             all involved redress officials completed their reviews. TRIP has
                             data on the dates that 23,055 redress cases were closed. Of these,
                             2,420, or more than 10%, were closed before all of the associated
                             case review and adjudication tasks had been addressed. Many of
                             these cases were closed a significant amount of time before all
                             tasks had been completed. TRIP closed 1,605 cases more than 30
                             days before all associated tasks were completed.

                   TRIP Could Do More to Set Procedures and Monitor Program
                   Activity

                             For TRIP to offer consistent service and responsive case
                             resolution, staff affiliated with the program must process cases in a
                             repeatable and deliberate manner. As TRIP is a multiagency
                             program with participants in a number of locations, the
                             repeatability of program operations depends on well-documented
                             procedures, clear guidance, and effective monitoring. Despite
                             these operational requirements, TRIP has been slow to develop
                             detailed guidance, sound procedures, or effective quality assurance
                             measures to support consistent case handling.

                             TRIP participants reported receiving little written guidance from
                             the TRIP office or DHS’ SCO. A number of TRIP participants
                             indicated that the only written information they received about the
                             program was a user manual for RMS. Much of the information

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 81
                                    SENSITIVE SECURITY INFORMATION



                             participants acquired about the program and related processing
                             guidelines has been communicated orally. Several participants
                             referred to periodic TRIP user group meetings as a useful forum
                             for exchange of operational and procedural issues. Chaired by the
                             TRIP program manager, user group meetings are held to update
                             redress personnel on TRIP developments, identify program
                             requirements, and discuss case processing challenges and best
                             practices for resolving redress process issues. Some redress staff
                             value user group sessions, but others spoke of difficulties attending
                             them and indicated that they rarely join the meetings. One redress
                             representative was not aware that such meetings occurred.

                             TRIP Standard Operating Procedures Are Incomplete

                             Although user group sessions help provide procedural guidance to
                             some program participants, they are not an effective substitute for
                             written procedures. The TRIP program manager and Governance
                             Board members have stressed the importance of written program
                             procedures and have asked all participating agencies to prepare
                             standard operating procedures that describe their approach to TRIP
                             case processing. These standard operating procedures were
                             developed slowly, however. And as of October 2008—more than
                             a year-and-a-half after the program became operational—one
                             participating component had yet to develop even preliminary
                             versions of their TRIP-specific procedures, and two others had not
                             finalized its procedures.

                             Existing TRIP procedures do not describe important redress office
                             functions. Three operating procedures, for example, do not discuss
                             a process or any associated requirements for responding to redress-
                             seekers. Most TRIP standard operating procedures do not describe
                             the process of creating a case file for a new case or what the file
                             should contain. Although redress staff in almost all participating
                             agencies indicated that they received and processed requests for
                             expedited redress case review, only one agency mentioned these
                             cases in its operating procedures.

                             We reviewed available operating procedures to determine the
                             extent to which each addressed key redress office functions: intake
                             and triage; coordination and prioritization; review and

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 82
                                     SENSITIVE SECURITY INFORMATION



                             adjudication; and closeout, response, and reporting.24 When
                             considering whether an operating procedure fully described the
                             agency’s intake and triage activities, for example, we examined
                             whether the procedures described how the agency receives TRIP
                             cases, what its information or documentation requirements are for
                             accepting a case, how it assigns cases, and what its requirements
                             are for creating a case file. We did not evaluate agency procedures
                             for functions they do not perform. Table 1 reflects our analysis of
                             participating agencies’ procedures.

                             Table 1: TRIP Standard Operating Procedure Analysis

                                                                                            Participating TRIP Agency / Department SOP
                                        Redress Office




                                                                                                               IT
                                          Functions




                                                                                                             y

                                                                                                            IS
                                                                                                            L

                                                                                                           ac

                                                                                                           V
                                                                                                     C




                                                                                                                           S
                                                                                       BP
                                                                                  A




                                                                                                                                 C
                                                                                                         iv
                                                                                               E




                                                                                                        IS
                                                                                                        S-




                                                                                                                          O
                                                                                                    R
                                                                                TS




                                                                                                                               TS
                                                                                             IC




                                                                                                       Pr
                                                                                      C




                                                                                                   C




                                                                                                       U

                                                                                                       C

                                                                                                                         D
                              Intake & Triage                                   |     |     |      |     |   |     |           z

                              Coordination & Prioritization                                 |      |         |                 z

                              Review & Adjudication                             |     |     |      |         |     |           z
                              Close Out, Response & Reporting                   |     |     |      |     |   |     |           N/A

                                                 KEY
                                      No draft or final TRIP-specific SOP
                                      SOP does not address element
                                |     SOP partially addresses element
                                z     SOP fully addresses element
                               N/A    This element reflects redress steps and
                                      procedures specific to TRIP
                                      participants.


                             Source: OIG Analysis of TRIP Participants’ Operating Procedures

                             Because existing TRIP operating procedures do not fully outline
                             functional requirements, agencies will find it difficult to respond to
                             future TRIP inquiries in the same way they did in the past. Several
                             participating agencies have placed their procedural institutional
                             knowledge in a few staff, rather than documenting those
                             procedures. Without detailed procedures, participating agencies
                             cannot ensure the consistent handling of redress cases when
                             current redress staff leave. Detailed standard operating procedures
24
  The redress office functions we used to evaluate operating procedures include functions associated with
the four redress processing stages discussed earlier in the report, as well as coordination, prioritization, and
reporting activities.

                                     SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                             Page 83
                                    SENSITIVE SECURITY INFORMATION



                             could also benefit existing staff. Some redress staff we met
                             acknowledged uncertainty about important steps in the process and
                             told us that they engaged in less-than-optimal practices. A few
                             redress staff indicated, for instance, that they did not do anything
                             to alert others reviewing a case when they had completed and
                             closed related case assignments, so the cases were unattended for
                             long periods.

                             TRIP needs more defined standard operating procedures in another
                             important respect as well: It has no defined expectations or
                             procedures to evaluate redress claims related to several new DHS
                             initiatives that single out TRIP as their redress avenue. For
                             instance, federal regulations related to the Western Hemisphere
                             Travel Initiative and the Electronic System for Traveler
                             Authorization have designated TRIP as the redress provider for
                             those initiatives. TRIP, however, does not advertise on its website
                             that it offers redress services in these cases, and it is unclear how
                             redress-seekers should communicate related concerns on the TRIP
                             intake form. Moreover, TRIP has not determined how to process
                             these types of cases, to what office it would channel related
                             inquiries, what redress solution it can offer, or to what aspects of
                             the initiatives redress inquiries are likely to pertain. The TRIP
                             program manager indicated that this has occurred in part because
                             the office has generally received little or no advanced notice about
                             announcements that expand TRIP coverage to new initiatives.

                             Quality Assurance Efforts Need Further Development

                             Quality assurance activities can provide a check on program
                             processing and ensure consistency in case handling. As noted
                             earlier in this section, TRIP now performs quality assurance
                             activities as part of its intake and triage of cases. SCO, TSA, and
                             CBP redress staff examine case status information and follow up
                             with users on outstanding case assignments. These are positive
                             efforts, but they do not provide checks on the full range of case
                             activities. TRIP quality assurance efforts to date are not sufficient
                             and need further development.

                             One measure of the inadequacy of current TRIP quality assurance
                             measures is the volume of apparent errors in the program’s case

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 84
                                    SENSITIVE SECURITY INFORMATION



                             management system. TRIP case management data contains many
                             inconsistencies and anomalies that would benefit from quality
                             assurance checks. For example, in addition to cases not always
                             being fully reviewed by all intended agencies before closure, many
                             cases are closed with no indication of when closure occurred. In
                             October 2008, RMS had 3,369 closed records without
                             corresponding closure dates. Without this basic information, TRIP
                             cannot determine how long it took to process these cases.

                             TRIP case management data also suggest that the program has not
                             always communicated with redress-seekers about missing,
                             incomplete, or unreadable submissions. In October 2008, the
                             program had 8,121 cases that it either closed due to insufficient
                             paperwork or had pending paperwork for more than 6 months.
                             However, TRIP had issued only 1,950 letters to redress-seekers
                             advising them that the program needed additional information to
                             process their case. As a result, at least 76% of redress-seekers who
                             should have been notified through TRIP were not told that their
                             redress petitions were incomplete.

                             RMS data reveal inconsistencies in another key area as well. The
                             case management system contains a field for the date when an
                             individual’s electronic record is added to the cleared list.
                             According to TRIP staff, the system captures the date that the
                             records were checked against the No Fly and Selectee lists and
                             automatically populates the cleared list date field with this
                             information. When an individual matches the No Fly or Selectee
                             lists, TRIP personnel are responsible for deleting this information
                             from the cleared list date field. Our review of RMS data revealed
                             that program staff had not always done so. We identified 12
                             records for individuals that RMS indicated were a match to the No
                             Fly or Selectee list that also had a cleared list date, suggesting that
                             they had been added improperly to the cleared list. However,
                             when we examined whether these records were added to the
                             cleared list, we learned that they were not.

                             While additional quality assurance measures are needed, some of
                             TRIP’s shortcomings may be attributable to limitations in other
                             areas. Redress staff could benefit from using standard operating
                             procedures to evaluate case processing information in RMS to

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 85
                                    SENSITIVE SECURITY INFORMATION



                             ensure that cases are reviewed in a specified and deliberate
                             manner. Limits on RMS users’ ability to generate ad hoc reports
                             based on system data may also prevent the program from doing
                             more in this area.

                             Nevertheless, the program can take a number of near-term steps to
                             expand its quality assurance measures. We suggest that TRIP
                             build upon previous recommendations contained in a draft quality
                             assurance plan developed by DHS’ original contractor for the RCI
                             one-stop redress effort. This 2007 plan describes quality assurance
                             checks on the accuracy of case assignments, case processing
                             timeliness, spot checks on responses to email inquiries, regular
                             reviews of web content, and analysis of repeat TRIP cases to
                             determine what prompted individuals to petition more than once.
                             We believe that DHS should implement these and other quality
                             assurance measures described in the plan.

                   Recommendations
                             We recommend that the Director of the Screening Coordination
                             Office in consultation with the Assistant Secretary for the
                             Transportation Security Administration:

                             Recommendation #18: Prepare and revise TRIP-specific standard
                             operating procedures that describe all redress office requirements
                             in intake and triage; coordination and prioritization; review and
                             adjudication; and closeout, response and reporting.

                             Recommendation #19: Devise and institute quality assurance
                             checks using the 2007 draft TRIP quality assurance plan as a
                             resource.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 18. DHS
                             management will direct redress participants to update standard
                             operating procedures to address all case processing steps. DHS
                             expects to complete these updates by the 4th quarter of 2009.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 86
                                    SENSITIVE SECURITY INFORMATION



                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. This
                             recommendation will remain open pending our receipt of TRIP-
                             specific procedures that define all redress office requirements in
                             the areas of intake and triage; coordination and prioritization;
                             review and adjudication; and closeout, response and reporting.

                             DHS Response: DHS concurred with Recommendation 19. SCO
                             officials will review the draft quality assurance plan and, in
                             consultation with other DHS components, make appropriate
                             revisions. DHS management indicated it would perform quality
                             assurance checks at the end of FY 2009, and implement a quality
                             assurance plan with the new case management system by the 2nd
                             quarter of FY 2011.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. Quality
                             assurance is important for effective management oversight, and
                             can assist in identifying critical program improvements. DHS
                             should not wait until the 2nd quarter of 2011 to develop and
                             implement a quality assurance plan. This recommendation will
                             remain open until we receive evidence that DHS has instituted a
                             quality assurance plan similar to the 2007 draft quality assurance
                             plan for current program activities.


         TRIP Case Processing Timeliness Could Be Improved
                   TRIP case processing is subject to avoidable delays in the intake and case
                   review processes. During our fieldwork, TRIP experienced case intake
                   delays related to the receipt and processing of copies of identifying
                   documents. The redress office held incoming redress requests for
                   extended periods before entering them into RMS, performing triage
                   activities, or reviewing the requests for action. In September 2008,
                   TRIP’s email intake processing backlog was five-months long, and its
                   mail intake processing was behind by more than one month. At the time,
                   DHS had not started case review work on some redress cases that the
                   office received in April 2008.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 87
                                    SENSITIVE SECURITY INFORMATION



                   Because the program does not maintain reliable information on the date
                   that individual case records are received, it is difficult to determine the
                   effect of intake delays on overall case processing. Data on the time
                   associated with other case processing stages, however, suggest that intake
                   delays may have doubled, tripled, or even quadrupled overall response
                   time to many redress requests.

                   As cases proceed past intake, inefficiencies in case review activities
                   amplify the effect of these initial delays. As noted earlier, a number of
                   redress offices that participate in TRIP enter and track case information in
                   their own case management systems. Case review activities are
                   sometimes suspended for a time before redress staff in these offices
                   manually enter TRIP case information into their systems. In other
                   instances, redress cases remain idle even after program staff issue case
                   task assignments because the recipients of those tasks are not notified that
                   new cases are assigned for review. Delays also arise when redress staff
                   responsible for reviewing a case are unable to do so in a timely manner
                   because of competing obligations.

                   Due to limitations in historical redress data, it is difficult to assess the
                   effect of these delays on processing times for all types of cases.
                   Nevertheless, there is sufficient data to determine that processing times
                   have worsened for TSA-specific cases since TRIP became operational.
                   TSA collected case processing time statistics before it assumed TRIP
                   responsibilities, and reported that it processed cases in an average of ten
                   days from September to November 2006. By contrast, the same TSA-only
                   redress cases took an average of 18 days to process in May 2008.

                   Although redress case processing has slowed for some cases since TRIP
                   began operating, the program made modest strides in reducing triage,
                   review, adjudication, and response times during the first six months of
                   2008. We examined data on the timeliness of these processing stages for
                   three cohorts of incoming cases. It took the program more than four
                   months to close 17% of cases received in January 2008. TRIP showed
                   slight improvement, with 15% of March 2008 cases taking more than four
                   months to close. TRIP’s handling of cases received in May 2008
                   improved further; only 13% of these cases remained open after four
                   months.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 88
                                    SENSITIVE SECURITY INFORMATION



                   Recommended IT system improvements could reduce the program’s
                   intake backlog by eliminating the need for program staff to enter
                   identifying documents into RMS. Other IT enhancements in case
                   management and interoperability could also speed case processing. In the
                   near term, greater clarity about participating agencies’ case processing
                   responsibilities could improve case handling by redress staff who have
                   competing obligations. The extent of TRIP case processing delays
                   underscores the urgency and need for DHS action.


         TRIP Does Not Provide a Desirable Level of Transparency to
         Redress-Seekers
                   Redress-seekers submit petitions to TRIP to remedy difficulties they
                   believe they have faced as a result of government actions. According to
                   DHS’ Privacy Office and Data Privacy and Integrity Advisory Committee,
                   the redress process is designed to help restore redress-seekers’ confidence
                   in the government and the integrity of its actions. Clear and transparent
                   communication can help petitioners understand how their case has been
                   handled, and provide assurance that it has been addressed appropriately.
                   Transparency about the redress process and its results can also favorably
                   affect redress-seekers’ view of the government’s ability to resolve travel
                   difficulties. The program must balance this interest in transparency with
                   security needs, however, and should not disclose information that would
                   compromise national security.

                   Letter responses to redress-seekers are one of TRIP’s primary means of
                   communication with the public. These responses are not as transparent as
                   they could be about the basis for travelers’ difficulties or government
                   actions to address them. TRIP generally provides its customers with
                   minimal information about the government’s review or adjudication of
                   their inquiries. With few exceptions, redress-seekers receive response
                   letters that do not reveal the basis for their travel difficulties, the action the
                   government took to address those difficulties, or other steps that they may
                   take to help themselves in the future. This ultimately leaves travelers
                   without a clear understanding of how their travel difficulty arose, whether
                   they are likely to face future problems, and what course of action they
                   might take next.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 89
                                    SENSITIVE SECURITY INFORMATION



                    After TRIP closes a case, the program office uses a set of template
                    responses for different types of travel difficulties when preparing letters to
                    redress-seekers. Redress officials refer to most of these templates as
                    Glomar letters, in reference to a court decision that supported the
                    government’s position that it may neither confirm nor deny that it has
                    related records or information in cases of national security.25




                    DHS’ approach to communication with redress-seekers is the product of
                    an interest in protecting national security and law enforcement information
                    from disclosure. TRIP letter responses are designed to prevent recipients
                    from learning whether they are the subject of an active law enforcement
                    investigation or a terrorist watch list record. Copies
                                           are included in Appendix G.

                    The government’s rationale for withholding information on an individual’s
                    watch list status is reflected in its filings in an ongoing case in which the
                    plaintiffs are seeking access to terrorist watch list records about
                    themselves. In a July 2007 declaration in Rahman v. Chertoff, the U.S.
                    Attorney General argued that any government acknowledgement about an
                    individual’s watch list status could threaten national security. The
                    Attorney General asserted that national security could be harmed if
                    individuals who were the intended target of a watch list record were
                    informed of their watch list status, because they could take precautions
                    against surveillance, alter their activities or appearance to avoid detection,
                    or place federal agents at risk.26 The Attorney General also opposed
                    disclosures about watch list status to those who are not on the list on the
                    following grounds:

                        x       National security could be harmed if the government were to
                                disclose that one individual is not the subject of a watch list
                                record, but resist watch list status disclosures to another
                                individual who is the target of a watch list record. Doing so

25
     Phillippi v. CIA, 546 F.2d 1009 (D.C. Cir. 1976).
26
     Declaration of Alberto R. Gonzales, Rahman, v. Chertoff, Case No. 05 C 3671 (N.D. Il. July 23, 2007).

                                    SENSITIVE SECURITY INFORMATION

             Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 90
                                     SENSITIVE SECURITY INFORMATION



                                 would reveal to the latter that he or she is the target of such a
                                 record.27

                           x     National security could be harmed if the government were to
                                 disclose that an individual is not the subject of a terrorism
                                 investigation, because “terrorist groups could [use this
                                 information to] manipulate the system to determine which of
                                 their members are not under investigation and … have a greater
                                 chance of carrying out a terrorist operation.”28

                        In explaining the rationale for TRIP’s approach to its letter responses to
                        redress-seekers, DHS representatives referred us to the Attorney General’s
                        declaration cited above and provided similar justifications based on the
                        same logic. However, this logic has two important limitations as it relates
                        to letter responses to certain kinds of redress-seekers.

                        Travelers on the No Fly and Selectee Lists Can Already Infer Their Status

                        Some redress-seekers with complaints about their treatment in aviation
                        settings can already infer their watch list status. An individual’s status on
                        the No Fly list is apparent to anyone on the list when he or she attempts to
                        fly within or to the United States, as the individual is denied boarding an
                        aircraft.



                        Some redress-seekers who are on the Selectee list can also infer their
                        status when they fly. Travelers on the Selectee list are subject to
                        additional security screening by TSA. Undergoing such screening alone,
                        however, is not sufficient to indicate whether one is on the Selectee list, as
                        TSA uses other criteria to determine which passengers receive additional
                        security scrutiny. The Computer-Assisted Passenger Prescreening System
                        selects some passengers for additional screening based on information
                        about their flight arrangements and travel plans. TSA Behavioral
                        Detection Officers select other passengers for additional screening based
                        on their actions in the airport. A number of others are selected at random.
                        Although there are other reasons why a passenger may be subjected to

27
     Ibid., pp. 5, 8.
28
     Ibid., pp. 4, 8.

                                     SENSITIVE SECURITY INFORMATION

              Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 91
                                    SENSITIVE SECURITY INFORMATION



                   secondary screening, attentive passengers can reasonably infer whether
                   they are on the Selectee list.

                   A passenger’s inability to print a boarding pass online or at an airport
                   ticket kiosk is an indicator that the passenger might be on the Selectee
                   list.29 When such passengers are required to show identification to an air
                   carrier representative at a ticket counter and subsequently receive
                   additional security screening from TSA before boarding, they can
                   reasonably infer that they are on the Selectee list.




                   TSA provides much of this information on its website. TSA has
                   advertised, for example, that passengers who are unable to print boarding
                   passes online are considered possible watch list matches.30 So while DHS
                   and DOJ have expressed concerns about directly or indirectly revealing
                   watch list status in redress response letters, air carriers’ application of TSA
                   security protocols provides the information passengers need to infer their
                   status without an official acknowledgement. Notwithstanding that some
                   passengers can currently infer their watch list status, DOJ has advised that
                   official disclosure of an individual’s watch list status could nonetheless
                   have a harmful effect on ongoing counterterrorism investigations, and
                   intelligence sources and methods. DOJ representatives also emphasize
                   that courts of law have often drawn a distinction between official
                   confirmation and inference in a number of related past rulings.31

                   Government transparency on individuals’ watch list status remains at issue
                   in the court case we discussed earlier, Rahman v. Chertoff. Pending the
                   outcome of related aspects of this case, we are not recommending further
                   transparency on No Fly and Selectee list status in TRIP response letters.



29
   At least one air carrier permits travelers on the Selectee list to print out their boarding passes at airport
kiosks, but unlike other passengers, they must first scan a driver’s license or passport.
30
   http://www.tsa.gov/press/happenings/checkpoint_reduce_hassle.shtm.
31
   Stein v. U.S. Dep't of Justice, 662 F.2d 1245, 1259 (7th Cir. 1981) quoting Alfred A. Knopfv. Colby, 509
F.2d 1362, 1370 (4th Cir. 1975); Terkel v. AT&T, 441 F. Supp. 2d 899, 915 (N.D. Il. 2006).

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 92
                                    SENSITIVE SECURITY INFORMATION



                   Many Redress Matters Are Unrelated to Law Enforcement Action or
                   Watch List Status

                   Many redress cases involve matters unrelated to law enforcement
                   investigations or watch list status, such as allegations of civil rights
                   violations or questions of immigration status. As the government
                   discloses information about these matters in other circumstances, it should
                   also do so in the redress process. DHS’ current rationale for withholding
                   law enforcement and watch list-related disclosures should not govern
                   disclosures in these matters.

                   Redress-seekers often indicate on intake forms that they believe that the
                   government has violated their privacy or civil rights during travel. The
                   responsive reviews that DHS’ PRIV and CRCL conduct, and the final case
                   determinations they make in response to these assertions, generally do not
                   have a law enforcement dimension. Therefore, no viable rationale exists
                   as to why TRIP cannot note in its letter responses what actions these
                   components took after reviewing such cases.

                   TRIP Letter Disclosures Are More Restrictive Than Information Provided
                   by Other Government Sources

                   Many redress cases pertain to matters that the government would disclose
                   in other instances, but does not in response to TRIP inquiries. For
                   example, a number of TRIP cases relate to visa and other immigration
                   benefits status questions. DHS and DOS openly and regularly provide
                   individuals with information on their visa and immigration benefits status.
                   However, when a TRIP redress case hinges on the petitioner’s visa or
                   immigration benefit status, the program will not acknowledge to the
                   redress-seeker that the travel difficulties arise from visa or benefit status
                   issues.

                   In some instances, redress-seekers could take preemptive action to resolve
                   future travel difficulties, but the program does not advise them of the steps
                   necessary to do so. Some redress-seekers’ travel difficulties are the
                   product of visa overstay lookouts that are in place because they did not
                   return their I-94 Arrival-Departure Record form to immigration
                   authorities upon departing the United States. CBP can delete this type of
                   lookout after redress-seekers supply evidence that they did not overstay
                   their visa and were not in the country after their visa expired. TRIP

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 93
                                    SENSITIVE SECURITY INFORMATION



                   response letters to these redress-seekers do not advise them that their
                   travel difficulties are related to a perceived past visa overstay or what
                   information they can submit to CBP to eliminate the associated lookout.

                   Only a fraction of redress-seekers are the subject of a watch list record or
                   law enforcement investigation. Yet TRIP’s approach to responding to
                   them is based on the blanket application of a rationale that is singularly
                   focused on the protection of law enforcement and watch list information.
                   TRIP has applied this rationale too broadly in its communications with
                   redress-seekers, and the result is a customer response process that is not as
                   transparent and effective as it could be. TRIP could provide more
                   information to redress-seekers without compromising national security.

                   To its credit, TRIP recently revised its response letters to redress-seekers
                   who have had difficulties in aviation security settings. These new letters
                   advise redress-seekers to enroll in air carrier passenger preclearance
                   programs as an additional measure to improve their travel experience.

                   Program Transparency Is Further Diminished by Unfulfilled Expectations

                   TRIP has created expectations about transparency that it does not fulfill.
                   DHS websites have cultivated expectations that redress-seekers will learn
                   the source of their travel difficulties. As of November 2008, the public
                   could access the TRIP web page by clicking the phrase “Are you on a
                   watch list?” on TSA’s website. Similarly, a past DHS website link to the
                   TRIP web page read, “Find out if I am on a travel watch list.” In doing so,
                   DHS has created false expectation that TRIP will reveal whether redress-
                   seekers are on a watch list.

                   Forthright communications with redress-seekers are vital to TRIP’s
                   success and necessary for the public’s trust. Without more transparent
                   communication with redress-seekers, public confidence and participation
                   in the program could decline. Redress responses should assure redress-
                   seekers that the government has acted fairly and reasonably in addressing
                   their request. To the extent possible, these responses should provide
                   information about the basis for their travel difficulty, the nature of the
                   government’s review, and the steps taken to rectify the underlying issue,
                   without compromising matters of national security.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 94
                                    SENSITIVE SECURITY INFORMATION



                   Recommendation
                             We recommend that the Director of the Screening Coordination
                             Office, in consultation with participating agencies and DHS
                             components:

                             Revised Recommendation #20: Develop and apply TRIP
                             response letter templates that more fully acknowledge the basis for
                             traveler difficulties, note what actions the government took to
                             review the case, and address the underlying cause for the travel
                             difficulty; but do so without compromising law enforcement
                             investigations or revealing redress-seekers’ status in the TSDB.

                   Management Comments and OIG Analysis
                             DHS Response: DHS officials partially concurred with
                             Recommendation 20 in its original form. We revised the
                             recommendation in response to technical and formal comments on
                             our draft, and anticipate full DHS concurrence with the
                             recommendation in its current form.

                             DHS managers disagreed that persons on the Selectee list can
                             determine their watch list status, and noted that they have an
                             obligation to coordinate the development of some redress letter
                             responses with the TSC. DHS said that it will engage interagency
                             partners to consider redrafting redress letter response templates.
                             The revised templates are to state that DHS can neither confirm
                             nor deny watch list placement; identify underlying traveler
                             inconveniences in cases not related to terrorist watch list or law
                             enforcement investigations; detail steps taken to resolve non-watch
                             list or law enforcement cases; and, for cases outside of DHS’
                             purview, refer cases to the appropriate agency, after consultation
                             with the agency’s redress office to ensure a referral would not
                             negatively impact an ongoing law enforcement investigation. DHS
                             officials expect to complete this review by the 1st quarter of
                             FY 2010.

                             OIG Analysis: DHS did not fully concur with this
                             recommendation in its original form. In response to concerns
                             raised by DHS and DOJ, we modified the recommendation and

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 95
                                    SENSITIVE SECURITY INFORMATION



                             some of the preceding text in the report. In its current form, this
                             recommendation is intended to provide redress-seekers more
                             information on the processing and disposition of redress cases that
                             are not related to the watch lists or law enforcement investigations.
                             However, DHS’ proposed actions are responsive to this
                             recommendation as revised. The recommendation is resolved and
                             will remain open until DHS provides us with revised redress
                             templates for such redress cases.


         TRIP Performance Management Could Be Improved
                   Performance management activities help programs monitor operational
                   efficiency and the achievement of desired results. TRIP tracks
                   performance statistics related to the timeliness of case processing, the
                   status of task assignments, and the types of travel difficulties that redress-
                   seekers indicate they have experienced. The program also compiles data
                   on the volume of new cases it receives and how these cases are filed, that
                   is, by mail or email.

                   TRIP tracks some performance measures and monitors related program
                   data, but it could make improvements in this area. In particular, TRIP
                   could improve its collection and reporting of case dispositions, case
                   processing timeliness, and customer satisfaction. These improvements
                   would help TRIP demonstrate its ability to meet the objectives for which it
                   was established.

                   TRIP Does Not Gather Complete Data on Case Disposition

                             Although TRIP collects a significant amount of information on
                             case disposition, this information is not as complete or meaningful
                             as it could be. TRIP’s primary case management system, RMS,
                             has 17 different case status codes to indicate how a case has been
                             closed. Appendix H contains a list of RMS case status codes.
                             Case disposition information the program collects generally
                             indicates which participating agency closed a case but does not
                             indicate what actions the government took to resolve the redress-
                             seeker’s difficulties. For example, there is no way to determine
                             readily from TRIP case data whether a redress-seeker’s concerns
                             were addressed by correcting data in a biometric identification

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 96
                                    SENSITIVE SECURITY INFORMATION



                             system, deleting a particular type of lookout in a border-crossing
                             information system, or overriding a lookout in the system. In
                             many cases, it is not possible to determine whether the government
                             took any action to address a redress-seeker’s concerns.

                             In addition, the program does not have a means of collecting
                             information on multiple case dispositions that apply to a single
                             case. Many TRIP redress cases require involvement by multiple
                             agencies, and several agencies may take action to address a single
                             redress-seeker’s difficulties. RMS, however, captures information
                             on only one disposition per case. Without information on other
                             case results, it is difficult to determine how successful the program
                             is at meeting its primary aims. TRIP should be able to determine
                             and report on all redress case dispositions and actions taken to
                             resolve redress-seekers’ concerns.

                   Recommendation
                             We recommend that the Director of the Screening Coordination
                             Office, in consultation with participating agencies and DHS
                             components:

                             Recommendation #21: Develop TRIP case disposition reporting
                             categories that reflect the full range of government efforts to
                             resolve redress-seekers’ travel difficulties, and report on this
                             information on a regular basis.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 21. DHS
                             management said TRIP reporting categories are being reformatted
                             and will implement revised categories as part of its new case
                             management system no later than the 2nd quarter of FY 2011.

                             OIG Analysis: DHS’ comments are responsive to the intent of the
                             recommendation, which is resolved and open. DHS’ proposed
                             future plans are partially responsive to this recommendation, but
                             do not include any discussion of disposition reporting.
                             Furthermore, DHS should take action now to revise its current case
                             disposition categories and procedures. This recommendation will

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 97
                                    SENSITIVE SECURITY INFORMATION



                             remain open until we receive documentation related to both near-
                             and long-term plans in this area. We will examine this
                             documentation to ensure that revised case disposition categories
                             reflect the full range of government efforts to resolve redress-
                             seekers’ travel difficulties, and include procedures to report this
                             information on a regular basis.

                   TRIP Does Not Collect Complete Data on the Timeliness of Case
                   Processing and Has Not Set Related Targets

                             The Implementing Recommendations of the 9/11 Commission Act
                             of 2007 requires TRIP to provide timely redress.32 However, TRIP
                             has no effective means of monitoring or evaluating the timeliness
                             of its case processing efforts to determine whether it is meeting its
                             mandate.

                             TRIP does not gather all of the information it needs to determine
                             how long it takes to process and close cases. Delays in TRIP’s
                             intake process can extend as long as five months. Accordingly, the
                             intake process absorbs a significant amount of the time between
                             DHS’ receipt of a completed redress petition and its response to
                             the redress-seeker. Current TRIP data on case processing times,
                             however, do not account for the time that cases remain in the
                             intake process. This is because TRIP does not capture information
                             on the date that DHS first received completed redress petitions.
                             This information is not available in TRIP’s electronic case
                             management records and is not always available in its paper case
                             files. Instead, the program computes processing times starting
                             with the date that complete case information was first entered into
                             RMS. As a result, past TRIP reports on case processing times have
                             understated the overall time the program takes to close redress
                             cases.

                             Targets are an essential part of any performance management
                             system; they enable managers to determine whether a program is
                             meeting performance aims. Such targets could be applied to
                             overall TRIP case processing timeliness, but have not. Variations

32
   Implementing Recommendations of the 9/11 Commission Act of 2007 (P.L. 110-53), § 1606(a); codified
at 49 U.S.C. § 44926(a).

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 98
                                    SENSITIVE SECURITY INFORMATION



                             in processing times for different types of cases, and fluctuations in
                             processing times at different stages in the process, complicate
                             establishing overall TRIP case processing timeliness targets. TRIP
                             could overcome these challenges by first establishing timeliness
                             targets for participating agencies to perform their case review and
                             adjudication activities. As the case review and adjudication
                             process involves more research and consideration for some
                             agencies than for others, it may be appropriate for these targets to
                             vary by agency. The program could also establish timeliness
                             targets for different stages in the redress process. TRIP could, for
                             example, create targets for each of the four principal stages in the
                             redress process: intake, triage, review and adjudication, and
                             response and closeout.

                             Although SCO has participated in working group sessions to
                             identify timeliness targets, TRIP does not have targets for overall
                             case processing time, processing times for any stage in the redress
                             process, or for any agency’s review and adjudication of cases.
                             Combined with complete case intake data, such targets could be
                             used to help redress managers identify case processing bottlenecks
                             and make informed decisions about allocating resources.

                   Recommendations
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration:

                             Recommendation #22: Collect individual TRIP redress case
                             information on the date completed redress petitions are received,
                             and use this information to calculate overall TRIP case processing
                             times.

                             We recommend that the Director of the Screening Coordination
                             Office, in consultation with representatives of other participating
                             agencies and DHS components:

                             Recommendation #23: Develop timeliness targets for each
                             redress processing stage, and case review and processing activities
                             for each participating agency and DHS component; and report to


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                       Page 99
                                    SENSITIVE SECURITY INFORMATION



                             participating agencies regularly on the achievement of these
                             targets.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 22. DHS
                             management indicated this recommendation would be added to the
                             requirements list for its new case management system which will
                             be implemented by the 2nd quarter of FY 2011. SCO and TSA will
                             update standard operating procedures to record the receipt of
                             redress petitions and date of RMS entry.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. DHS plans
                             to collect information on the date completed redress petitions are
                             first received in TRIP’s future case management system are
                             laudable. It will also be important for this system to use this date
                             in calculating overall TRIP response times. In the meantime, DHS
                             can improve its performance in this area by recording the date that
                             case materials are received on the materials themselves. This
                             recommendation will remain open until we are provided evidence
                             that TRIP is documenting and tracking the date it receives
                             completed redress petitions, and using this information to calculate
                             overall TRIP case processing times.

                             DHS Response: DHS concurred with Recommendation 23. DHS
                             management said it expects to establish separate timeliness targets
                             for misidentifications and non-misidentification cases. DHS
                             indicated that this recommendation would be added to the
                             requirements list for its new case management system which is to
                             be implemented by the 2nd quarter of FY 2011.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. DHS’
                             proposed solution does not clearly provide for regular reporting to
                             participant agencies on the achievement of timeliness targets; a
                             prerequisite for closing this recommendation. It is essential that
                             DHS effectively monitor and accurately report on the timeliness of
                             TRIP’s current operations. This recommendation will remain open
                             until we receive evidence that DHS has developed timeliness

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 100
                                    SENSITIVE SECURITY INFORMATION



                             targets for each redress processing stage, to include the case review
                             and processing activities for each participating agency and DHS
                             component; and reports to participating agencies regularly on the
                             achievement of these targets. This documentation should reflect
                             near-term efforts in this area as well as future plans.

                   TRIP Does Not Gather Information on Customer Satisfaction

                             Initial plans in 2007 called for TRIP to collect customer service
                             comments. An early plan stressed the value of customers’
                             comments and indicated that TRIP would gather opinions on the
                             quality of the TRIP website, timeliness of case processing, and
                             effectiveness of the program’s response to redress-seekers’
                             difficulties.

                             Despite its original plan to collect customer comments, TRIP has
                             not established any procedure to gather customer satisfaction
                             information. The program does not solicit information on redress-
                             seekers’ experience through surveys, focus groups, or any other
                             customer response instrument.

                             Customer comments could help managers identify areas that need
                             improvement and direct resources to address customer concerns.
                             They could also provide redress-seekers an opportunity to
                             communicate their experiences and expectations about the program
                             and their overall level of satisfaction. This information can serve
                             as a valuable baseline to evaluate program successes and
                             challenges, and the program’s overall effect on those subject to
                             government-related travel difficulties.

                   Recommendation
                             We recommend that the Assistant Secretary for the Transportation
                             Security Administration, in consultation with the Director of the
                             Screening Coordination Office:

                             Recommendation #24: Collect and report on redress-seeker
                             impressions of the TRIP website, different aspects of the redress
                             experience, and their overall satisfaction with the program, with


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 101
                                    SENSITIVE SECURITY INFORMATION



                             the aim of using this information to identify areas for
                             improvement.

                   Management Comments and OIG Analysis
                             DHS Response: DHS concurred with Recommendation 24. DHS
                             management said that the new case management system, to be
                             implemented by the 4th quarter of FY 2011, will collect
                             information from redress-seekers through web-based surveys and
                             other means.

                             OIG Analysis: DHS’ proposed actions are responsive to the intent
                             of this recommendation, which is resolved and open. The solution
                             DHS has proposed is appropriate, and will be helpful in the future.
                             However, DHS should not delay action in this area until the end of
                             FY 2010. DHS should take immediate steps to gather and report
                             on redress-seeker impressions of different aspects of the program.
                             This recommendation will remain open until we receive
                             documentation that demonstrates the collection and reporting of
                             redress-seeker feedback concerning the TRIP website, different
                             aspects of the redress experience, and overall program satisfaction.
                             This documentation should reflect immediate efforts in this area as
                             well as future plans.


         Future Considerations for Enhancing TRIP
                   Previous report sections identify areas for TRIP improvement and present
                   recommendations to effect positive changes in those areas. DHS should
                   undertake these near- and long-term corrective actions immediately. In
                   this section, we discuss other, less pressing respects in which the program
                   could be improved. In particular, we describe possible enhancements in
                   program accessibility and TRIP’s influence on screening process
                   improvements. DHS should consider improvements in these areas only
                   after it has addressed the more urgent needs described earlier in the report.

                   Access to TRIP Could Be Expanded

                             Daily, the U.S. government applies traveler screening and security
                             measures to millions of people from around the world, in a host of
                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 102
                                    SENSITIVE SECURITY INFORMATION



                             locations in the United States and abroad. TSA screens more than
                             2 million passengers a day at domestic airports, while CBP
                             processes approximately 1.13 million travelers through U.S. ports
                             of entry on a daily basis. Travelers with grievances may reside
                             anywhere and come from a full range of cultural and linguistic
                             backgrounds. To be available to the diverse and geographically
                             dispersed population with grievances about U.S. government
                             screening and security measures, TRIP redress services must be
                             highly accessible.

                             We identified three ways that TRIP could increase accessibility to
                             make its services more readily available to a larger proportion of
                             those with screening and security grievances.

                             Improve and Expand Dissemination of Program Information

                             First, TRIP could expand and improve information on its website.
                             The website currently provides basic information on TRIP and
                             responses to some questions that travelers may ask, such as who
                             should use the program and how petitioners’ information is used.
                             The website also includes hyperlinks to websites for some of the
                             traveler screening programs and activities on which people can
                             submit redress requests through TRIP. However, the TRIP website
                             does not provide information on or links to all of the screening
                             programs and initiatives for which TRIP is to provide redress. Nor
                             does it provide a frequently asked question (FAQ) feature to help
                             travelers understand TRIP in greater depth.

                             Early program plans called for TRIP to have a more expansive and
                             informative website for travelers. Participants in TRIP’s early
                             development in 2006 stressed the value of a FAQ feature and
                             created a draft set of answers to 47 questions for the website.
                             TRIP’s program manager advised these participants that a final
                             version of the FAQs would appear on the TRIP website, but it has
                             not. The absence of FAQs from the TRIP website is at odds with
                             other program statements as well. The TRIP brochure distributed
                             at airports and DHS’ TRIP Privacy Impact Assessment both refer
                             the public to FAQs on TRIP’s website. The absence of FAQs on
                             the TRIP website is also puzzling because the program’s original


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 103
                                    SENSITIVE SECURITY INFORMATION



                             IT system development contract was amended to include a
                             requirement for the developer to add FAQs to the website.

                             By adding features to its website to address redress-seekers’
                             questions, TRIP may be able to reduce its workload and satisfy
                             traveler concerns. TRIP receives about 200 general travel inquiries
                             by email per week. TSA’s general customer service hotline
                             responds to approximately 1,200 calls a month regarding redress.
                             In addition to reducing the volume of these inquiries, increased
                             information on what to expect in the screening and border crossing
                             processes may address some travelers’ misconceptions that might
                             otherwise lead them to submit a formal redress petition.

                             Returns on website revisions could be significant. CBP’s primary
                             redress case intake unit, the Customer Service Center, uses
                             interactive FAQs to address traveler questions. CBP website users
                             can submit travel inquiries to CBP’s Customer Service Center only
                             when a FAQ does not address their questions. This approach has
                             reduced the number of queries the center receives. Whereas CBP’s
                             travel FAQs were accessed 176,021 times in September 2008, only
                             2,391 questions were subsequently submitted to CBP.

                             Expand Accessibility To Non-English-Speaking Persons

                             TRIP could be more accessible to non-English-speaking persons.
                             TRIP has issued brochures about the program in English and
                             Spanish, but its website and intake form are available only in
                             English. This English-only approach may exclude a significant
                             number of aggrieved travelers and complicate the redress process
                             for many others. Almost 10% of TRIP redress requests originate
                             from petitioners who reside outside of the United States. Hundreds
                             of other potential redress petitioners may never learn of the
                             program because program materials are unavailable in their native
                             language. In other cases, those with limited English reading and
                             writing proficiency may have to enlist the assistance of others to
                             complete the redress process, adding inconvenience and potentially
                             cost to their grievances about contacts with the U.S. government.

                             TRIP’s English-only approach to redress is in part an outgrowth of
                             staff limitations. The program does not have the necessary staff to

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 104
                                    SENSITIVE SECURITY INFORMATION



                             review and process redress petitions that include travel narratives
                             written in languages other than English. After the program takes
                             steps to enact basic improvements in its management and case
                             processing activities, it should evaluate options for extending
                             redress support to non-English-speaking persons. In so doing,
                             TRIP should study other DHS programs with multilingual
                             accessibility and explore ways of leveraging those resources. For
                             example, a number of TRIP participants offer multilingual
                             accessibility for their programs. US-VISIT publishes brochures in
                             10 languages, CBP’s Electronic System for Travel Authorization
                             brochures are available in 13 languages, and ICE’s Student and
                             Exchange Visitor Program’s outreach materials appear in 6
                             languages. CBP’s website is available in English and Spanish, its
                             Global Entry online applications are accessible in English and
                             French, and its Customer Service Center employs Spanish-
                             speaking telephone representatives.

                             Alternative Access to Program Information Should Be Explored

                             TRIP could provide alternative modes of access to program and
                             case status information. Redress-seekers currently have limited
                             options for submitting TRIP redress requests. They are
                             encouraged to submit their requests through TRIP’s secure online
                             portal and either mail or email their supporting documentation to
                             TRIP separately. Alternatively, redress-seekers can obtain a
                             redress request form and mail or email it to the program along with
                             supporting documentation.

                             Most difficulties that prompt people to apply for redress through
                             TRIP occur at U.S. airports and ports of entry. Travelers at these
                             locations also generally have the identifying document information
                             that TRIP needs to process their redress cases. For these reasons,
                             airports and ports of entry are desirable locations for travelers to
                             start the redress process. DHS provides some information to
                             travelers about the redress process at those locations; TRIP has
                             issued brochures to TSA and CBP personnel at airports and ports
                             of entry and made them available to air carrier representatives to
                             distribute to aggrieved travelers. However, it does not provide
                             redress-seekers with a direct means of initiating the redress process
                             at these locations. To capitalize on the opportunity for travelers to

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 105
                                    SENSITIVE SECURITY INFORMATION



                             begin the redress process, DHS should consider installing or
                             leveraging existing kiosks or using DHS staff already on site to
                             collect redress forms and information.

                             In addition, TRIP currently provides no means for redress-seekers
                             to have live contact with people familiar with the redress process
                             or their redress case status. Public and private sector customer
                             service surveys indicate that customers value the personal contact
                             and dynamic exchange available through live contacts with service
                             representatives. Customer service operations in public and private
                             sector settings frequently rely on call centers to provide this type of
                             live exchange. TRIP clients may benefit from a similar approach.

                   TRIP Could Do More to Identify Possible Screening Process
                   Improvements

                             TRIP could help identify possible screening and border security
                             process improvements. It could use the data it collects from
                             travelers’ redress requests to determine which aspects of the
                             screening processes cause travelers the greatest consternation and
                             are the source of most complaints. Meanwhile, it could use data on
                             general traveler inquiries to inform DHS communication strategies
                             on its travel and screening programs.

                             TRIP has done some limited work to identify screening process
                             improvements, but has not undertaken a regular, deliberate effort
                             in this area. In April and May 2008, the TRIP program office used
                             case intake data to assess the effect of the DHS Secretary’s
                             announcement about air carrier passenger prescreening programs
                             on the volume of government redress petitions. In another
                             instance, TRIP participants observed that a number of redress cases
                             stemmed from data issues related to a particular kind of visa, and
                             took proactive measures to resolve the problem for all visa holders.
                             Similarly, ICE’s Student and Exchange Visitor Information System
                             redress representative said that he had used TRIP case information
                             to identify and correct larger data entry error patterns in the
                             system, which had caused international students unwarranted
                             difficulties upon return to the United States.



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 106
                                    SENSITIVE SECURITY INFORMATION



                             TRIP must do more in this area if it is to fulfill DHS’ public
                             declarations about the program’s role in fostering screening
                             process improvements. TRIP’s Privacy Impact Assessment and
                             System of Records Notice both indicate that it will use redress data
                             to assist DHS in identifying aspects of the screening process that
                             need improvement. However, TRIP does not perform the type of
                             systematic data analysis required to identify emerging trends in
                             redress complaints. Nor does it have a process to relay information
                             about complaint patterns to other agency or DHS screening
                             managers. We encourage TRIP managers to consider these
                             innovations.


         Conclusion
                   TRIP has been operational for almost two years. During that time, it has
                   effected several improvements in traveler redress efforts across the federal
                   government. Nonetheless, as with many new programs, it has room for
                   improvement.

                   TRIP will not be able to realize these improvements unless the department
                   takes steps to reinforce the IT, organizational, and financial supports to the
                   program. DHS must also take immediate action to provide for redress that
                   is more meaningful to retain public confidence and trust in the program.
                   TRIP needs other key improvements in its security, privacy, reliability,
                   timeliness, and performance management. Once the program overcomes
                   challenges in these areas, it should seek to address accessibility issues and
                   leverage redress data more effectively to improve screening processes.

                   TRIP offers the promise of more effective government engagement with
                   the traveling public. Redress-seekers submitting petitions through TRIP
                   are advised that the program will assist them with their travel difficulties.
                   Under present circumstances, however, redress-seekers generally do not
                   benefit from their participation in TRIP. Their cases often languish for
                   extended periods and are handled inconsistently. Sometimes their cases
                   are not brought to the attention of the appropriate agency. In other
                   instances, cases are closed before all indicated agencies have had a chance
                   to review them. Even when cases are properly reviewed, they do not
                   usually produce meaningful results for redress-seekers. In most cases,
                   government actions in a redress case do not improve redress-seekers’

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 107
                                    SENSITIVE SECURITY INFORMATION



                   travel experiences. After the redress process has been completed, TRIP
                   provides little information about the basis for redress-seekers’ travel
                   difficulties, the action the government took to address it, or what other
                   steps redress-seekers may take to help themselves in the future. Finally, at
                   no point in the process does TRIP gather customer comments on the
                   quality of its services.

                   DHS faces substantial challenges in realizing TRIP’s full potential. We
                   have made many recommendations to help the department overcome these
                   challenges. Taken together, the challenges may be daunting, but DHS
                   must dedicate itself to addressing each of them if it is to comply with its
                   statutory obligation to provide fair and timely traveler redress.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 108
                                    SENSITIVE SECURITY INFORMATION
Appendix A
Purpose, Scope, and Methodology



                   We conducted this review in response to a request from U.S.
                   Representative Bennie G. Thompson, Chairman of the House Homeland
                   Security Committee. Our objectives were to determine whether the
                   Traveler Redress Inquiry Program (TRIP) was (1) collecting, processing,
                   and safeguarding information as intended; (2) processing responses to
                   individual requests in a timely manner; and (3) accelerating the refinement
                   and correction of erroneous screening information, and contributing to
                   screening process improvements.

                   We conducted our fieldwork from March 2008 to September 2008.
                   During this period, we conducted more than 50 interviews. We met with
                   staff from nine DHS components: TSA, CBP, CRCL, ICE, Office of
                   General Counsel, PRIV, SCO, USCIS, and US-VISIT. We also met with
                   officials from the departments of Justice and State and the National
                   Counterterrorism Center, and interviewed industry trade representatives,
                   as well as representatives of five U.S. air carriers.

                   We performed extensive document review and analysis. We reviewed
                   redress-related testimony, and public declarations about TRIP. We
                   reviewed laws and regulations related to DHS redress efforts, as well as
                   pertinent studies by the GAO and DOJ’s Office of Inspector General. We
                   examined related DHS and DOJ directives, agreements, policy, and
                   procedures. In addition, we analyzed information in TRIP’s redress
                   management system, information from the No Fly and Selectee lists, and
                   program performance statistics.

                   We conducted this review under the authority of the Inspector General Act
                   of 1978, as amended, and according to the Quality Standards for
                   Inspections issued by the President’s Council on Integrity and Efficiency.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 109
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 110
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 111
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 112
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 113
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 114
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 115
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 116
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 117
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 118
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 119
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 120
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 121
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 122
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 123
                                    SENSITIVE SECURITY INFORMATION
Appendix B
Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 124
                                    SENSITIVE SECURITY INFORMATION
Appendix C
Department of Justice Management Comments to the Final Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 125
                                    SENSITIVE SECURITY INFORMATION
Appendix C
Department of Justice Management Comments to the Final Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 126
                                    SENSITIVE SECURITY INFORMATION
Appendix C
Department of Justice Management Comments to the Final Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 127
                                    SENSITIVE SECURITY INFORMATION
Appendix C
Department of Justice Management Comments to the Final Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 128
                                    SENSITIVE SECURITY INFORMATION
Appendix D
Department of State Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 129
                                    SENSITIVE SECURITY INFORMATION
Appendix D
Department of State Management Comments to the Draft Report




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 130
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs


TRIP Participant Redress Program Summaries
                   Federal agencies and offices in three Cabinet-level departments support
                   TRIP. This appendix provides information on redress programs and
                   activities for the agencies and offices that participate in TRIP, as well as
                   associated case statistics.

                   U.S. Customs and Border Protection

                             CBP is responsible for protecting the integrity of the Nation’s
                             borders while facilitating legitimate trade and travel into the
                             United States. CBP receives most of its redress requests through
                             TRIP, but also receives a number of requests directly. CBP redress
                             cases generally pertain to the treatment of travelers at ports of
                             entry. Related complaints often focus on repeated secondary
                             inspections by CBP officers, other delays entering the country, and
                             denials of entry. Other complaints pertain to CBP’s trusted
                             traveler programs, screening efforts, and the basis for its
                             admissibility determinations.

                             Two CBP offices participate in TRIP: its Office of Public Affairs,
                             and Office of Field Operations. CBP’s Office of Public Affairs’
                             Customer Service Center provides CBP redress case intake and
                             triage services, while two units within the Office of Field
                             Operations review and adjudicate redress requests. In addition, an
                             Office of Field Operations representative at the TRIP office triages
                             all TRIP redress requests related to ports of entry to ensure that
                             they are referred to all appropriate agencies. CBP representatives
                             participate in the RCI Governance Board and attend TRIP user
                             group sessions. Seven CBP employees focus on TRIP redress
                             cases.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 131
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             Table 2: U.S. Customs and Border Protection
                             TRIP Case Statistics

                                      CBP Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                          1,521
                                 Closed - No Paperwork                         21
                                 Active - In Process                        1,874
                                 Closed - Processed                         4,012
                              Total Cases*                                  7,428
                              * Includes cases in which other agencies and
                                offices also participated.

                              Source: OIG Analysis of RMS Data, October 2008.



                   U.S. Immigration and Customs Enforcement

                             ICE is responsible for enforcing a broad array of criminal and
                             immigration laws. ICE combats criminals seeking to exploit
                             vulnerabilities in our immigration system, our financial networks,
                             along our border, and at federal facilities. ICE also apprehends,
                             detains, and removes immigration violators.

                             TRIP is ICE’s sole intake process for traveler redress inquiries.
                             ICE redress cases most often relate to lookouts law enforcement
                             agencies have placed in TECS pursuant to a criminal investigation
                             and the secondary inspections that these lookouts sometimes
                             prompt. Other ICE redress cases relate to student visa program
                             data or information entered into immigration systems related to
                             alien removals.

                             Two ICE divisions participate in TRIP: the Office of
                             Investigations, and Detention and Removal Operations. Within
                             ICE’s Office of Investigation, two units address TRIP cases. The
                             Office of Investigation’s Information Disclosure Unit coordinates
                             the review and adjudication of ICE-related cases linked to criminal

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 132
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             investigations. It is also TRIP’s liaison with criminal investigators
                             in other agencies, such as the U.S. Secret Service, and refers a
                             number of cases to DOJ’s TSC and coordinates with it on TRIP
                             responses. The Office of Investigations’ Student and Exchange
                             Visitor Program Office and ICE’s Detention and Removal
                             Operations review and adjudicate TRIP cases related to their
                             activities and data.

                             ICE representatives participate in the RCI Governance Board and
                             attend TRIP user group sessions.        ICE employees are
                             responsible for the review and adjudication of TRIP redress cases.

                             Table 3: U.S. Immigration and Customs Enforcement
                             TRIP Case Statistics

                                       ICE Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                             24
                                 Closed - No Paperwork                         15
                                 Active - In Process                          245
                                 Closed - Processed                         1,220
                              Total Cases*                                  1,504
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.



                   National Preparedness and Protection Programs Directorate

                             United States Visitor and Immigrant Status Indicator Technology
                             Program Office

                             The US-VISIT program office collects and records foreign
                             nationals’ biographic and biometric information upon entry to and
                             exit from the United States. US-VISIT-related redress requests can
                             be submitted through TRIP or directly to the US-VISIT program

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 133
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             office. The redress requests US-VISIT receives through TRIP
                             generally pertain to fingerprinting quality issues, mismatches
                             between biometric and biographical information, and lookouts in
                             the immigration system that houses biometric data.

                             US-VISIT participated in initial planning and implementation of
                             TRIP, and its Director served as one of the RCI Governance
                             Board’s original chairs. US-VISIT participates in the review and
                             adjudication of redress cases and attends RCI Governance Board
                             and TRIP user group meetings. One staff person in the US-VISIT
                             Privacy Office is responsible for managing the Program Office’s
                             TRIP caseload.

                             Table 4: US-VISIT Program Office TRIP Case Statistics

                                  US-VISIT Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                              27
                                 Closed - No Paperwork                           1
                                 Active - In Process                            53
                                 Closed - Processed                            176
                              Total Cases*                                     257
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.



                   Office for Civil Rights and Civil Liberties

                             CRCL advises DHS leadership on civil rights and civil liberties
                             matters, directs the department’s equal employment opportunity
                             programs, and investigates civil rights and civil liberties-related
                             complaints. Most allegations of DHS violations of civil rights and
                             civil liberties are reported to CRCL directly. Others are referred to
                             CRCL through TRIP. CRCL redress requests are varied, and
                             include complaints about inappropriate pat-downs during the

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 134
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             screening process, poor holding facility conditions at ports of
                             entry, and security requirements that do not fully account for
                             travelers’ religious traditions and practices. The office employs an
                             investigative threshold and does not investigate every case it
                             receives.

                             CRCL was one of the original sponsors of the TRIP effort, and
                             provided contract and staff support for the RCI Governance Board
                             through the end of 2006. The CRCL Director was one of three
                             original chairs of the Governance Board. CRCL remains an active
                             member of the Governance Board and participates in TRIP user
                             group meetings. The office’s primary ongoing engagement with
                             TRIP is through the review and adjudication of redress requests.
                             One CRCL employee reviews and adjudicates TRIP cases.

                             Table 5: Office for Civil Rights and Civil Liberties
                             TRIP Case Statistics

                                     CRCL Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                              37
                                 Closed - No Paperwork                          39
                                 Active - In Process                           394
                                 Closed - Processed                            494
                              Total Cases*                                     964
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.



                   Privacy Office

                             PRIV seeks to minimize DHS’ effect on individual privacy while
                             supporting attainment of DHS objectives. PRIV is the
                             department’s steward in navigating the various laws, executive


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 135
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             orders, and court decisions related to the collection, use, and
                             disclosure of personal and departmental information.

                             The office receives redress cases both independently and through
                             TRIP. TRIP redress-seekers often communicate privacy concerns
                             in the context of concerns about misidentification, possible watch
                             list matches, and allegations of officer misconduct.

                             PRIV provided privacy policy guidance and oversight for TRIP in
                             its early development. It continues to participate in the RCI
                             Governance Board and attends TRIP user group meetings. PRIV
                             reviews and adjudicates redress cases. One PRIV staff member is
                             assigned to TRIP case processing. Other staff oversee this work
                             and have participated in the development of the office’s standard
                             operating procedures for TRIP.

                             Table 6: Privacy Office TRIP Case Statistics

                                 Privacy Office TRIP Participation
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                             50
                                 Closed - No Paperwork                          3
                                 Active - In Process                          706
                                 Closed - Processed                           838
                              Total Cases*                                  1,597
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.



                   Transportation Security Administration

                             TSA is responsible for the security of the Nation’s transportation
                             network, including highways, mass transit systems, ports, and
                             airports. TRIP is TSA’s conduit for formal traveler redress
                             complaints. Most TSA redress cases relate to terrorist watch list

                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 136
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             misidentifications. Some requests relate to individuals who have
                             been correctly identified as being on a watch list, while others
                             pertain to allegations of screener misconduct or difficulties with
                             TSA security programs.

                             TSA is TRIP’s business owner, the owner and architect of its
                             primary case management system, and its operational lead. TSA is
                             also an integral part of the RCI Governance Board.

                             OTSR, a unit in TSA’s Office of Special Counselor, performs most
                             TRIP activities. OTSR’s Director serves as the TRIP program
                             manager and presides over the TRIP user group sessions. OTSR is
                             responsible for all TRIP intake activities; performs case triage,
                             review, and adjudication on the bulk of TRIP cases; and prepares
                             and transmits most of the program’s formal responses to redress-
                             seekers. OTSR performs these functions with a staff of six and the
                             support of three contractors.

                             Table 7: Transportation Security Administration
                             TRIP Case Statistics

                                       TSA Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                            9,137
                                 Closed - No Paperwork                        1,563
                                 Active - In Process                            885
                                 Closed - Processed                          26,312
                              Total Cases*                                   37,897
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 137
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                   U.S. Citizenship and Immigration Services

                             USCIS administers immigration and citizenship benefits, and
                             adjudicates benefits status filings related to employment
                             authorizations, asylum and refugee status, international adoption,
                             and citizenship. USCIS has an expansive customer service
                             network but receives formal traveler redress requests primarily
                             through TRIP. In most cases, USCIS plays a supporting role in
                             determining the source of redress-seekers’ travel difficulties. In
                             some instances, however, redress-seekers’ travel difficulties arise
                             from inconsistencies, inaccuracies, or duplication of USCIS
                             immigration records.

                             USCIS participates in RCI Governance Board sessions. One
                             employee in a unit of USCIS’ Information and Customer Service
                             Division generally performs USCIS case review and adjudication
                             activities for TRIP.

                             Table 8: U.S. Citizenship and Immigration Services
                             TRIP Case Statistics

                                     USCIS Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                              17
                                 Closed - No Paperwork                           0
                                 Active - In Process                            49
                                 Closed - Processed                             47
                              Total Cases*                                     113
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 138
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

         Department of Justice

                   Federal Bureau of Investigation

                             Terrorist Screening Center

                             The TSC maintains the government’s consolidated database of
                             known and reasonably suspected terrorists, the TSDB. The TSC
                             makes information in the database available to federal, state, local,
                             and tribal government entities for screening and security purposes.
                             Most TSC redress cases stem from a TRIP redress inquiry,
                             although the TSC has received case referrals from other sources.
                             TSC redress cases are typically petitions for removal from a
                             terrorist watch list. Other cases relate to individuals who are an
                             exceptionally close match to a watch list record but not its intended
                             target.

                             The TSC has engaged in terrorist watch list-related redress
                             activities for several years. The TSC was the primary architect of
                             an interagency memorandum of understanding on terrorist watch
                             list redress that was completed and signed in 2007. The TSC has
                             an independent unit dedicated to reviewing and adjudicating
                             redress cases. The TSC’s Redress Office has            staff. TRIP
                             case statistics are not available for the TSC’s participation in the
                             program because TRIP’s IT system, RMS, does not clearly identify
                             cases that the program has referred to the TSC.


         Department of State

                   Bureau of Consular Affairs

                             The Bureau of Consular Affairs is responsible for protecting the
                             lives and interests of U.S. citizens abroad, providing passports to
                             U.S. citizens, and adjudicating and issuing visas to noncitizens for
                             both permanent and temporary entry into the United States. The
                             Bureau of Consular Affairs receives redress requests directly, as
                             well as through TRIP. TRIP redress requests referred to this office


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 139
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             generally concern outdated or inaccurate subject or passport
                             lookouts in TECS.

                             Two units within the Bureau of Consular Affairs participate in
                             TRIP: the Passport Services Directorate and the Office of Visa
                             Services. Consular Affairs representatives were active in early
                             RCI Governance Board discussions. Thirteen Consular Affairs
                             employees review and adjudicate TRIP redress cases on a limited,
                             part-time basis.

                             Table 9: Department of State TRIP Case Statistics

                                      DOS Participation in TRIP
                                        Related Cases                     Number
                              Case Status
                                 Pending Paperwork                               6
                                 Closed - No Paperwork                           0
                                 Active - In Process                           167
                                 Closed - Processed                            261
                              Total Cases*                                     434
                              * Includes cases in which other agencies and
                                offices also participated.
                              Source: OIG Analysis of RMS Data, October 2008.



         Other Federal Agencies
                             Several other federal agencies participate in the review and
                             adjudication of TRIP redress cases. Their involvement in the
                             process is coordinated through one of two agencies. Most TRIP
                             case review and adjudication activities related to law enforcement
                             matters are coordinated through ICE. ICE works with the U.S.
                             Secret Service, Drug Enforcement Administration, and Bureau of
                             Alcohol Tobacco, Firearms, and Explosives, among other law
                             enforcement agencies, to review and adjudicate related redress
                             petitions.


                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 140
                                    SENSITIVE SECURITY INFORMATION
Appendix E
Summary of Participating Agency and Office Redress Programs

                             DOJ’s TSC works with the National Counterterrorism Center to
                             coordinate redress case review and evaluation activities for
                             elements of the Intelligence Community. The FBI, Central
                             Intelligence Agency, and Defense Intelligence Agency, among
                             other Intelligence Community members, provide information and
                             recommendations to address redress petitions related to terrorist
                             watch lists.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 141
                                    SENSITIVE SECURITY INFORMATION
Appendix F
TRIP Traveler Inquiry Form




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 142
                                    SENSITIVE SECURITY INFORMATION
Appendix F
TRIP Traveler Inquiry Form




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 143
                                    SENSITIVE SECURITY INFORMATION
Appendix F
TRIP Traveler Inquiry Form




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 144
                                    SENSITIVE SECURITY INFORMATION
Appendix F
TRIP Traveler Inquiry Form




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 145
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 146
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 147
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 148
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 149
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 150
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 151
                                    SENSITIVE SECURITY INFORMATION
Appendix G
TRIP Sample Response Letters




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 152
                                    SENSITIVE SECURITY INFORMATION
Appendix H
TRIP Case Status Codes

                                  RMS Status Code                                             Case Status
            All Participating Agencies / Offices
            Pending Paperwork                                                             Pending Paperwork
            No Paperwork                                                                 Closed - No Paperwork
            In Process                                                                         In Process
            TSA
            Selectee Match                                                                  Active - In Process
            No Fly Match                                                                    Active - In Process
            Closed: Misidentified                                                           Closed - Processed
            Closed: Positive Selectee                                                       Closed - Processed
            Closed: Positive No Fly                                                         Closed - Processed
            Closed: Downgraded                                                              Closed - Processed
            Closed: Removed from Watch List                                                 Closed - Processed
            Closed: Federal Law Enforcement Officer                                         Closed - Processed
            Legacy Record                                                                   Closed - Processed
            In Process: Multiple Components                                                 Active - In Process
            Non-TRIP Related                                                                Closed - Processed
            CBP
            Received (CBP Desk)                                                            Active - In Process
            Transferred to Other Agency                                                    Active - In Process
            Received (CBP Office of Public Affairs)                                        Active - In Process
            In Process                                                                     Active - In Process
            Closed / Letter Sent                                                           Closed - Processed
            Reopened                                                                       Active - In Process
            Requested Additional Information                                               Pending Paperwork
            Transferred to Other Agency (CBP Headquarters)                                 Active - In Process
            ICE
            Assigned                                                                        Active - In Process
            Closed                                                                          Closed - Processed
            US-VISIT
            Pending                                                                         Active - In Process
            Closed: No Action                                                               Closed - Processed
            Closed: Data Corrected                                                          Closed - Processed



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 153
                                    SENSITIVE SECURITY INFORMATION
Appendix H
TRIP Case Status Codes


                                  RMS Status Code                                             Case Status
            Privacy Office
            In Process                                                                      Active - In Process
            Closed                                                                          Closed - Processed
            CRCL
            In Process                                                                      Active - In Process
            Closed                                                                          Closed - Processed
            USCIS
            Notify Subject to Make an INFO Pass Appointment                                Active - In Process
            Background Check                                                               Active - In Process
            Pending: Waiting for Additional Information / Documents                        Pending Paperwork
            Pending: Within Processing Times                                               Pending Paperwork
            Closed: Status Granted                                                         Closed - Processed
            Closed: Status Denied                                                          Closed - Processed
            DOS
            In Process                                                                      Active - In Process
            Closed                                                                          Closed - Processed

         Source: RMS User Functionality Guide, October 2007; and OIG Analysis of October 2008 RMS
         Data.




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 154
                                    SENSITIVE SECURITY INFORMATION
Appendix I
Timeline of Significant Redress Developments


                   November 2004                 TSA establishes OTSR

                   2005                          TSC initiates interagency watch list redress
                                                 discussions

                   January 17, 2006              RCI announcement

                   August 17, 2006               First meeting of RCI Governance Board

                   October 6, 2006               TSA RMS system launch (precursor to TRIP RMS)

                   December 21, 2006             CBP mandates use of PLOR at ports of entry in
                                                 response to misidentifications

                   February 13, 2007             Reports of security issues with TSA RMS website

                   February 13, 2007             TSA RMS transitioned to TRIP website

                   February 21, 2007             TRIP launched

                   May 23, 2007                  RMS and TRIP online portal taken offline for
                                                 reprogramming

                   July 31, 2007                 RMS and TRIP online portal relaunched on
                                                 TSA-approved platform

                   September 19, 2007 Interagency Redress Memorandum of
                                      Understanding signed

                   December 10, 2007             OTSR designated DHS Office of Appeals and
                                                 Redress

                   April 28, 2008                Secretary Chertoff announces air carrier eligibility
                                                 to establish passenger preclearance programs

                   October 28, 2008              TSA issues Secure Flight Program Final Rule



                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 155
                                    SENSITIVE SECURITY INFORMATION
Appendix J
Major Contributors To This Report


         Marcia Moxey Hodges, Chief Inspector, Department of Homeland Security,
         Office of Inspector General

         Justin H. Brown, Senior Inspector and Team Leader, Department of Homeland
         Security, Office of Inspector General, Office of Inspections

         Anne Ford, Inspector, Department of Homeland Security, Office of Inspector
         General, Office of Inspections

         Jordan Brafman, Inspector, Department of Homeland Security, Office of
         Inspector General, Office of Inspections




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 156
                                    SENSITIVE SECURITY INFORMATION
Appendix K
Report Distribution


                             Department of Homeland Security

                             Secretary
                             Deputy Secretary
                             Chief of Staff for Operations
                             Chief of Staff for Policy
                             Deputy Chiefs of Staff
                             General Counsel
                             Executive Secretariat
                             Assistant Secretary for Office of Policy
                             Assistant Secretary for Office of Public Affairs
                             Assistant Secretary for Office of Legislative Affairs
                             Chief Privacy Officer
                             Acting Officer for Civil Rights and Civil Liberties
                             Acting Assistant Secretary for the Transportation Security
                             Administration
                             Acting Commissioner, U.S. Customs and Border Protection
                             Assistant Secretary for U.S. Immigration and Customs
                             Enforcement
                             Director, U.S. Citizenship and Immigration Services
                             Director of the Screening Coordination Office
                             Under Secretary, National Protection and Programs Directorate
                             Director, US-VISIT
                             Director, GAO/OIG Liaison Office
                             Policy Office-OIG Liaison
                             TSA Audit Liaison
                             CBP Audit Liaison
                             ICE Audit Liaison
                             USCIS Audit Liaison

                             U.S. Department of Justice

                             Director, Terrorist Screening Center
                             FBI Inspection Division Liaison
                             DOJ GAO/OIG Liaison




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 157
                                    SENSITIVE SECURITY INFORMATION
Appendix K
Report Distribution

                             U.S. Department of State

                             Assistant Secretary, Bureau of Consular Affairs

                             Office of Management and Budget

                             Chief, Homeland Security Branch
                             DHS Program Examiner

                             Congress

                             Congressional Oversight and Appropriations Committees, as
                             appropriate




                                    SENSITIVE SECURITY INFORMATION

           Effectiveness of the Department of Homeland Security Traveler Redress Inquiry Program

WARNING: This record contains Sensitive Security Information that is controlled under 49 CFR part 1520. No part
of this record may be disclosed to persons without a “need to know” as defined in 49 CFR parts 15 and 1520, except
with the written permission of the Administrator of the Transportation Security Administration or the Secretary of
Transportation. Unauthorized release may result in civil penalty or other action. For U.S. government agencies, public
disclosure is governed by 5 U.S.C. 552 and 49 CFR part 1520.

                                                      Page 158
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
